<html>
<title> - CYBER SECURITY</title>
<body><pre>[Senate Hearing 112-40]
[From the U.S. Government Publishing Office]



 
                                                         S. Hrg. 112-40

                             CYBER SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON A JOINT STAFF DISCUSSION DRAFT PERTAINING TO CYBER 
 SECURITY OF THE BULK-POWER SYSTEM AND ELECTRIC INFRASTRUCTURE AND FOR 
                             OTHER PURPOSES

                               __________

                              MAY 5, 2011



[GRAPHIC NOT AVAILABLE IN TIFFF FORTMAT]



                       Printed for the use of the
               Committee on Energy and Natural Resources


                              __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-362 PDF                    WASHINGTON: 2011
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8c9b84ab889e989f838e879bc5888486c5">[email&#160;protected]</a>  









               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Cauley, Gerry, President and Chief Executive Officer, North 
  American Electric Reliability Corporation......................    17
Hoffman, Patricia, Assistant Secretary, Office of Electricity 
  Delivery and Energy Reliability, Department of Energy..........     3
McClelland, Joseph, Director, Office of Electric Reliability, 
  Federal Energy Regulatory Commission...........................     8
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Owens, David, Executive Vice President, Business Operations, 
  Edison Electric Institute......................................    24
Tedeschi, William, Senior Scientist, Engineer, Sandia National 
  Laboratories, Albuquerque, NM..................................    31

                                APPENDIX

Responses to additional questions................................    61


                             CYBER SECURITY

                              ----------                              


                         THURSDAY, MAY 5, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Good morning. Thanks for coming today to 
this hearing. It's a hearing devoted to cyber security in the 
electric sector.
    The safety of the North American power system is critical 
to the Nation's economy and to our security. Today that power 
system includes over 200,000 miles of high voltage transmission 
lines, thousands of generating facilities, millions of digital 
controls. Each year we upgrade and expand the system, adding 
more miles of transmission lines, new supply resources and 
control devices.
    As we upgrade and expand the Nation's electric system we 
are also modernizing that system. Information technology and 
communication systems have come to play a significant role in 
ensuring the reliability and security of the electric sector. 
While modernization allows us to achieve a variety of important 
economic and environmental objectives, it also introduces new 
security concerns. As this process unfolds, preserving and 
enhancing the cyber security of our electric infrastructure 
must be among our top priorities.
    So, let me highlight 2 things.
    First, the electric sector is already subject to a set of 
mandatory and enforceable cyber security standards that are 
developed by industry stakeholders and approved by the Federal 
Energy Regulatory Commission. This fundamentally distinguishes 
the electric sector from virtually all other critical 
infrastructure sectors. However, I do not believe that the 
existing suite of reliability standards and the process for 
developing them is sufficient to defend electric infrastructure 
against deliberate cyber attacks and to address system 
vulnerabilities. The new authorities contemplated in the 
discussion draft that we've circulated fill these gaps in a way 
that will help to complement current cyber security standards.
    The second point I wanted to make is that today it's almost 
2 years since the day--since our cyber security hearing 
occurred in the 111th Congress. In fact, we are fortunate to 
welcome many of the same witnesses. The draft legislation we're 
discussing today is very similar to the legislation we 
discussed in 2009. It recognizes positive changes in the 
standards development and approval processes.
    However, in the time since our last hearing the security 
environment has also changed and certainly much more quickly. 
Cyber related threats can arise virtually anytime/anywhere and 
change without warning. For these reasons, there is no reason 
we should not delay in acting to enhance the cyber security of 
our electric system.
    I note that this is not the only committee in the Senate 
working on cyber security issues. I welcome the opportunity to 
work closely with other committees to ensure that the product 
of this committee's efforts work seamlessly with the proposals 
coming out of other committee's work.
    With that let me call on Senator Murkowski for her 
comments.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome to the 
witnesses this morning.
    The 2007 Aurora experiment by the Department of Energy and 
the Idaho National Lab put us all on notice of dangers of a 
cyber attack. In that experiment researchers hacked into a 
replica power plant's control systems causing the generator to 
self destruct. Aurora showed us that large coordinated attacks 
could severely damage the Nation's electric infrastructure.
    Since then there have been a growing number of cyber 
intrusions in government and critical infrastructure networks. 
Starting in November 2009, cyber attacks which were dubbed 
``Night Dragon'' attacks, were launched against several global 
oil, energy and petrochemical companies. The attackers targeted 
highly sensitive proprietary and financing information on oil 
and gas fuel bids and operations. Then last year the Stuxnet 
worm demonstrated the complexity of what a potential cyber 
security attack could look like in this country.
    I think we recognize that the danger that is posed to our 
Nation's electric infrastructure from a possible cyber attack 
is very clear. Congress must provide government agencies with 
the authority to respond to cyber security threats and their 
vulnerabilities and do so in a timely manner. At the same time 
it's critical to recognize the electric industry is currently 
the only critical infrastructure sector to have mandatory and 
enforceable cyber security standards in place. We must continue 
to encourage a public/private partnership to protect the 
Nation's critical infrastructure. To that end, we must ensure 
that the private sector has the information that it needs to 
respond to credible cyber threats and vulnerabilities.
    I think we recognize that it is industry that has the 
expertise in operating our Nation's complex utility systems. 
The discussion draft legislation that we're considering can be 
part of a responsible solution. The draft provides both FERC 
and DOE with needed tools to address today's known risks and 
weaknesses as well as future threats.
    We've also tried to respect the so-called section 215 
process that was originally created in the 2005 Energy Policy 
Act. That Act passed an electric reliability organization, 
since designated as NERC, with developing mandatory, 
enforceable, reliability standards in partnership with industry 
stakeholders. I understand that section of the discussion draft 
may still need a little bit of work here. So I would look 
forward to hearing from our witnesses on that aspect of it this 
morning.
    One area that we have not included in the draft legislation 
are the physical threats posed by electromagnetic pulses and 
geomagnetic storms. Based on the testimony that we receive 
today the committee will need to decide if we should address 
those issues within this legislation. As the chairman has 
noted, this committee is just 1 of 7 committees that are 
examining the cyber issue. What we're considering today is an 
electricity sector piece. But it does appear that the 
administration and the leadership prefer a government wide, 
comprehensive approach to cyber security.
    Clearly cyber security involves a great many actors and a 
host of technical considerations. We'll work to report out our 
part of the cyber puzzle. Then if a comprehensive approach is 
decided on, certainly work with other committees and leadership 
in fitting our piece into the broader field.
    I thank you again, Mr. Chairman, and look forward to the 
testimony from the witnesses.
    The Chairman. Thank you very much.
    We have 5 witnesses today. Let me just introduce them 
briefly.
    The Honorable Patricia Hoffman, who is the Assistant 
Secretary for the Office of Electricity Delivery and Energy in 
the Department of Energy. Thank you for being here.
    Mr. Joseph McClelland, who is the Director of the Office of 
Energy Projects with the Federal Energy Regulatory Commission. 
Thank you for being here.
    Mr. Gerry Cauley, who is President and Chief Executive 
Officer of the North American Electric Reliability Corporation. 
Thank you for being here.
    Mr. David Owens, the Executive Vice President for Business 
Operations with Edison Electric Institute. Thank you for being 
here.
    Finally, Mr. William Tedeschi, who is the Senior Scientist 
and Engineer with Sandia National Laboratory in Albuquerque.
    Thank you all for coming. Why don't each of you take 5 or 6 
minutes, tell us the main things you think we need to know 
about this subject? We will then have some questions.
    Ms. Hoffman, please go right ahead.

 STATEMENT OF PATRICIA HOFFMAN, ASSISTANT SECRETARY, OFFICE OF 
  ELECTRICITY DELIVERY AND ENERGY RELIABILITY, DEPARTMENT OF 
                             ENERGY

    Ms. Hoffman. Good morning, Mr. Chairman and members of the 
committee. I'd like to extend my thanks to the chairman, the 
ranking member and the esteemed members of the committee for 
inviting me here today to discuss the cyber security issues 
facing the electric industry as well as the discussion draft 
legislation intended to strengthen the protection of the bulk 
power system and the electric infrastructure from cyber 
security threats. Ensuring a resilient electric grid is 
particularly important since it is arguably the most complex 
and critical infrastructure, which other sectors depend upon 
for essential services.
    The Homeland Security Presidential Directive 7 designated 
the Department as the sector specific agency for the energy 
sector. My office works closely with the private sector, and 
State and Federal regulators to provide secure sharing of 
threat information, to identify and fund gaps in infrastructure 
research and testing, to conduct vulnerability assessments, and 
to encourage risk management strategies for critical energy 
infrastructure. Our office is building its capabilities to 
facilitate assistance to industry, and to conduct forensics and 
obtain situational awareness.
    The Administration's cyberspace Policy Review underscores 
the need to strengthen the public/private partnerships in order 
to design more secure technologies as well as improve the 
resilience of critical government and industry systems and 
networks. Our office has long recognized that neither the 
government, nor the private sector, nor individual citizens can 
meet cyber security challenges alone. We must work together.
    The Office of Electricity Delivery and Energy Reliability 
(OE) has launched several new initiatives to enhance cyber 
security in the energy sector.
    In coordination with the Department of Homeland Security 
and other Federal agencies, we have conducted several cyber 
threat information sharing workshops to analyze classified 
information to determine the impact to the sector and develop 
flexible mitigations specifically designed to work for the 
energy sector.
    In coordination with National Institute of Standards and 
Technologies and NERC, OE is leading a collaborative effort 
with representatives from across the public and private sectors 
to develop cyber security risk management guidelines.
    Through competitive solicitations and partnerships with 
industry, academia and national laboratories, OE has supported 
the development of several advanced cyber security technologies 
that are now commercially available within the energy sector. 
Some examples include: A technology to secure serial 
communications for control systems. Software tool kits that 
provide auditing of SCADA security settings. Vulnerabilities 
assessments of 38 different SCADA systems, and a common cyber 
security vulnerabilities report to help utilities and vendors 
mitigate vulnerabilities found in many SCADA systems. We are 
currently in the process of updating this report and hope to 
have that released this summer.
    The Senate discussion draft recognizes the important 
difference between cyber security vulnerabilities and the cyber 
security threat. In addition, section 224F requires a 
comprehensive plan to identify emergency measures to protect 
the reliability of the electric power supply of national 
defense facilities. Pertinent to that, in July 2010 DOE and DOD 
signed a Memorandum of Understanding concerning cooperation and 
a strategic partnership to enhance energy security. This MOU 
will provide an opportunity to develop a comprehensive approach 
that reduces the impact of power loss to defense critical 
assets in considering both the mitigation and response measures 
to ensure vital defense capabilities are not disrupted.
    Finally, the draft discussion does not address, a unique 
but sensitive cyber security information disclosure issue faced 
by the Federal Power Marketing Administrations that are 
subjected to both the Freedom of Information Act as well as 
mandatory reliability standards that are approved by FERC. This 
security vulnerability could be avoided if legislation was 
enacted that provided statutory protection of this information 
under Exemption Three of the Freedom of Information Act.
    In conclusion, I would like to again thank this committee 
for its leadership in supporting the protection of the bulk 
power system and the critical electric infrastructure against 
cyber security threats. Recognizing the interdependencies 
between different sectors, it is important to have a 
comprehensive strategy for cyber security legislation. DOE 
looks forward to the continued dialog with this committee on 
this legislation. I ask that my written statement be submitted 
for the record. I would be pleased to answer any questions this 
committee may have.
    Thank you.
    [The prepared statement of Ms. Hoffman follows:]
Prepared Statement of Patricia Hoffman, Assistant Secretary, Office of 
   Electricity Delivery and Energy Reliability, Department of Energy
    Chairman Bingaman, Ranking Member Murkowski and members of the 
Committee, thank you for this opportunity to discuss the cyber security 
issues facing the electric industry, as well as proposed legislation 
intended to strengthen protection of the bulk power system and electric 
infrastructure from cyber security threats.
    Title XIII of the Energy Independence and Security Act of 2007 
(EISA) states, ``It is the policy of the United States to support the 
modernization of the Nation's electricity transmission and distribution 
system to maintain a reliable and secure electricity infrastructure.'' 
The protection and resilience of critical national infrastructures is a 
shared responsibility of the private sector, government, communities, 
and individuals. As the complexity, scale, and interconnectedness of 
today's infrastructures have increased, it has changed the way services 
and products are delivered, as well as the traditional roles of owners, 
operators, regulators, vendors, and customers.
    Ensuring a resilient electric grid is particularly important since 
it is arguably the most complex and critical infrastructure that other 
sectors depend upon to deliver essential services. Over the past two 
decades, the roles of electricity sector stakeholders have shifted: 
generation, transmission, and delivery functions have been separated 
into distinct markets; customers have become generators using 
distributed generation technologies; and vendors have assumed new 
responsibilities to provide advanced technologies and improve security. 
These changes have created new responsibilities for all stakeholders in 
ensuring the continued security and resilience of the electric power 
grid.
             cyber security activities and accomplishments
    For more than a decade, the Department of Energy's Office of 
Electricity Delivery and Energy Reliability (OE) has been substantively 
engaged with the private sector to secure the electric grid. In 
December 2003, the Homeland Security Presidential Directive 7 (HSPD?7) 
designated the Department as the sector?specific agency (SSA) for the 
energy sector responsible for collaborating with all federal agencies, 
state and local governments, and the private sector. As the SSA, OE, 
representing the Department, works closely with the private sector and 
state/Federal regulators to provide secure sharing of threat 
information, to collaborate with industry to identify and fund gaps in 
infrastructure research, development and testing efforts, to conduct 
vulnerability assessments of the sector, and to encourage risk 
management strategies for critical energy infrastructure.
    The 2010 National Security Strategy underscores the need to 
strengthen public-private partnerships in order to design more secure 
technology that will better protect and improve the resilience of 
critical government and industry systems and networks. OE has long 
recognized that neither government, nor the private sector, nor 
individual citizens can meet cyber security challenges alone. In 2006, 
OE facilitated the development of the Roadmap to Secure Control Systems 
in the Energy Sector to provide a detailed collaborative plan for 
improving cyber security in the energy sector and concrete steps to 
secure control systems used in the electricity and oil and natural gas 
sectors. The plan calls for a 10-year implementation timeline with a 5-
year update scheduled for release in the summer of 2011. To implement 
the priorities in the Roadmap, the Energy Sector Control Systems 
Working Group was formed and comprised of cyber security and control 
systems experts from government, the electricity sector, and the oil 
and natural gas sector.
    Since 2006, the Roadmap has provided a collaborative strategy for 
prioritizing cyber security needs and focusing actions under way 
throughout government and the private sector to ensure future energy 
system security. The Roadmap goals and strategy have also been fully 
integrated into the Energy Sector-Specific Plan. Since the Roadmap was 
released, important progress has been made in improving cyber security 
in the energy sector. These improvements have benefited existing 
systems and are contributing to the secure design and integration of 
advanced systems that incorporate smart grid technologies.
    Through competitive solicitations and partnerships with industry, 
academia and national laboratories, OE has supported the development of 
several advanced cyber security technologies that are now commercially 
available within the energy sector:

  <bullet> A technology to secure serial communications for control 
        systems, based on the Secure Supervisory Control and Data 
        Acquisition (SCADA) Communications Protocol developed by the 
        Pacific Northwest National Laboratory. This technology is 
        rapidly being adopted by utilities.
  <bullet> Software toolkits, available for download from the vendor 
        website, that let electric utilities audit the security 
        settings of SCADA systems. The latest release addresses the 
        Inter-Control Center Communications Protocol (ICCP), which is 
        used for utility-to-utility communications.
  <bullet> Monitoring modules that aggregate security events from a 
        variety of data sources on the control system network and then 
        correlate the security events to help utilities better detect 
        cyber attacks.
  <bullet> An Ethernet security gateway, based on an interoperable 
        design developed by Sandia National Laboratories, that secures 
        site-to-site Ethernet communications and protects private 
        networks.

    OE established the National SCADA Test Bed in 2003 to provide a 
national capability for cyber security experts to systematically 
evaluate the components of a functioning system for inherent 
vulnerabilities, develop mitigations, and test the effectiveness of 
various cyber security technologies. Major accomplishments include:

  <bullet> Completed vulnerability assessments of 38 SCADA systems and 
        provided mitigation recommendations. As a result, vendors have 
        implemented many of the recommendations in ``hardened'' next-
        generation SCADA systems that are now commercially available 
        and being deployed in the power grid.
  <bullet> Utility groups have also formed partnerships to fund 
        additional cyber security assessments at the test bed to 
        address specific cyber security concerns.
  <bullet> Provided advanced cyber security training for over 2300 
        representatives from over 200 utilities to demonstrate how to 
        detect and respond to complex cyber attacks on SCADA systems.
  <bullet> Developed the ``Common Cyber Security Vulnerabilities 
        Observed in Control System Assessments'' report to help 
        utilities and vendors mitigate vulnerabilities found in many 
        SCADA systems. OE has also worked with the North American 
        Electric Reliability Corporation (NERC) to develop the Top Ten 
        Vulnerabilities of Control Systems and their Associated 
        Mitigations report in 2006 and 2007.

    OE is also working closely with academic and industry partners 
through the Trustworthy Cyber Infrastructure for the Power Grid 
(TCIPG), which is a University led public-private research partnership 
supported by OE, Department of Homeland Security (DHS), and Industry 
for frontier research that supports resilient and secure smart grid 
systems. TCIPG leverages and expands upon previous research funded 
primarily by the National Science Foundation. TCIPG research focuses on 
building trusted energy delivery control systems from un-trusted 
components, and transitioning next-generation cyber security 
technologies to the energy sector. As an example, TCIPG released the 
Network Access Policy Tool that is now being used by industry and asset 
owners to characterize the global effects of local firewall rules in 
control system architectures. The tool will help utilities better 
manage and maintain security on their highly-complex communications 
networks.
    Just recently, OE launched several new initiatives to enhance cyber 
security in the energy sector.

  <bullet> OE, in coordination with DHS and other Federal agencies, has 
        conducted several cyber threat information sharing workshops to 
        analyze classified information, determine the impact to the 
        sector, and develop mitigations that were specifically designed 
        to work in the sector. This cooperative process has proven to 
        be more effective and accepted than dictating solutions to the 
        sector.
  <bullet> OE, in coordination with the National Institute of Standards 
        and Technology (NIST) and NERC, is leading a collaborative 
        effort with representatives from across the public and private 
        sectors to develop a cyber security risk management guideline. 
        The objective of this effort is to provide a consistent, 
        repeatable, and adaptable process for the electric sector, and 
        enable organizations to proactively manage risk.

    Ensuring the cyber security of a modern, digital electricity 
infrastructure is a key objective of national smart grid efforts. As a 
result, a number of key initiatives have been developed to ensure 
future system security and enable the energy sector to better design, 
build, and integrate smart grid technologies. OE has engaged in 
partnerships to perform these activities with key organizations 
including Federal Energy Regulatory Commission (FERC), the U.S. 
Department of Commerce, NIST, DHS, the Federal Communications 
Commission, the Department of Defense (DoD), the intelligence 
community, the White House Office of Science and Technology Policy, 
state public utility commissions, the National Association of 
Regulatory Utility Commissioners, NERC, the Open Smart Grid 
Subcommittee, Electric Power Research Institute (EPRI), and other 
energy sector organizations.
    The American Recovery and Reinvestment Act of 2009 accelerated the 
development of smart grid technologies by investing in pilot projects, 
worker training, and large scale deployments. This public-private 
investment worth over $9.6 billion was dedicated to a nationwide plan 
to modernize the electric power grid, enhance the security of U.S. 
energy infrastructure, and promote reliable electricity delivery. The 
$4.5 billion in Recovery Act funds, managed by OE, was leveraged by 
$5.1 billion in funds from the private sector to support 132 Smart Grid 
Investment Grant and Smart Grid Demonstration Grant projects across the 
country. Each project awardee committed to implementing a cyber 
security plan that includes an evaluation of cyber risks and planned 
mitigations, cyber security criteria for device and vendor selection, 
and relevant standards or best practices the project will follow.
    As called for in Section 1305 of EISA, OE is collaborating with 
NIST and other agencies and organizations to develop a framework and 
roadmap for interoperability standards that includes cyber security as 
a critical element. As part of this effort, NIST established the 
public-private Smart Grid Interoperability Panel, and within that, the 
450-member Cyber Security Working Group (CSWG) to lead the development 
of cyber security requirements for the smart grid. After engaging 
members in numerous workshops and teleconferences and following two 
formal reviews, the CSWG released the first version of its ``Cyber 
Security Guidelines for the Smart Grid''. The three-volume document 
details a strategy that includes smart grid use cases, a high-level 
smart grid risk assessment process, smart grid-specific security 
requirements, development of a security architecture, assessment of 
smart grid standards, and development of a conformity assessment 
program for requirements.
    To address cyber security needs for smart grid technologies, OE 
partnered with leading utilities and EPRI to develop cyber security 
profiles for major smart grid applications--Advanced Metering 
Infrastructure, Third-Party Data Access, and Distribution Automation. 
These profiles provide vendor-neutral, actionable guidance to 
utilities, vendors and government entities on how to build cyber 
security into smart grid components in the development stage, and how 
to implement those safeguards when the components are integrated into 
the power grid. These documents support the NIST ``Cyber Security 
Guidelines for the Smart Grid'' NISTIR--7628. OE also co-chairs the 
NIST CSWG.
   senate energy and natural resources committee proposed legislation
    The proposed bill includes provisions intended to strengthen the 
bulk power system and electric infrastructure by addressing cyber 
security vulnerabilities and protecting against cyber security threats 
by adding a new section to the Federal Power Act (FPA). While the 
Administration does not yet have a position on the bill, the Department 
offers the following observations.
    To begin with, the proposed bill correctly identifies, defines, and 
distinguishes between a cyber security vulnerability and a cyber 
security threat. These are two related, but different concepts. 
Vulnerabilities need to be identified and addressed, while threats need 
to be protected against. In that regard, references in the proposed 
bill to ``protecting critical electric infrastructure from cyber 
security vulnerabilities'' should be changed to ``addressing critical 
electric infrastructure cyber security vulnerabilities.''
    In addition, Section 224(a)(1) defines critical electric 
infrastructure to include distribution assets that affect interstate 
commerce. This significantly expands FERC's jurisdiction for setting 
reliability standards beyond the bulk power system as provided in FPA 
section 215. Also, Section 224(f) would require a comprehensive plan 
identifying emergency measures to protect the reliability of the 
electric power supply of national defense facilities located in Alaska, 
Hawaii, and Guam in the event of an imminent cyber security threat. 
Pertinent to that, in July 2010, DOE and DoD signed a memorandum of 
understanding (MOU) ``Concerning Cooperation in a Strategic Partnership 
to Enhance Energy Security''. The purpose of the MOU is to enhance 
national energy security and demonstrate Federal Government leadership 
in transitioning America to a low carbon economy. This MOU provides an 
opportunity to develop a comprehensive approach that reduces the impact 
of power loss to defense critical assets, considering both mitigation 
and response measures to ensure vital defense capabilities are not 
disrupted.
    Finally, the legislation does not yet address a unique, sensitive 
cyber security information disclosure problem faced by Federal Power 
Marketing Administrations subject to both the Freedom of Information 
Act and mandatory reliability standards enacted under Section 215 of 
the Federal Power Act. This sensitive information, developed under the 
mandatory reliability standards, appears not to be protected from 
public disclosure under the Freedom of Information Act. This security 
vulnerability could be avoided if legislation providing statutory 
protection for this information were enacted that qualified under 
Exemption 3 of the Freedom of Information Act.
                               conclusion
    In conclusion, I would like to again thank this Committee for its 
leadership in supporting the protection of the bulk power system and 
critical electric infrastructure against cyber security threats. 
Recognizing the interdependencies between different sectors, it is 
important to have a comprehensive strategy for cyber security 
legislation. DOE would be happy to work with the Committee on this 
legislation.
    I would be pleased to address any questions the Committee might 
have.

    The Chairman. Thank you very much. Everyone's statement 
will be included in the record as if read, including the one 
that you've prepared.
    So, Mr. McClelland, go right ahead.

 STATEMENT OF JOSEPH MCCLELLAND, DIRECTOR, OFFICE OF ELECTRIC 
       RELIABILITY, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McClelland. Mr. Chairman and members of the committee, 
thank you for the privilege to appear before you today to 
discuss the security of the power grid. My name is Joe 
McClelland and I am the Director of the Office of Electric 
Reliability at the Federal Energy Regulatory Commission. I am 
here today as a Commission Staff Witness and my remarks do not 
necessarily represent the views of the Commission or any 
individual commissioner.
    In the Energy Policy Act of 2005 Congress entrusted the 
Commission with a major new responsibility, to oversee a 
mandatory, enforceable reliability and cyber security standards 
for the Nation's bulk power system. This authority is in 
section 215 of the Federal Power Act. It is important to note 
that FERC's authority under section 215 is limited to, ``the 
bulk power system,'' which excludes Alaska and Hawaii, 
transmission facilities in certain large cities such as New 
York, as well as all local distribution systems.
    Under section 215, FERC cannot author or modify reliability 
or cyber security standards but must depend upon an electric 
reliability organization or ERO to perform this task. The 
Commission selected the North American Electric Reliability 
Corporation or NERC as the ERO. The ERO develops and proposes 
cyber security standards or modifications for the Commission's 
review which it can either approve or remand.
    If the Commission approves the proposed cyber security 
standard it becomes mandatory and enforceable in the United 
States to all users, owners and operators of the bulk power 
system.
    If the Commission remands a proposed standard it is sent 
back to the ERO for further consideration.
    Pursuant to its responsibility to oversee the reliability 
and cyber security of the power grid, in January 2008 FERC 
approved eight cyber security standards known as the Critical 
Infrastructure Protection or CIP standards, but also directed 
NERC to make significant modifications to these standards. 
Compliance with these eight standards first became mandatory on 
July 1st, 2010. Although NERC has filed and the Commission has 
approved some modifications to the CIP standards the majority 
of the Commission's directed modifications to these standards 
have not yet been addressed by NERC. It is not clear how long 
it will take for the CIP standards to be modified to eliminate 
some of the significant gaps in protection within them.
    On a related note, as Smart grid technology is added to the 
bulk power system greater cyber security protections will be 
required. Given that this technology provides more access 
points thereby increasing the grid's vulnerabilities. The CIP 
standards will apply to some but not most of the Smart grid 
applications. Moreover there are non cyber threats that also 
pose national security concerns. Naturally occurring events are 
physical attacks against the power grid that cause equal or 
greater disruption than cyber attacks and the Federal 
Government should have no less ability to protect against them.
    One example is electromagnetic pulse or EMP. An EMP event 
could seriously degrade or shut down a large part of the 
electric power grid. In addition to manmade attacks, EMP events 
are also naturally generated caused by solar flares and storms 
disrupting the Earth's magnetic field.
    Such events are inevitable, can be powerful and can also 
cause significant and prolonged disruptions to the power grid. 
In fact, FERC, DHS and DOE recently completed a joint EMP study 
conducted through the Oak Ridge National Laboratory. The study 
evaluated both manmade and naturally occurring EMP events to 
determine their effects on the power system and to identify 
protective mitigation measures that could be installed. 
Included among its findings was that without effective 
mitigation that the solar storm of 1921 which is considered a 
one in one hundred year event were to occur today, over 300 
bulk power system transformers could be damaged or destroyed 
thereby interrupting power to 130 million people for 10 years.
    Although section 215 of the Federal Power Act can provide 
an adequate statutory foundation for the development of routine 
reliability standards for the bulk power system, the threat of 
cyber attacks or other intentional, malicious acts against the 
grid is different. These are threats that can endanger national 
security that may be posed by criminal organizations, terrorist 
groups, foreign Nations or others, intent on attacking the 
United States through its electric grid. A widespread 
disruption of electric service can quickly undermine our 
government, our military, our economy as well as endanger the 
health and safety of our citizens. Given the national security 
dimensions to this threat there may be a need to act quickly, 
to act in a manner where action is mandatory rather than 
voluntary and to protect certain information from public 
disclosure.
    The Commission's legal authority is inadequate for such 
action. New legislation should address several key concerns.
    First, FERC should be permitted to take direct action 
before a cyber or physical national security incident has 
occurred.
    Second, FERC should be allowed to maintain the appropriate 
confidentiality of security sensitive information.
    Third, the limitations on the term ``bulk power system'' 
should be understood as our current jurisdiction under 215 does 
not apply to Alaska and Hawaii as well as some transmission 
facilities and all local distribution facilities.
    Fourth, entities should be able to recover costs they 
incurred to mitigate the vulnerabilities and threats.
    Finally, legislation on national security threats to 
reliability should cover not only cyber security threats but 
also natural events and intentional, non-cyber, malicious acts 
including threats from an EMP.
    The cyber security discussion draft addresses many of these 
issues. Thank you for your attention today. I look forward to 
any questions that you might have.
    [The prepared statement of Mr. McClelland follows:]
 Prepared Statement of Joseph Mcclelland, Director, Office of Electric 
           Reliability, Federal Energy Regulatory Commission
    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to appear before you to discuss the security of the 
electric grid. My name is Joseph McClelland. I am the Director of the 
Office of Electric Reliability (OER) of the Federal Energy Regulatory 
Commission (FERC or Commission). The Commission's role with respect to 
reliability is to help protect and improve the reliability of the 
Nation's bulk power system through effective regulatory oversight as 
established in the Energy Policy Act of 2005. I am here today as a 
Commission staff witness and my remarks do not necessarily represent 
the views of the Commission or any individual Commissioner.
    My testimony summarizes the Commission's oversight of the 
reliability of the electric grid under section 215 of the Federal Power 
Act (FPA) and the Commission's implementation of that authority with 
respect to cyber security primarily through Order No. 706. I also will 
describe some of the current limitations in Federal authority to 
protect the grid against physical and cyber security threats, and also 
comment on the cyber security discussion draft. The Commission 
currently does not have sufficient authority to require effective 
protection of the grid against cyber or physical attacks. If adequate 
protection is to be provided, legislation is needed and my testimony 
discusses the key elements that should be included in legislation in 
this area.
                               background
    In the Energy Policy Act of 2005 (EPAct 2005), Congress entrusted 
the Commission with a major new responsibility to oversee mandatory, 
enforceable reliability standards for the Nation's bulk power system 
(excluding Alaska and Hawaii). This authority is in section 215 of the 
Federal Power Act. Section 215 requires the Commission to select an 
Electric Reliability Organization (ERO) that is responsible for 
proposing, for Commission review and approval, reliability standards or 
modifications to existing reliability standards to help protect and 
improve the reliability of the Nation's bulk power system. The 
Commission has certified the North American Electric Reliability 
Corporation (NERC) as the ERO. The reliability standards apply to the 
users, owners and operators of the bulk power system and become 
mandatory in the United States only after Commission approval. The ERO 
also is authorized to impose, after notice and opportunity for a 
hearing, penalties for violations of the reliability standards, subject 
to Commission review and approval. The ERO may delegate certain 
responsibilities to ``Regional Entities,'' subject to Commission 
approval.
    The Commission may approve proposed reliability standards or 
modifications to previously approved standards if it finds them ``just, 
reasonable, not unduly discriminatory or preferential, and in the 
public interest.'' The Commission itself does not have authority to 
modify proposed standards. Rather, if the Commission disapproves a 
proposed standard or modification, section 215 requires the Commission 
to remand it to the ERO for further consideration. The Commission, upon 
its own motion or upon complaint, may direct the ERO to submit a 
proposed standard or modification on a specific matter but it does not 
have the authority to modify or author a standard and must depend upon 
the ERO to do so.
Limitations of Section 215 and the Term ``Bulk Power System''
    Currently, the Commission's jurisdiction and reliability authority 
is limited to the ``bulk power system,'' as defined in the FPA, and 
therefore excludes Alaska and Hawaii, including any federal 
installations located therein. The current interpretation of ``bulk 
power system'' also excludes some transmission and all local 
distribution facilities, including virtually all of the grid facilities 
in certain large cities such as New York, thus precluding Commission 
action to mitigate cyber or other national security threats to 
reliability that involve such facilities and major population areas. 
The Commission recently issued Order No. 743, which directs NERC to 
revise its interpretation of the bulk power system to eliminate 
inconsistencies across regions, eliminate the ambiguity created by the 
current discretion in NERC's definition of bulk electric system, 
provide a backstop review to ensure that any variations do not 
compromise reliability, and ensure that facilities that could 
significantly affect reliability are subject to mandatory rules. NERC 
is currently developing its response to that order. However, it is 
important to note that section 215 of the FPA excludes local 
distribution facilities from the Commission's reliability jurisdiction, 
so any revised bulk electric system definition developed by NERC will 
still not apply to local distribution facilities.
Critical Infrastructure Protection Reliability Standards
    An important part of the Commission's current responsibility to 
oversee the development of reliability standards for the bulk power 
system involves cyber security. In August 2006, NERC submitted eight 
proposed cyber security standards, known as the Critical Infrastructure 
Protection (CIP) standards, to the Commission for approval under 
section 215. Critical infrastructure, as defined by NERC for purposes 
of the CIP standards, includes facilities, systems, and equipment 
which, if destroyed, degraded, or otherwise rendered unavailable, would 
affect the reliability or operability of the ``Bulk Electric System.'' 
Under NERC's implementation plan for the CIP standards, full compliance 
became mandatory on July 1, 2010.
    On January 18, 2008, the Commission issued Order No. 706, the Final 
Rule approving the CIP reliability standards while concurrently 
directing NERC to develop significant modifications addressing specific 
concerns. The Commission set a deadline of July 1, 2009 for NERC to 
resolve certain issues in the CIP reliability standards, including 
deletion of the ``reasonable business judgment'' and ``acceptance of 
risk'' language in each of the standards. NERC concluded that this 
deadline would create a very compressed schedule for its stakeholder 
process. Therefore, it divided all of the changes directed by the 
Commission into phases, based on their complexity. NERC opted to 
resolve the simplest changes in the first phase, while putting off more 
complex changes for later versions.
    NERC filed the first phase of the modifications to the CIP 
Reliability Standards (Version 2) on May 22, 2009. In this phase, NERC 
removed from the standards the terms ``reasonable business judgment'' 
and ``acceptance of risk,'' added a requirement for a ``single senior 
manager'' responsible for CIP compliance, and made certain other 
administrative and clarifying changes. In a September 30, 2009 order, 
the Commission approved the Version 2 CIP standards and directed NERC 
to develop additional modifications to certain of them. Pursuant to the 
Commission's September 30, 2009 order, NERC submitted Version 3 of the 
CIP standards which revised Version 2 as directed. The Version 3 CIP 
standards became effective on October 1, 2010. This first phase of the 
modifications directed by the Commission in Order No. 706, which 
encompassed both Version 2 and Version 3, did not modify the critical 
asset identification process, a central concern in Order No. 706.
    On February 10, 2011, NERC initiated the second phase of the Order 
No. 706 directed modification, filing a petition seeking approval of 
Version 4 of the CIP standards. Version 4 includes new proposed 
criteria to identify ``critical assets'' for purposes of the CIP 
reliability standards. This filing is currently under review by the 
Commission. In order to better understand the NERC Version 4 petition, 
particularly the number of critical cyber assets that will be 
identified under this revision, the Commission issued data requests to 
NERC, with responses due on July 11, 2011, which reflects an extension 
of time requested by NERC.
    The remaining CIP standards revisions to respond to the 
Commission's directives issued in Order No. 706 are still under 
development by NERC. It is important to note that the majority of the 
Order No. 706 directed modifications to the CIP standards have yet to 
be addressed by NERC. Until they are addressed, there are significant 
gaps in protection such as a needed requirement for a defense in depth 
posture. NERC's standards development plan filed with the Commission in 
April 2011 classifies these outstanding revisions to the CIP standards 
as ``High Priority'' with a targeted completion in the second quarter 
of 2012.
Identification of Critical Assets
    As currently written, the CIP reliability standards allow utilities 
significant discretion to determine which of their facilities are 
``critical assets and the associated critical cyber assets,'' and 
therefore are subject to the requirements of the standards. In Order 
No. 706, the Commission directed NERC to revise the standards to 
require independent oversight of a utility's decisions by industry 
entities with a ``wide-area view,'' such as reliability coordinators or 
the Regional Entities, subject to the review of the Commission. This 
revision to the standards, like all revisions, is subject to approval 
by the affected stakeholders in the standards development process. NERC 
has attempted to address this directive in Version 4 of the CIP 
standards, which is now under review by the Commission.
    When, in Order No. 706, the Commission approved Version 1 of the 
CIP reliability standards, it also required entities under those 
standards to self-certify their compliance progress every six months. 
In December 2008, NERC conducted a self-certification study, asking 
each entity to report limited information on its critical assets and 
the associated critical cyber assets identified in compliance with 
reliability standard CIP-002-1. As the Commission stated in Order No. 
706, the identification of critical assets is the cornerstone of the 
CIP standards. If that identification is not done well, the CIP 
standards will be ineffective at protecting the bulk power system. The 
results of NERC's self-certification request showed that only 29% of 
responding generation owners and operators identified at least one 
critical asset, while about 63% of the responding transmission owners 
identified at least one critical asset. NERC expressed its concern with 
these results in a letter to industry stakeholders dated April 7, 2009.
    NERC conducted another self-certification survey of responsible 
entities to determine progress towards identification of critical cyber 
assets. It gathered information about critical assets and critical 
cyber assets as of December 31, 2009. This survey included additional 
questions designed to obtain a better understanding of the results from 
industry's critical asset identification process. In general, this 
survey did not demonstrate a significant increase in identified 
critical assets. NERC noted some encouraging results as well as some 
that were a cause for concern. In addition, the Regional Entities have 
been performing audits which have included registered entities' 
determination of their critical cyber asset lists. FERC staff has been 
observing selected audits to examine the Regional Entities' methods of 
conducting these audits. It is important to note that although 
``critical assets'' are used to identify subsequent ``critical cyber 
assets,'' only the subset of ``critical cyber assets'' are subject to 
the CIP standards.
    NERC's Critical Infrastructure Protection Committee released a 
guidance document to assist registered entities in identifying their 
critical assets. That document, which took effect on September 17, 
2009, provides ``guidelines'' that define which assets should be 
evaluated, provides risk-based evaluation guidance for determining 
critical assets, and describes reasonable bases that could be used to 
support that determination. A second NERC security guideline regarding 
critical cyber assets became effective on June 17, 2010. This security 
guideline ``provides guidance for identifying Critical Cyber Assets by 
evaluating potential impacts to `reliable operation' of a Critical 
Asset.'' Neither of these guidance documents contained any actions that 
were mandatory for users, owners or operators of the bulk-power system.
    Version 4 of the CIP standards, which are currently pending before 
the Commission, would change the way in which critical assets are 
identified. Instead of using a loosely defined risk-based assessment 
methodology, CIP-002 Version 4 Attachment 1 contains what NERC 
describes as ``uniform criteria for the identification of Critical 
Assets.'' For example, criterion 1.1 would identify generation plants 
equal to or greater than 1500MW as critical assets. The filing asserts 
that this would account for 29% of the installed generator capacity in 
the United States. Because this is an on-going proceeding before the 
Commission, I am limited in what I can discuss about the merits of 
NERC's petition.
                            the nerc process
    As an initial matter, it is important to recognize how mandatory 
reliability standards are established. Under section 215, reliability 
standards must be developed by the ERO through an open, inclusive, and 
public process. The Commission can direct NERC to develop a reliability 
standard to address a particular reliability matter, including cyber 
security threats or vulnerabilities. However, the NERC process 
typically requires years to develop standards for the Commission's 
review. In fact, the CIP standards approved by the Commission in 
January 2008 took approximately three years to develop.
    NERC's procedures for developing standards allow extensive 
opportunity for stakeholder comment, are open, and are generally based 
on the procedures of the American National Standards Institute. The 
NERC process is intended to develop consensus on both the need for, and 
the substance of, the proposed standard. Although inclusive, the 
process is relatively slow, open and unpredictable in its 
responsiveness to the Commission's directives. This process requires 
public disclosure regarding the reason for the proposed standard, the 
manner in which the standard will address the issues, and any 
subsequent comments and resulting modifications in the standards as the 
affected stakeholders review the material and provide comments. NERC-
approved standards are then submitted to the Commission for its review.
    The procedures used by NERC are appropriate for developing and 
approving routine reliability standards. The process allows extensive 
opportunities for industry and public comment. The public nature of the 
reliability standards development process can be a strength of the 
process. However, it can be an impediment when measures or actions need 
to be taken to address threats to national security quickly, 
effectively and in a manner that protects against the disclosure of 
security-sensitive information. The current procedures used under 
section 215 for the development and approval of reliability standards 
do not provide an effective and timely means of addressing urgent cyber 
or other national security risks to the bulk power system, particularly 
in emergency situations. Certain circumstances, such as those involving 
national security, may require immediate action, while the reliability 
standard procedures take too long to implement efficient and timely 
corrective steps. On September 3, 2010, FERC approved a new reliability 
standards process manual filed by NERC. While this manual includes a 
process for developing a standard related to a confidential issue, the 
new process is untested and it is unclear how the process would be 
implemented.
    FERC rules governing review and establishment of reliability 
standards allow the agency to direct the ERO to develop and propose 
reliability standards under an expedited schedule. For example, FERC 
could order the ERO to submit a reliability standard to address a 
reliability vulnerability within 60 days. Also, NERC's rules of 
procedure include a provision for approval of ``urgent action'' 
standards that can be completed within 60 days and which may be further 
expedited by a written finding by the NERC board of trustees that an 
extraordinary and immediate threat exists to bulk power system 
reliability or national security. However, it is not clear NERC could 
meet this schedule in practice. Moreover, faced with a national 
security threat to reliability, there may be a need to act decisively 
in hours or days, rather than weeks, months or years. That would not be 
feasible even under the urgent action process. In the meantime, the 
bulk power system would be left vulnerable to a known national security 
threat. Moreover, existing procedures, including the urgent action 
procedure, could widely publicize both the vulnerability and the 
proposed solutions, thus increasing the risk of hostile actions before 
the appropriate solutions are implemented.
    In addition, a reliability standard submitted to the Commission by 
NERC may not be sufficient to address the identified vulnerability or 
threat. Since FERC may not directly modify a proposed reliability 
standard under section 215 and must either approve or remand it, FERC 
would have the choice of approving an inadequate standard and directing 
changes, which reinitiates a process that can take years, or rejecting 
the standard altogether. Under either approach, the bulk power system 
would remain vulnerable for a prolonged period.
    This concern was highlighted in the Department of Energy Inspector 
General's January 2011 audit report on FERC's ``Monitoring of Power 
Grid Cyber Security.'' The audit report identified concerns regarding 
the adequacy of the CIP standards and the implementation and schedule 
for the CIP standards, and concluded that these problems exist, in 
part, because the Commission's authority to ensure adequate cyber 
security over the bulk electric system is limited. The audit report 
concludes that the Commission should take a more aggressive action when 
ordering new or revised standards and highlights its lack of authority 
to implement its own reliability standards or mandatory alerts in 
response to emerging threats or vulnerabilities. This report emphasizes 
the need for FERC to have additional authority for ensuring adequate 
cyber security over the bulk electric system.
    Finally, the open and inclusive process required for standards 
development is not consistent with the need to protect security-
sensitive information. For instance, a formal request for a new 
standard would normally detail the need for the standard as well as the 
proposed mitigation to address the issue, and the NERC-approved version 
of the standard would be filed with the Commission for review. This 
public information could help potential adversaries in planning 
attacks.
NERC's Formal Notices
    Currently, the alternative to a mandatory reliability standard is 
for NERC to issue a formal notice encouraging utilities and others to 
take voluntary action to guard against a specific cyber or other 
vulnerability. Such a notice may be an Advisory, a Recommendation or an 
Essential Action. The notice approach allows for quicker action, but 
compliance with a notice is voluntary, and will likely produce 
inconsistent and potentially ineffective responses. For example, two 
Advisories and a Recommendation were issued in 2010 by NERC, regarding 
an identified cyber security threat referred to as ``Stuxnet.'' The 
details of actions taken to mitigate the vulnerabilities identified by 
Stuxnet, and the assets to which they apply, as well as their 
effectiveness, are not known. Reliance on voluntary measures to protect 
national security is fundamentally inconsistent with the conclusion 
Congress reached during enactment of EPAct 2005, that voluntary 
standards are not sufficient to protect the reliability of the bulk 
power system.
                               smart grid
    The need for vigilance will increase as new technologies are added 
to the bulk power system. For example, smart grid technology promises 
significant benefits in the use of electricity. These include the 
ability to better manage not only energy sources but also energy 
consumption. However, a smarter grid would permit two-way communication 
between the electric system and a large number of devices located 
outside of controlled utility environments, which will introduce many 
potential access points.
    Smart grid applications will automate many decisions on the supply 
and use of electricity to increase efficiencies and ultimately to allow 
cost savings. Without adequate physical and cyber protections, however, 
this level of automation may allow adversaries to gain access to the 
rest of the company's data and control systems and cause significant 
harm. Security features must be an integral consideration when 
developing smart grid technology and must be assured before widespread 
installation of new equipment. The challenge will be to focus not only 
on general approaches but, importantly, on the details of specific 
technologies and the risks they may present.
    Regarding data, there are multiple ways in which smart grid 
technologies may introduce new cyber vulnerabilities into the system. 
For example an attacker could gain access to a remote or intermediate 
smart grid device and change data values monitored or received from 
down-stream devices, and pass the incorrect data up-stream to cause 
operators or automatic programs to take incorrect actions.
    In regard to control systems, an attacker that gains access to the 
communication channels could order metering devices to disconnect 
customers, order previously shed load to come back on line prematurely, 
or order dispersed generation sources to turn off during periods when 
load is approaching generation capacity, causing instability and 
outages on the bulk power system. One of the potential capabilities of 
the smart grid is the ability to remotely disconnect service using 
advanced metering infrastructure (AMI). If insufficient security 
measures are implemented in a company's AMI application, an adversary 
may be able to access the AMI system and could conceivably disconnect 
every customer with an AMI device. If such an attack is widespread 
enough, the resultant disconnection of load on the distribution system 
could result in impacts to the bulk power system. If an adversary 
follows this disconnection event with a subsequent and targeted cyber 
attack against remote meters, the restoration of service could be 
greatly delayed.
    In addition to any smart grid related standards that may be adopted 
by the Commission, the CIP standards will apply to some, but not most, 
smart grid applications. The standards require users, owners and 
operators of the bulk power system to protect cyber assets, including 
hardware, software and data, which would affect the reliability or 
operability of the bulk power system. These assets are identified using 
a risk-based assessment methodology that identifies electric assets 
that are critical to the reliable operation of the bulk power system. 
If a smart grid device were to control a critical part of the bulk 
power system, it should be considered a critical cyber asset subject to 
the protection requirements of the CIP standards. However, this 
designation is currently up to the affected entity as part of its self-
determination of critical cyber assets, as discussed previously.
    Many of the smart grid applications will be deployed at the 
distribution and end-user level. For example, some applications may be 
targeted at improving market efficiency in ways that may not have a 
reliability impact on the bulk power system, such that the protection 
requirements of the CIP standards, as they are currently written, may 
not apply. However, as discussed above, these applications either 
individually or in the aggregate could affect the bulk power system.
           physical security and other threats to reliability
    The existing reliability standards do not extend to physical 
threats to the grid, but physical threats can cause equal or greater 
destruction than cyber attacks and the Federal government should have 
no less ability to act to protect against such potential damage. One 
example of a physical threat is an electromagnetic pulse (EMP) event. 
In 2001, Congress established a commission to assess the threat from 
EMP, with particular attention to be paid to the nature and magnitude 
of high-altitude EMP threats to the United States; vulnerabilities of 
U.S. military and civilian infrastructure to such attack; capabilities 
to recover from an attack; and the feasibility and cost of protecting 
military and civilian infrastructure, including energy infrastructure. 
In 2004, the EMP commission issued a report describing the nature of 
EMP attacks, vulnerabilities to EMP attacks, and strategies to respond 
to an attack.\1\ A second report was produced in 2008 that further 
investigated vulnerabilities of the Nation's infrastructure to EMP.\2\ 
Both electrical equipment and control systems can be damaged by EMP.
---------------------------------------------------------------------------
    \1\ Graham, Dr. William R. et al., Report of the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP) 
Attack (2004).
    \2\ Dr. John S., Jr. et al., Report of the Commission to Assess the 
Threat to the United States from Electromagnetic Pulse (EMP) Attack 
(2008).
---------------------------------------------------------------------------
    An EMP may also be a naturally-occurring event caused by solar 
flares and storms disrupting the Earth's magnetic field. In 1859, a 
major solar storm occurred, causing auroral displays and significant 
shifts of the Earth's magnetic fields. As a result, telegraphs were 
rendered useless and several telegraph stations burned down. The 
impacts of that storm were muted because semiconductor technology did 
not exist at the time. Were the storm to happen today, according to an 
article in Scientific American, it could ``severely damage satellites, 
disable radio communications, and cause continent-wide electrical 
black-outs that would require weeks or longer to recover from.''\3\ 
Although storms of this magnitude occur rarely, storms and flares of 
lesser intensity occur more frequently. Storms of about half the 
intensity of the 1859 storm occur every 50 years or so according to the 
authors of the Scientific American article, and the last such storm 
occurred in November 1960, leading to world-wide geomagnetic 
disturbances and radio outages. The power grid is particularly 
vulnerable to solar storms, as transformers are electrically grounded 
to the Earth and susceptible to damage from geomagnetically induced 
currents. The damage or destruction of numerous transformers across the 
country would result in reduced grid functionality and even prolonged 
power outages.
---------------------------------------------------------------------------
    \3\ Odenwald, Sten F. and Green, James L., Bracing the Satellite 
Infrastructure for a Solar Superstorm, Scientific American Magazine 
(Jul. 28, 2008).
---------------------------------------------------------------------------
    In March 2010, Oak Ridge National Laboratory (Oak Ridge) and their 
subcontractor Metatech released a study that explored the vulnerability 
of the electric grid to EMP-related events. This study was a joint 
effort contracted by FERC staff, the Department of Energy and the 
Department of Homeland Security and expanded on the information 
developed in other initiatives, including the EMP commission reports. 
The series of reports provided detailed technical background and 
outlined which sections of the power grid are most vulnerable, what 
equipment would be affected, and what damage could result. Protection 
concepts for each threat and additional methods for remediation were 
also included along with suggestions for mitigation. The results of the 
study support the general conclusion that EMP events pose substantial 
risk to equipment and operation of the Nation's power grid and under 
extreme conditions could result in major long term electrical outages. 
In fact, solar magnetic disturbances are inevitable with only the 
timing and magnitude subject to variability. The study assessed the 
1921 solar storm, which has been termed a 1-in-100 year event, and 
applied it to today's power grid. The study concluded that such a storm 
could damage or destroy up to 300 bulk power system transformers 
interrupting service to 130 million people for a period of years.
    The existing reliability standards do not address EMP 
vulnerabilities. Protecting the electric generation, transmission and 
distribution systems from severe damage due to an EMP-related event 
would involve vulnerability assessments at every level of electric 
infrastructure.
                        the need for legislation
    In my view, section 215 of the Federal Power Act provides an 
adequate statutory foundation for the ERO to develop most reliability 
standards for the bulk power system. However, the nature of a national 
security threat by entities intent on attacking the U.S. through 
vulnerabilities in its electric grid stands in stark contrast to other 
major reliability vulnerabilities that have caused regional blackouts 
and reliability failures in the past, such as vegetation management and 
protective relay maintenance practices. Widespread disruption of 
electric service can quickly undermine the U.S. government, its 
military, and the economy, as well as endanger the health and safety of 
millions of citizens. Given the national security dimension to this 
threat, there may be a need to act quickly to protect the grid, to act 
in a manner where action is mandatory rather than voluntary, and to 
protect certain information from public disclosure.
    The Commission's current legal authority is inadequate for such 
action. This is true of both cyber and physical threats to the bulk 
power system that pose national security concerns.
    Any new legislation should address several key concerns. First, to 
prevent a significant risk of disruption to the grid, legislation 
should allow the Commission to take action before a cyber or physical 
national security incident has occurred. In my opinion, the cyber 
security discussion draft addresses this concern by allowing the 
Commission to timely act on cyber security vulnerabilities before an 
incident occurs and by giving the Secretary of Energy emergency 
authority to act on cyber security threats. In particular, the 
Commission should be able to require mitigation even before or while 
NERC and its stakeholders develop a standard, when circumstances 
require urgent action.
    Second, any legislation should allow the Commission to maintain 
appropriate confidentiality of sensitive information submitted, 
developed or issued under this authority. Without such confidentiality, 
the grid may be more vulnerable to attack and the Commission will not 
be able to adequately protect it. The cyber security discussion draft 
also includes provisions for protection of critical electric 
infrastructure information, which includes a provision for FERC to 
establish procedures to allow the Commission to release critical 
infrastructure information to the extent necessary to enable entities 
to implement any FERC order under the proposal. It also appropriately 
would require FERC to limit redistribution of information so that the 
information is only in the hands of those that need to know.
    Third, if additional reliability authority is limited to the bulk 
power system, as that term is currently defined in the FPA, it would 
not authorize Commission action to mitigate cyber or other national 
security threats to reliability that involve certain critical 
facilities and major population areas. The cyber security discussion 
draft would apply to any entity that owns, controls, or operates 
critical electric infrastructure. While Alaska and Hawaii would be 
excluded, the discussion draft requires the Secretary of Defense to 
prepare a comprehensive plan to protect any national defense facilities 
located in those states.
    Fourth, it is important that entities be able to recover costs they 
incur to mitigate vulnerabilities and threats. The cyber security 
discussion draft requires the Commission to permit public utilities to 
recover prudently incurred costs required to implement immediate 
actions ordered by the Secretary of Energy to avert or mitigate a cyber 
security threat. I support this provision and any clarifications that 
might better ensure recovery of costs incurred under this legislation.
    Finally, in my view, any legislation on national security threats 
to reliability should address not only cyber security threats but also 
natural events; i.e., a geomagnetic disturbance, or intentional 
physical malicious acts (targeting, for example, critical substations 
and generating stations) including threats from an electromagnetic 
pulse. This additional authority would not displace other means of 
protecting the grid, such as action by federal, state and local law 
enforcement and the National Guard. If particular circumstances cause 
both FERC and other governmental authorities to require action by 
utilities, FERC would coordinate with other authorities as appropriate.
    In short, any new authority should allow the Commission to quickly 
order mandatory measures that are focused and confidential to address 
fast-moving, sophisticated and targeted cyber and physical attacks and 
natural events while providing cost recovery to the affected entities.
                               conclusion
    The Commission's current authority is not adequate to address cyber 
or other national security threats to the reliability of our 
transmission and power system. These types of threats pose an 
increasing risk to our Nation's electric grid, which undergirds our 
government and economy and helps ensure the health and welfare of our 
citizens. Congress should address this risk now. The cyber security 
discussion draft in front of us today would go a long way to resolving 
this issue. Thank you again for the opportunity to testify today. I 
would be happy to answer any questions you may have.

    The Chairman. Thank you very much.
    Mr. Cauley, go right ahead.

   STATEMENT OF GERRY CAULEY, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, NORTH AMERICAN ELECTRIC RELIABILITY CORPORATION

    Mr. Cauley. Good morning, Chairman Bingaman, Ranking Member 
Murkowski, members of the committee and fellow panelists.
    As CEO of the organization that is charged with overseeing 
the reliability and security of the North American grid, I wake 
up every day concerned about the emerging risks caused by 
intentional actions of our adversaries who would do harm to our 
Nation and to our citizens. The security of the North American 
power grid is an utmost priority for NERC. The mainstay of 
NERC's critical infrastructure program is a set of nine 
mandatory cyber security standards that we actively monitor and 
enforce.
    We've recently made significant strides in improving our 
cyber standards. When I came onboard at NERC in 2010 I 
recognized the importance of establishing bright line criteria 
for the identification of critical assets to be protected. The 
new standard was developed in 6 months and filed with the 
Commission in February of this year and is pending their 
approval.
    Our standards process works for what it was intended to do, 
to establish sustained, baseline requirements for the 
reliability and resilience of the bulk power system. However, 
there's no single approach, not even compliance with mandatory 
standards that will protect the grid against all threats from 
physical and cyber attacks. The threat environment is 
constantly changing and our defenses must keep pace. Achieving 
a high degree of resilience requires continuously adaptive 
measures beyond those outlined in our standards, measure we are 
actively pursuing today.
    The most important of these activities is the operation of 
the electricity sector, information sharing and analysis 
center. In this role NERC works closely with Federal partners 
to promptly disseminate threat indications, warnings and 
analysis to electricity sector participants. The crux of a 
dynamic, adaptive strategy is to get timely, actionable 
information to the asset owners and operators and the experts 
in the field.
    NERC staff has the necessary security clearances to work 
with the Department of Homeland Security, DOE and Federal 
intelligence agencies to generate unclassified recommendations 
that lead to actions by industry. Using this process NERC has 
issued 14 security related alerts since January 2010 covering 
such issues as Aurora, Stuxnet, Night Dragon and other threats. 
The NERC alert system works well coupled with our CIP standards 
and availability of a new, confidential and expedited standards 
development process NERC has the tools we need to protect the 
cyber security of the bulk power system.
    NERC is leading a number of other initiatives to ensure the 
resilience of the bulk power system.
    We're preparing an industry wide security exercise in 
November 2011. Jointly with DOE and NIST, we are developing 
cyber security best practices for electric systems including 
distribution.
    In collaboration with the DOE national labs, we're 
initiating a program to monitor grid cyber networks and another 
program to improve the training and qualifications of industry 
cyber experts.
    With regard to the proposed draft legislation, first and 
foremost, NERC has consistently supported legislation to 
address cyber emergencies and improve information sharing 
between government and the private sector. It is my 
interpretation of section 215(d)(5) that FERC now has the 
authority to direct NERC to prepare a standard that is needed 
to address a specific vulnerability including cyber security 
and to do so by a certain date. Therefore it is not clear to me 
that the vulnerability section proposed in the new section 
224(b) is needed.
    If section 224(b) is returned, first I'm concerned that the 
jurisdiction extends to distribution systems which were 
intentionally excluded from jurisdiction of FERC and NERC in 
section 215. If the intent is to expand the scope of authority 
for electric system security into distribution systems this is 
a critical issue requiring involvement of the States and also 
calls for consultation with asset owners and operators and 
other stakeholders should be included in such a process.
    Second, I'm concerned that no requirement exists in the 
draft legislation for FERC to identify any deficiency in 
existing reliability standards or a cyber security 
vulnerability for the ERO to address. Without some specific 
idea of the problem to be solved it would be difficult for the 
ERO to produce an adequate set of requirements.
    Third, the discussion draft calls for the ERO to develop a 
reliability standard in response to a FERC order on 
vulnerabilities. But given the dynamic nature of threats and 
vulnerabilities many are not appropriate to be addressed by a 
standard. Currently NERC's essential action alerts are not 
legally enforceable. Legislation that provides a means for both 
standards and other emergency directives to be legally 
enforceable would significantly enhance the cyber security of 
the grid. Such an approach would require the involvement of 
both the ERO and the Commission and sufficient due process for 
those entities subject to the requirements.
    I believe legislation addressing the security of the 
Nation's electricity infrastructure could be beneficial, that 
the framework should focus on enabling information sharing and 
problem solving between the government and private sectors. 
NERC's standards provide a baseline of cyber protection for a 
power grid. Our alert program is effective in addressing 
emerging threats. Legislation could help by addressing the due 
process requirements and enforceability of emergency 
directives.
    Thank you for the opportunity to speak today. I look 
forward to your questions.
    [The prepared statement of Mr. Cauley follows:]
   Prepared Statement of Gerry Cauley, President and Chief Executive 
        Officer, North American Electric Reliability Corporation
                              introduction
    Good morning Chairman Bingaman, Ranking Member Murkowski, members 
of the Committee and fellow panelists. My name is Gerry Cauley and I am 
the President and CEO of the North American Electric Reliability 
Corporation (NERC). I am a graduate of the U.S. Military Academy, a 
former officer in the U.S. Army Corps of Engineers, and have more than 
30 years' experience in the bulk power system\1\ industry, including 
service as a lead investigator of the August 2003 Northeast blackout 
and coordinator of the NERC Y2K program. I appreciate the opportunity 
to testify today on the discussion draft of cybersecurity legislation.
---------------------------------------------------------------------------
    \1\ The Bulk Power System (sometimes referred to as ``BPS'') is 
defined as generation and transmission of electricity greater than 
100kv, in contrast to the distribution of electricity to homes and 
businesses at lower voltages.
---------------------------------------------------------------------------
    NERC's Mission
    NERC's mission is to ensure the reliability of the bulk power 
system of North America and promote reliability excellence. NERC was 
founded in 1968 to develop voluntary standards for the owners and 
operators of the bulk power system. NERC is an independent corporation 
whose membership includes large and small electricity consumers, 
government representatives, municipalities, cooperatives, independent 
power producers, investor-owned utilities, independent transmission 
system operators and federal power marketing agencies such as TVA and 
Bonneville Power Administration.
    In 2007, NERC was designated the Electric Reliability Organization 
(ERO) by the Federal Energy Regulatory Commission (FERC) in accordance 
with Section 215 of the Federal Power Act (FPA), enacted by the Energy 
Policy Act of 2005. Upon approval by FERC, NERC's reliability standards 
became mandatory within the United States. These mandatory reliability 
standards include Critical Infrastructure Protection (CIP) Standards 
001 through 009, which address the security of cyber assets essential 
to the reliable operation of the electric grid. To date, these 
standards (and those promulgated by the Nuclear Regulatory Commission) 
are the only mandatory cybersecurity standards in place across the 
critical infrastructures of the United States. Subject to FERC 
oversight, NERC and its Regional Entity partners enforce these 
standards, which are developed with substantial input from industry and 
approved by FERC, to accomplish our mission to ensure the reliability 
of the electric grid. In its position between industry and government, 
NERC embodies the often-invoked goal of creating effective partnerships 
between the public sector and the private sector.
    As a result of society's growing dependence on electricity, the 
electric grid is one of the Nation's most critical infrastructures. The 
bulk power system in North America is one of the largest, most complex, 
and most robust systems ever created by mankind. Throughout North 
America, four interconnections with a capacity of over one-million 
megawatts of generation and nearly half-a-million miles of high voltage 
transmission lines all acting in unison, meet the electric needs of 
more than 340 million people, with a maximum demand of nearly 850 
thousand megawatts. The electricity being used in this room right now 
is generated and transmitted in real time over a complex series of 
lines and stations from as far away as Ontario or Tennessee. As complex 
as it is, few machines are as robust as the bulk power system. Decades 
of experience with hurricanes, ice storms and other natural disasters, 
as well as mechanical breakdowns, vandalism and sabotage, have taught 
the electric industry how to build strong and reliable networks that 
generally withstand all but the worst natural and physical disasters 
while supporting affordable electric service. The knowledge that 
disturbances on the grid can impact operations thousands of miles away 
has influenced the electric industry culture of reliability, affecting 
how it plans, operates and protects the bulk power system.
     the cybersecurity challenge for the grid and nerc's approach 
                            to addressing it
    Along with the rest of our economy, the electric industry has 
become increasingly dependent on digital technology to reduce costs, 
increase efficiency and maintain the reliability of the bulk power 
system. The networks and computer environments that make up this 
digital technology could be as vulnerable to malicious attacks and 
misuse as any other technology infrastructure. Much like the defense of 
this country, the defense of the bulk power system requires constant 
vigilance and expertise.
    As CEO of the organization charged with overseeing the reliability 
and security of the North American grid, I am deeply concerned about 
the changing risk landscape from conventional risks, such as extreme 
weather and equipment failures, to new and emerging risks where we are 
left to imagine scenarios that might occur and prepare to avoid or 
mitigate the consequences. Some of those consequences could be much 
more severe than we have previously experienced. I am most concerned 
about coordinated physical and cyber attacks intended to disable 
elements of the power grid or deny electricity to specific targets, 
such as government or business centers, military installations, or 
other infrastructures. These threats differ from conventional risks in 
that they result from intentional actions by adversaries and are not 
simply random failures or acts of nature.
    The most effective approach against such adversaries is through 
thoughtful application of resiliency principles, as outlined in a 
National Infrastructure Advisory Council (NIAC) report on the grid 
delivered to the White House in October 2010. I served on that council 
along with a number of industry CEOs. Resiliency requires proactive 
readiness for whatever may come our way and includes robustness; the 
ability to minimize consequences in real-time; the ability to restore 
essential services; and the ability to adapt and learn. Examples of the 
NIAC team's recommendations include: 1) a national response plan that 
clarifies the roles and responsibilities between industry and 
government; 2) improved sharing of actionable information by government 
regarding threats and vulnerabilities; 3) cost recovery for security 
investments driven by national policy; and 4) a strategy on spare 
equipment with long lead times, such as electric power transformers.
critical infrastructure protection (``cip'') reliability standards and 
       other nerc measures to address cybersecurity threats and 
                            vulnerabilities
    NERC's critical infrastructure program, including both reliability 
standards and alerts, provides many tools to respond to cyber threats 
and vulnerabilities. Industry, consumers, and government 
representatives all participate in the NERC standards development 
process and provide important expertise.

1. Reliability Standards
    NERC has nine existing CIP standards that address the following 
areas:

  <bullet> Standard CIP-001: Covers Sabotage Reporting.
  <bullet> Standard CIP-002: Requires the identification and 
        documentation of the Critical Cyber Assets associated with the 
        Critical Assets that support the reliable operation of the Bulk 
        Electric System.
  <bullet> Standard CIP-003: Requires that Responsible Entities have 
        minimum security management controls in place to protect 
        Critical Cyber Assets.
  <bullet> Standard CIP-004: Requires that personnel having authorized 
        cyber or authorized unescorted physical access to Critical 
        Cyber Assets, including contractors and service vendors, have 
        an appropriate level of personnel risk assessment, training, 
        and security awareness.
  <bullet> Standard CIP-005: Requires the identification and protection 
        of the Electronic Security Perimeter(s) inside which all 
        Critical Cyber Assets reside, as well as all access points on 
        the perimeter.
  <bullet> Standard CIP-006: Intended to ensure the implementation of a 
        physical security program for the protection of Critical Cyber 
        Assets.
  <bullet> Standard CIP-007: Requires Responsible Entities to define 
        methods, processes, and procedures for securing those systems 
        determined to be Critical Cyber Assets, as well as the other 
        (non-critical) Cyber Assets within the Electronic Security 
        Perimeter(s).
  <bullet> Standard CIP-008: Ensures the identification, 
        classification, response, and reporting of Cyber Security 
        Incidents related to Critical Cyber Assets.
  <bullet> Standard CIP-009: Ensures that recovery plan(s) are put in 
        place for Critical Cyber Assets and that these plans follow 
        established business continuity and disaster recovery 
        techniques and practices.

    In December 2010, NERC approved an enhancement to its Critical 
Cyber Asset Identification standard (CIP-002 version 4) that 
establishes bright-line criteria for the identification of critical 
assets. This enhanced standard was filed with FERC in February 2011 and 
is currently pending FERC approval.
    In addition to the development of reliability standards through 
NERC's regular processes, FERC has authorized NERC to use an expedited 
standards development process to meet urgent reliability issues. NERC 
also has rules approved by FERC to enable the development of special 
standards on an expedited, confidential basis to address imminent or 
longer term national security threats.
    Finally, FERC can order NERC to develop a proposed reliability 
standard or a modification to a reliability standard to address a 
specific matter (such as a cyber threat or vulnerability) under FPA 
Section 215(d)(5). In addition, the NERC Board of Trustees may propose 
and adopt a standard in response to a FERC directive if the board 
determines that the regular standards process is not being sufficiently 
responsive to the Commission.
    Compliance with the NERC CIP standards is an important threshold 
for properly securing the BPS. However, there is no single security 
asset, security technique, security procedure or security standard 
that, even if strictly followed or complied with, will protect an 
entity from all potential threats. The cybersecurity threat environment 
is constantly changing and our defenses must keep pace. Security best-
practices call for additional processes, procedures and technologies 
beyond those required by the CIP standards.
2. NERC Alerts
    Not all vulnerabilities can or should be addressed through a 
reliability standard. In such cases, NERC Alerts are a key element in 
critical infrastructure protection. To address cyber challenges not 
covered under the CIP Standards, NERC works through its Electricity 
Sector-Information Sharing and Analysis Center (ES-ISAC) to inform the 
industry and recommend preventative actions.
    NERC must be able to promptly disseminate threat indications, 
analyses and warnings to assist electricity-sector participants in 
taking protective actions. NERC staff with appropriate security 
clearances often work with cleared personnel from Federal agencies to 
communicate sanitized sensitive information to the industry. As defined 
in NERC's Rules of Procedure, the ES-ISAC developed the following three 
levels of Alerts for formal notice to industry regarding security 
issues:

  <bullet> Industry Advisory.--Purely informational, intended to alert 
        registered entities to issues or potential problems. A response 
        to NERC is not necessary.
  <bullet> Recommendation to Industry.--Recommends specific action be 
        taken by registered entities. Requires a response from 
        recipients as defined in the Alert.
  <bullet> Essential Action.--Identifies actions deemed to be 
        ``essential'' to bulk power system reliability and requires 
        NERC Board of Trustees approval prior to issuance. Like 
        recommendations, essential actions require recipients to 
        respond as defined in the Alert.

    The risk to the bulk power system determines selection of the 
appropriate Alert notification level. Generally, NERC distributes 
Alerts broadly to users, owners, and operators of the bulk power system 
in North America utilizing its Compliance Registry. Entities registered 
with NERC are required to provide and maintain up-to-date compliance 
and cyber security contacts. NERC also distributes the Alerts beyond 
the users, owners and operators of the bulk power system, to include 
other electricity industry participants who need the information. 
Alerts may also be targeted to groups of entities based on their NERC-
registered functions (e.g.; Balancing Authorities, Planning 
Authorities, Generation Owners, etc.)
    Alerts are developed with the strong partnership of Federal 
technical organizations, including the Department of Homeland Security 
and the Department of Energy National Laboratories, and bulk power 
system subject matter experts, called the HYDRA team by NERC. NERC has 
issued 14 CIP-related Alerts since January 2010 (12 Industry Advisories 
and two Recommendations to Industry). Those Alerts covered items such 
as Aurora, Stuxnet, Night Dragon and the reporting of suspicious 
activity. Responses to Alerts and mitigation efforts are identified and 
tracked, with follow-up provided to individual owners and operators and 
key stakeholders. In addition, NERC released one Joint Product CIP 
Awareness Bulletin in collaboration with DOE, DHS and the FBI titled, 
``Remote Access Attacks: Advanced Attackers Compromise Virtual Private 
Networks (VPNs)''.
    The NERC Alert system is working well. It is known by industry, 
handles confidential information and does so in an expedited manner. 
The information needed to develop the Alert is managed in a 
confidential and expedited manner and does not require a NERC balloting 
process.
    NERC understands that the Congress is seeking to ensure the 
cybersecurity of the electricity grid. Using standards, Alerts and 
essential actions, NERC is already working with FERC and the industry 
to protect the cybersecurity of the bulk power system.
     nerc work with dod, dhs and doe to protect grid cybersecurity
    As chair of the Electricity Sub-Sector Coordinating Council (ESCC), 
I work with industry CEOs and our partners within the government, 
including the Department of Defense, the Department of Homeland 
Security and the Department of Energy, to discuss and identify critical 
infrastructure protection concepts, processes and resources, as well as 
to facilitate information sharing about cyber vulnerabilities and 
threats. This type of public/private partnership is key to effective 
cybersecurity protection.
    Recently, I met with officials from U.S. NORTHCOM where we 
discussed collaborating on various electric grid-focused activities 
including participation in the 2011 SecureGrid Exercise, providing 
electric sector situational awareness and collaborating on the Joint 
Capability Technology Demonstration (JCTD) Smart Power Infrastructure 
Demonstration for Energy Reliability and Security (SPIDERS). The latter 
project is being proposed to understand how specific facilities could 
develop small reliable ``micro-grids'' on a short-term or emergency 
basis. Similarly, NERC is discussing a project with DOD to develop case 
studies at critical military installations to further understand the 
requirements for ``flow of power'' and the implications to military 
readiness.
    NERC is working with DHS National Cybersecurity and Communications 
Integration Center to develop a Memorandum of Understanding for bi-
directional sharing of critical infrastructure protection information 
between the government and the electricity sector in North America. 
NERC also provides leadership to two significant DHS-affiliated public-
private partnerships. These are the Partnership for Critical 
Infrastructure Security (PCIS) and the Industrial Control Systems Joint 
Working Group (ICSJWG). The PCIS is the senior-most policy coordination 
group between public and private sector organizations. On the 
government side, PCIS comprises the National Infrastructure Protection 
Plan (NIPP) Federal Senior Leadership Council (FSLC) and the State, 
Local, and Tribal Government Coordinating Council (SLTGCC), as well as 
the chairs of all of the other Government Sector Coordinating Councils. 
On the private side, PCIS comprises the chairs of all of the private-
sector coordinating councils. The ICSJWG is a cross-sector industrial 
control systems working group that focuses on the areas of education, 
cross-sector strategic roadmap development, coordinated efforts on 
developing better vendor focus on security needs and cybersecurity 
policy issues.
    NERC is engaged with DOE National Laboratories to further the level 
of awareness and expertise focused on cybersecurity, especially as it 
pertains to the bulk power system. We are working with Pacific 
Northwest National Laboratory on the Electric Sector Network Monitoring 
initiative and also on developing cybersecurity certification 
guidelines for Smart-Grid Cyber Operators. In a similar fashion, NERC 
is working with the Idaho National Laboratory to promote the Cyber 
Security Evaluation Tool for use within the electric sector. NERC also 
is partnering with the Industrial Control Systems Cyber Emergency 
Response Team to share threat, vulnerability and security incident 
information.
    Finally, NERC is working with DOE and the National Institute of 
Standards and Technology to develop comprehensive cybersecurity risk 
management process guidelines for the entire electric grid, including 
both the bulk power system and distribution systems. We believe this to 
be particularly important with the increasing availability of smart-
grid and smart-meter technologies. While the majority of technology 
associated with the smart grid is found within the distribution system, 
vulnerabilities realized within the distribution system could 
potentially impact the bulk power system. Everyone engaged in smart-
grid and smart-meter implementation should ensure that appropriate 
security applications and technologies are built into the system to 
prevent the creation of additional threats and vulnerabilities.
NERC Comments on the Discussion Draft
    First and foremost, NERC has consistently supported legislation 
authorizing some government entity to address cyber emergencies, as the 
draft would authorize the Secretary of Energy to do.
    Second, NERC strongly supports any effort to improve information 
sharing between government and the private sector owners of critical 
electric infrastructure. NERC especially commends the provisions of the 
discussion draft directing the Secretary and the Commission to 
establish procedures on the release of critical infrastructure 
information to entities subject to the proposed legislation. NERC and 
the electric industry can only deal with the risks they are aware of. 
It is impractical, inefficient and impossible to defend against all 
possible threats or vulnerabilities. Entities must prioritize their 
resources to ensure they are protected against those risks that pose 
the greatest harm to their assets, their business and their customers. 
The electric industry is in the best position to understand the impact 
that a particular event or incident could have on the bulk power 
system, but the industry does not have the same access to actionable 
intelligence and analysis that the government does. This lack of 
information leads the industry to be, at best, a step behind when it 
comes to protecting against potential threats and vulnerabilities. Too 
often the industry has heard from government agencies that the threats 
are real, but is given little or no additional information. This leads 
to frustration among the private sector leaders who are unable to 
respond effectively due to ill-defined and nebulous threat information.
    NERC also appreciates the additional attention in the discussion 
draft to providing security clearances, but that route will not likely 
deal with the unavailability of actionable information for electricity 
industry decision-makers. NERC has over 1900 entities on its Compliance 
Registry, some have just a few employees and some have many thousands. 
It is important to be realistic about the number of clearances that may 
be made available. Of more importance is developing methods and 
procedures for sanitizing sensitive information so that it can usefully 
be made available to the broad range of private decision-makers who 
must take action to protect against the threat or vulnerability.
    The bulk of NERC's comments are directed to the draft legislation's 
treatment of ``Cyber Security Vulnerabilities,'' which are something 
less urgent than ``Cyber Security Threats.'' NERC appreciates that the 
draft legislation proposes for the ERO to play a meaningful role in 
addressing cybersecurity vulnerabilities, as the ERO now does. As 
discussed above, NERC has the tools, the expertise and the 
relationships with government agencies, intelligence resources and 
industry subject matter experts to address identified vulnerabilities 
effectively and efficiently. FERC has the authority now under FPA Sec. 
215(d)(5) to direct NERC to prepare a proposed standard to address a 
specific vulnerability or other matter, and to do so by a certain date. 
Thus, it is not clear to NERC that the vulnerability section (proposed 
new FPA Section 224(b)) is needed. If this section is retained, please 
consider the following concerns:

          1. FERC's jurisdiction under this bill extends to 
        distribution systems; the ERO's does not: The definition of 
        Critical Electric Infrastructure in proposed Section 224 
        extends to distribution systems. Section 215 does not provide 
        NERC with that jurisdiction. Thus, existing NERC reliability 
        standards and requirements cannot be as broad as FERC's 
        jurisdiction under the draft bill, and standards prepared by 
        NERC at the direction of FERC similarly cannot be as broad as 
        FERC's direction if FERC directs an action to protect the 
        distribution system action. If NERC is intended to have the 
        same jurisdiction as FERC over the distribution system and 
        assets, this needs to be clarified. Without such clarification, 
        FERC could always find that an ERO-proposed reliability 
        standard ``fails to provide adequate protection of critical 
        electric infrastructure from a cybersecurity vulnerability'' 
        and reject the ERO's efforts under Section 224, effectively 
        removing the ERO role from the vulnerabilities section.
          2. Identification of vulnerability: No requirement exists in 
        the legislation for FERC to identify any deficiency in existing 
        reliability standards or the specific cybersecurity 
        vulnerability for the ERO to address. Without some idea of the 
        ``target'' that FERC would like the ERO to hit, it will be 
        difficult for the ERO to produce an adequate set of 
        requirements, assuming the jurisdiction issue above is 
        addressed.
          3. Enforceable tools in addition to standards: The discussion 
        draft calls for the ERO to develop a reliability standard in 
        response to a FERC order on vulnerabilities, but given the 
        constantly changing nature of vulnerabilities, not all 
        vulnerabilities can or should be addressed by a standard. 
        Currently, NERC actions other than standards are not legally 
        enforceable. Legislation that provides a means for both 
        standards and other NERC directives to be legally enforceable 
        would significantly enhance the cybersecurity of the grid. Such 
        an approach would require the involvement of both the ERO and 
        the Commission.
          4. Due process: The discussion draft would authorize FERC to 
        promulgate an interim final rule without consultation or any 
        due process. In addition, unlike the 90-day sunset on DOE 
        emergency orders, there is no such limitation on FERC interim 
        final rules.
                               conclusion
    NERC works with multiple agencies, industry, consumers and 
government to support a coordinated comprehensive effort to address 
cybersecurity. As outlined today, NERC has many tools available 
including the ESCC and the ES-ISAC to address imminent and non-imminent 
threats and vulnerabilities through our Alerts and standards processes. 
These existing processes should be enhanced, not pre-empted, by 
cybersecurity grid legislation.
    We appreciate this opportunity to discuss NERC's activities on 
cybersecurity with the committee and to offer our views on legislation 
that would improve cybersecurity protection of the grid.

    The Chairman. Thank you very much.
    Mr. Owens.

STATEMENT OF DAVID K. OWENS, EXECUTIVE VICE PRESIDENT, BUSINESS 
             OPERATIONS, EDISON ELECTRIC INSTITUTE

    Mr. Owens. Good morning, Chairman Bingaman, Ranking Member 
Murkowski and other distinguished members of this committee.
    As was said earlier, my name is David K. Owens. I'm 
Executive Vice President at the Edison Electric Institute. 
You're aware that EEI is the trade association of the U.S. 
shareholder owned electric companies. Our members serve about 
75-70 percent of end users of electricity. I certainly do 
appreciate this opportunity to appear before you today to talk 
about cyber security and critical electric infrastructure.
    Now to accompany my written statement is a document titled, 
``Principles for Cyber Security and Critical Infrastructure 
Protection.'' Now this document was adopted by EEI's Board of 
Directors last September. It demonstrated the significant 
concern of our industry and our CEOs in particular, about cyber 
security threats and the need to develop consensus around a 
framework to improve security of the electric grid.
    Now rather than me getting into all the details of 
observations I've made about the bill or restating my 
testimony. I'd like to leave you with 2 principle points.
    I'd like to talk very specifically about the need for 
coordination, planning and information sharing. I believe some 
of the other witnesses, Secretary Hoffman stressed that. The 
need also for clear regulatory structure that focuses resources 
where they're needed.
    Now all of you know cyber security is not a check the box 
exercise. You can't say if we do these ten things we're not 
going to have a cyber security problem. Instead cyber security 
requires an evolutionary process and an ongoing dialog 
involving industry and government. Now the threats that we face 
daily and the mechanisms for identifying them also vary. 
Sometimes a government will become aware of a threat or other 
times it will be the industry or individual utilities that will 
be aware of this or outside security firms or academia.
    The point is that there is no perfect process for 
identifying what tomorrow's threats are nor how a creative 
hacker might exploit vulnerabilities. A better approach in my 
view is fostering coordination and dialogs both horizontally 
and vertically between industry and government. Now I know 
you're probably saying well what does he mean by that? 
Horizontal communication, in my view, is across--should be 
across the industry and across government.
    Now the electric industry, the private sector, we're 
working with a lot of other utilities that serve our Nation. 
We're working with public entities. We're working with 
governmental entities and so forth because we all have a 
commonality of keeping the lights on. So the entire electric 
sector is working very closely together. That's an example of 
horizontal communication.
    We also have interdependencies. For example, we rely on 
telecommunications industry so that we can communicate and 
improve our overall day to day operations. We also use water 
systems in order to cool our facilities. We use transportation 
in order to move our fuel. We also look at financial markets 
that fund our operations. So there's an interdependency. That's 
also horizontal communication.
    Now no single industry, in my view, can be considered 
secure unless we're engaged in coordination across those 
industry sectors. Let me talk a little bit about horizontal 
communication within the government. Here I'm perfectly sure 
that DOE and the FERC communicate regularly.
    One agency probably has substantial intelligence about 
what's occurring in the electric network and in other vital 
facilities in our Nation, whereas the other agency may have the 
responsibility of mandating reliability standards. But it's 
critically important that those agencies work together. So in 
addressing cyber security, my view, is that the government 
needs to consider how they engage in horizontal communications 
as well.
    Then there's vertical communications. The vertical 
communications is the government communicating with industry 
and vice versa. Now we are not in the business in the utility 
industry of identifying threats, but the government is and 
needs to coordinate very closely with industry. On the other 
hand, we're pretty good at operating our systems and providing 
reliable electric service and understanding how to address 
potential vulnerabilities.
    So I believe there's a shared responsibility. There's a 
responsibility of government. There's a responsibility of 
industry to work together. If we're working together then we 
can provide greater security over the overall electric system.
    One of the things that I've observed in terms of the 
disaster in Japan was the need for planning before a crisis 
occurs. Protecting critical infrastructure demands planning 
both from government and from the private sector. The roles and 
responsibilities need to be very clear. Now I applaud this 
committee's efforts and our Congress for its deep consideration 
of how we put these various pieces together to protect our 
critical infrastructure.
    Let me move to my second principle. I'd like to believe 
that we all recognize that a risk based approach for dealing 
with cyber security that is identifying assets, that make the 
system vulnerable, is very, very critical. We strongly support 
that.
    We also recognize as well that under section 215, the 
Federal Power Act, that we had mandatory and enforceable 
reliability standards. We recognize that. But we also recognize 
that there's a gap. That gap means that we need to have a 
process where we can deal with imminent threats. We have to 
separate imminent threats from potential vulnerabilities.
    I see that I'm almost out of time. So I'm just going to say 
this. We look forward to work with the committee in these 
areas. I look forward to your questions.
    [The prepared statement of Mr. Owens follows:]
    Prepared Statement of David K. Owens, Executive Vice President, 
             Business Operations, Edison Electric Institute
    My name is David Owens, and I am Executive Vice President in charge 
of the Business Operations Group at the Edison Electric Institute 
(EEI). EEI is the trade association of U.S. shareholder-owned electric 
companies and has international affiliate and industry associate 
members worldwide. EEI's U.S. members serve 95 percent of the ultimate 
customers in the shareholder-owned segment of the industry and 
represent about 70 percent of the U.S. electric power industry. I 
appreciate your invitation to discuss the cyber security of critical 
electric infrastructure and to comment on the Committee's draft 
legislation.
    It is almost two years since I last had the opportunity to testify 
on this subject before this Committee. Since then, EEI's member 
companies--along with other owners, operators, and users of the 
electric grid--have continued to make cyber security a priority, while 
working together to make our critical infrastructure more resilient. In 
fact, EEI is part of a broader coalition of electric power stakeholders 
working on these issues. While I am not officially testifying on its 
behalf, this coalition includes several major trade associations 
representing the full scope of electric generation, transmission and 
distribution in the United States, as well as regulators, Canadian 
interests and large industrial consumers. Rarely do these groups find 
consensus on public policy issues, but in the case of securing the 
electric grid, there is unanimous support for a regime that leverages 
the strength of both the public and private sectors to improve cyber 
security. My testimony focuses on the value of this cooperative 
relationship, the unique nature of threats to the power grid, and the 
ongoing efforts of the nation's electric sector to respond to those 
threats.
    I also will share our analysis of the Committee's bill, 
particularly as it relates to EEI's ``Principles of Cyber Security and 
Critical Infrastructure Protection,'' which is attached for the record. 
This document was adopted by our Board of Directors last September in 
an effort to address cyber security threats and develop consensus 
around a framework to improve security for the electric grid. Included 
in this document, and most salient to the Committee's work today, are 
the following principles the industry believes are integral to 
successful cyber security policy:

  <bullet> Leveraging public and private sector expertise, while 
        including robust information sharing between government and the 
        private sector, as well as among other stakeholders; and,
  <bullet> A clear regulatory structure that focuses resources and 
        attention on protecting truly critical assets from imminent 
        threats.

          public-private coordination and information sharing
    Among the myriad lessons learned following the earthquakes and 
tsunami in Japan is the need for dialogue and coordination before 
disaster strikes. It is clear that critical infrastructure protection 
is a shared cause that demands planning, as well as an understanding of 
roles and responsibilities ahead of time.
    Both the federal government and electric utilities have distinct 
realms of responsibility and expertise in protecting the bulk power 
system. The optimal approach to utilizing the considerable knowledge of 
both government intelligence specialists and electric utilities in 
ensuring the cyber security of the nation's electric grid is to promote 
a regime that clearly defines these complementary roles and 
responsibilities and provides for ongoing consultation and sharing of 
information between government agencies and utilities.
    Fundamentally, the private sector can be disadvantaged in assessing 
the degree and urgency of possible or perceived cyber threats because 
of limitations on its access to classified information. The government 
is entrusted with national security responsibilities and has access to 
volumes of intelligence to which electric utilities are not privy. Thus 
the government is able to detect threats, evaluate the likelihood or 
risk of a malicious attack, and utilize its expertise in law 
enforcement. On the other hand, electric utilities are experienced and 
knowledgeable about how to provide reliable electric service at a 
reasonable cost to their customers, and we understand how our complex 
systems are designed and operated. Owners, users, and operators of the 
electric grid are in a unique position to understand the consequences 
of a potential malicious act as well as proposed actions to prevent 
such exploitation, including ensuring against unintended consequences 
of remedial actions. It is critically important to establish a workable 
structure that enables the government and the private sector to work 
together in order to provide a more secure system for our customers.
    Thus, the industry appreciates that the Committee's draft bill 
acknowledges the need for intelligence sharing between government and 
the private sector, though we believe a more robust and explicit 
mandate is required.
    It also is important to recognize that a strong industry 
partnership with government agencies currently exists. On an ongoing 
basis, the electric power industry communicates and collaborates in the 
United States with the Department of Homeland Security (DHS), the 
Department of Energy (DOE), and the Federal Energy Regulatory 
Commission (FERC). The industry also works very closely with the North 
American Electric Reliability Corporation (NERC) to develop mandatory 
reliability standards, including an array of ``Critical Infrastructure 
Protection'' or ``CIP'' standards. In addition, NERC, in its capacity 
as the Electric Sector Information Sharing and Analysis Center 
(ESISAC), uses its ``alert and advisory'' procedures to provide the 
electric power industry with timely and actionable information received 
from various federal agencies to assure the continued reliability and 
security of the nation's electric systems.
    This NERC advisory system continues to evolve and, in the time 
since I last testified, has proven its ability to respond and 
disseminate information successfully when responding to significant 
national security events like the Stuxnet worm.
    I would urge you not to reinvent the wheel, nor jump to conclusions 
about the efficacy of the existing cyber security regimes. The 
mechanisms in place to deal with these new and constantly evolving 
threats are, themselves, evolving. It is important that the Committee 
support continued participation in NERC's stakeholder-driven and FERC-
approved standards and development process, which will yield mandatory 
CIP cyber security standards for the bulk power system that are clear, 
technically sound, and enforceable.
    Finally, I would add that simply creating mechanisms for 
information sharing and public-private coordination is only part of the 
solution. Those lines of communication must be developed at the highest 
levels of both government and industry, and then drilled on a regular 
basis to ensure that, in times of crisis, those with relevant 
information and operational expertise can communicate seamlessly, 
quickly and, when needed, securely.
                  clear, focused regulatory structure
    A successful cyber security framework also needs to focus on 
protecting truly critical assets from imminent threats. There is a 
security axiom that states: if you try to protect everything, you 
protect nothing. Put another way, risk-based prioritization ensures 
both government and private sector resources are allocated wisely.
    The distinction between imminent threats and vulnerabilities is an 
important one. Threats, by definition, constitute an emergency, while 
vulnerabilities might be exploited at a later date, providing time to 
determine the best way to respond to them.
    EEI agrees that it is appropriate for this Committee and Congress 
to consider legislation providing federal energy regulators new 
authority to address emergency cyber security threats. I want to 
emphasize, however, that current law already provides the means to 
address the many non-emergency cyber security issues in the electric 
industry. Section 215 of the Federal Power Act (FPA), which this 
Committee helped develop and which was enacted by Congress as part of 
the Energy Policy Act of 2005, provides for the Electric Reliability 
Organization to establish mandatory and enforceable electric 
reliability standards, specifically including standards to address 
cyber security, under FERC oversight. Chairman Bingaman and other 
Senators on this Committee should be commended for their work on 
enacting Section 215 and other efforts to ensure the reliability of the 
electric grid.
    The basic construct of the relationship between FERC and NERC in 
developing and enforcing reliability standards is sound. In summary, 
NERC, using a well-defined stakeholder process that leverages the vast 
technical expertise of the owners, users, and operators of the North 
American electric grid, develops reliability standards, which are then 
submitted to FERC for review and approval. In approving such standards, 
FERC is to give ``due weight'' to the technical expertise of the ERO. 
Once approved by FERC, these standards are legally binding and 
enforceable in the United States. Any stakeholder, including FERC, may 
request that a standard be developed to address some aspect of 
reliability, expressly including cyber security.
    I suggest the question on which the Committee should focus is, 
``What additional authority should be provided to federal energy 
regulators in order to promote clarity and focus in response to 
emergency situations?'' Legislation in this area should complement, not 
supplant, the mandatory reliability regime already established under 
FPA Section 215. Any new federal authority should be appropriately 
narrow and focused only on unique problems that cannot be addressed 
under Section 215. The Section 215 mandatory reliability framework 
reflects years of work and broad consensus reached by industry and 
other stakeholders in order to ensure a robust, reliable grid. It 
should not be undermined so early in its implementation.
    While the open stakeholder processes used for developing industry-
wide reliability and critical infrastructure protection standards 
admittedly are not well-suited to emergencies requiring immediate 
mandatory action with confidential handling of information, the vast 
majority of cyber security issues do not rise to the level of national 
security emergencies. Rather than creating broad new federal regulatory 
authorities that could undermine the consensus-driven policy framework 
developed through years of stakeholder input and memorialized in 
section 215, legislation should be focused on addressing a relatively 
narrow set of potential threats that legitimately merit special federal 
emergency authority.
    Because of its extraordinary nature and potentially broad impacts 
on the electric system, any additional federal emergency authority in 
this area should be used judiciously. Legislation granting such 
authority should be narrowly crafted and limited to address 
circumstances where the President or his senior intelligence or 
national security advisors determine there is an imminent threat to 
national security or public welfare.
    Also, the Committee draft provides DOE and FERC with parallel 
authorities to address cyber security threats and vulnerabilities, 
respectively. The Committee's draft could be clarified and strengthened 
by providing for a single agency to take expedited actions based on 
advice or information from the President or intelligence agencies.
    To further focus efforts on those threats that have the potential 
to do the greatest harm, any new authority also should be limited to 
truly critical assets. Over-inclusion of electric utility 
infrastructure would be counterproductive; efforts to maintain and 
enhance the cyber security of the nation's critical electric 
infrastructure should focus first on the critical facilities that, if 
not protected, could cause substantial disruption to the nation's 
electric grid.
    Any new legislation giving additional statutory authority should be 
limited to true emergency situations involving imminent cyber security 
threats where there is a significant declared national security or 
public welfare concern. In such an emergency, it is imperative that the 
government provide appropriate entities clear direction about actions 
to be taken, and assurance that those actions will not have significant 
adverse consequences to power operations or assets, while at the same 
time avoiding any possible confusion caused by potential conflicts or 
overlap with existing regulatory requirements.
                      build security into the grid
    A separate but equally important component of grid security is to 
ensure that manufacturers of critical grid equipment and systems are 
adequately fulfilling their security responsibilities by adopting good 
security practices in their organizations, building security into their 
products, and establishing effective programs so that, as new 
vulnerabilities are discovered, they can inform customers and provide 
technical assistance with mitigation. As grid technologies continue to 
evolve, they inevitably will include greater use of digital controls. 
Congress recognized the potential cyber security vulnerabilities, as 
well as benefits, that could result from greater digitization of the 
grid when it directed DOE to study these issues in Section 1309 of the 
Energy Independence and Security Act of 2007.
    As new smart grid technologies are developed, it will be imperative 
for the industry to work closely with vendors and manufacturers to 
ensure they understand that cyber security is essential so that cyber 
security protections are incorporated into devices as much as possible.
    EEI is encouraging the development of a security certification 
program and expansion of National Lab involvement to provide 
independent testing for new grid components. Such a program would help 
utilities differentiate among different vendor solutions to select 
those that provide appropriate cyber security.
                 ferc ``interim final rule'' authority
    Under the Committee's draft legislation, FERC is to determine 
whether the current NERC reliability standards are ``adequate to 
protect critical electric infrastructure from cyber security 
vulnerabilities.'' Under Section 224(b)(6)(C), any interim rule FERC 
enacts would stay in effect until NERC develops a reliability standard 
or modification that ``the Commission determines provides adequate 
protection to critical electric infrastructure from the cyber security 
vulnerability addressed by the interim final rule.''
    Since NERC reliability rules apply only to the bulk electric 
system, FERC would have unilateral authority to write rules without 
input from the NERC stakeholder-driven process to establish technical 
standards. And, with no hearing or prior notice required before making 
the rule immediately effective, we are concerned about the lack of due 
process for stakeholder input. It would be desirable to at least have 
some requirement for FERC to consult with industry if time permits, 
similar to the consultation language in other parts of the bill.
              ferc and doe emergency procedure authorities
    Having both FERC and DOE able to designate critical electric 
infrastructure introduces confusion and potential duplication. The lack 
of procedures or specific criteria for designating critical electric 
infrastructure is also problematic. It is unclear how, or if, an entity 
could challenge a designation by DOE under the general review 
provisions of the FPA.
                               conclusion
    With thousands of entities operating a single complicated, 
interdependent machine like the electric grid, the intra-industry 
coordination undertaken by the electric sector under the auspices of 
NERC has been invaluable.
    There also are interdependencies not just within the electric 
sector, but across other critical infrastructure. For this reason, it 
would be preferable for Congress to take a comprehensive, multi-sector 
approach to legislation. Electric utilities, for example, rely on 
telecommunications systems to operate the grid, pipelines to fuel our 
generation, and wholesale markets to sell our product. Should any of 
these critical sectors be compromised, the electric grid would be 
impacted as well. The interconnected nature of critical infrastructure 
prevents us from claiming victory unless a comprehensive approach is 
taken. I understand this Committee's jurisdiction and interest focus 
specifically on protecting the electric grid, but would urge you to 
work with the appropriate congressional committees to address cyber 
security more holistically.
    That said, while many cyber security issues already are addressed 
under current law, we believe it is appropriate to provide federal 
energy regulators with explicit statutory authority to address cyber 
security in a situation deemed sufficiently serious to require a 
Presidential declaration of emergency. In such a situation, the 
legislation should clarify the respective roles, responsibilities, and 
procedures of the federal government and the industry, including those 
for handling confidential information, to facilitate an expeditious 
response.
    Promoting clearly defined roles and responsibilities, as well as 
ongoing consultation and sharing of information between government and 
the private sector, is the best approach to improving cyber security. 
Each cyber security situation requires careful, collaborative 
assessment and consultation regarding the potential consequences of 
complex threats, as well as mitigation and preventive measures, with 
owners, users, and operators of the bulk power system.
    EEI and its member companies remain fully committed to working with 
the government and industry partners to increase cyber security. EEI's 
commitment to such coordinated efforts is illustrated by the broad 
coalition of industry stakeholder associations that continue to work 
together on these matters.
    I appreciate the opportunity to appear today and would be happy to 
answer any questions.
      Attachment.--EEI Principles for Cyber Security and Critical 
                       Infrastructure Protection
September 9, 2010
                               background
    Protecting the nation's electric grid and ensuring a reliable 
supply of power is the electric power industry's top priority. Cyber 
security incidents may disrupt the flow of power or reduce the 
reliability of the electric system. Key to the success of this effort 
is the ability to provide measures capable of protecting the evolving 
intelligent network against interruption, exploitation, compromise or 
outright attack of cyber assets, whether the attack vector is physical, 
cyber or both.
    The electric power industry takes cyber security threats very 
seriously. As part of the industry's overall reliability effort, 
electric companies work to maintain the reliability and the security of 
the computers, control systems, and other cyber assets that help 
electric companies operate the electric grid. In response to the cyber 
threat, electric companies employ various strategies to protect these 
systems, but cyber security threats still exist.
                   addressing cyber security threats
    Reliability is more than a slogan for the electric utility 
industry--it's a mandate. In fact, federal and state regulators have 
significant interest and statutory authority in ensuring electric 
companies provide adequate reliability. Thus, utilities take very 
seriously their responsibility to address cyber vulnerabilities and the 
security of the computers, control systems, and other cyber assets that 
help operate the electric grid. This focus on reliability, resiliency 
and recovery takes into account an all-hazards approach, recognizing 
risks from natural phenomena such as hurricanes or geomagnetic 
disturbances to intentional cyber attacks.
    Protecting the grid from cyber attacks requires a coordinated 
effort among electric companies, the federal government, and the 
suppliers of critical electric grid systems and components. Electric 
companies work closely with the North American Electric Reliability 
Corporation (NERC) and federal agencies to enhance the cyber security 
of the bulk power system. This includes coordination with the Federal 
Energy Regulatory Commission (FERC), the Department of Homeland 
Security (DHS), and the Department of Energy (DOE), as well as 
receiving assistance from federal intelligence and law enforcement 
agencies.
    To complement its cyber security efforts and to address rapidly 
changing intelligence on evolving threats, the industry embraces a 
cooperative relationship with federal authorities to protect against 
situations that threaten national security or public welfare, and to 
prioritize the assets which need enhanced security. A well-practiced, 
public-private partnership utilizes all stakeholders' expertise, 
including the government's ability to provide clear direction and 
assess threats, while owners and operators of the critical 
infrastructure propose mitigation strategies that will avoid 
significant adverse consequences to utility operations or assets. At 
the same time a constructive regulatory environment will assure that 
incremental investments to protect the grid are prudent, and reduce 
risk in a manner proportional to the cost.
             protecting the grid is a shared responsibility
1. Prioritize Assets to Ensure Effective Protection
    Recognizing that there are a variety of interdependencies, and 
potential consequences associated with the loss of different 
facilities, the utility industry supports a risk-based, prioritized 
approach that identifies assets truly critical to the reliable 
operation of the electric grid. This ensures the most important 
elements of our system receive the highest level of attention, as well 
as the resources necessary to secure them.
2. Threats Require Emergency Action; Vulnerabilities Should Be 
        Addressed More Deliberately
    In this context, a threat is imminent and requires a rapid 
response. In these instances, the industry is willing to accommodate 
certain operational consequences in the interest of addressing the 
threat. Vulnerabilities, on the other hand, have a longer time horizon 
and can benefit from a more measured response. Government authority 
should reflect and respect these different levels of danger.
3. Clear Regulatory Structure and Open Lines of Communication
    The Federal regulatory framework and roles for all stakeholders 
involved in securing the electric grid should be clear to avoid 
duplicative or conflicting actions in times of crisis. The electric 
utility industry is not in the law enforcement or intelligence 
gathering business, and the government has limited experience operating 
the electric grid. Thus, each should be consulted, and the flow of 
information should be regularly exercised, before a threat becomes a 
crisis. It is critical that the federal government and industry 
communicate with each other seamlessly; to avoid confusion, those at 
the highest levels of government and industry should be involved in 
coordinating responses and declaring the need for emergency action.
4. Proactively Manage New Risks
    As the new Smart Grid develops, it is essential that cyber security 
protections are incorporated into both the grid architecture and the 
new smart grid technologies. The electric power industry must continue 
to work closely with vendors, manufacturers, and government agencies 
and be aligned with emerging and evolving cyber security standards 
(such as those being driven by NIST) to ensure that the new technology 
running the grid is, most importantly, secure and reliable. We 
encourage the development of a security certification program that 
would independently test smart grid components and systems and certify 
that they pass security tests. This certification process would help 
utilities select only those systems that provide appropriate cyber 
security.
5. Committed to Protecting Bulk Electric System and Distribution Assets
    The utility industry understands that cyber attacks affecting 
distribution systems could have broader implications. Since 
jurisdiction is split between state regulators and the Federal Energy 
Regulatory Commission, the utility industry supports enhanced threat 
information coordination and communication between regulatory agencies 
and utilities to protect our systems (whether distribution or the bulk 
electric system) while also honoring the existing regulatory model.
6. Cost Recovery and Liability Protection
    Costs associated with emergency mitigation are, by definition, 
unexpected and thus not included in a utility's rate base. To ensure 
emergency actions do not put undue financial strain on electric 
utilities, the industry supports mechanisms for recovering costs. In 
addition, electric utilities support liability protections for actions 
taken under an emergency order.

    The Chairman. Thank you very much.
    Mr. Tedeschi, go right ahead.

    STATEMENT OF WILLIAM TEDESCHI, SENIOR SCIENTIST, SANDIA 
             NATIONAL LABORATORIES, ALBUQUERQUE, NM

    Mr. Tedeschi. Good morning, Chairman Bingaman, Ranking 
Member Murkowski and distinguished members of the Senate 
Committee on Energy and Natural Resources. Thank you for the 
opportunity to testify. I am William Tedeschi, Senior Scientist 
and Licensed Professional Engineer at Sandia National 
Laboratories, a multi program, national security laboratory. I 
am honored to be here today with the Honorable Patricia Hoffman 
of the United States Department of Energy, Joe McClelland of 
the Federal Energy Regulatory Commission, Gerry Cauley of the 
North American Electric Reliability Corporation and David Owens 
of the Edison Electric Institute.
    Sandia is one of the 3 national Nuclear Security 
Administration Laboratories with responsibility for stockpile 
stewardship and annual assessment of the Nation's nuclear 
weapons. Within the U.S. nuclear weapons complex, Sandia is 
uniquely responsible for the systems engineering and 
integration of the nuclear weapons and the stockpile and for 
the design development and qualification of non-nuclear 
components of nuclear weapons. While nuclear weapons remain 
Sandia's core mission the science and technology and 
engineering capabilities required to support this mission 
position us to support other aspects of national security as 
well. Indeed there is natural increasingly significant synergy 
between our core mission and our broader national security 
work.
    This broader role involves research and development and 
non-proliferation, counter proliferation, counter terrorism, 
energy security, defense and homeland security. My statement 
today will focus on the risk of nuclear electromagnetic pulse 
threats against the U.S. power grid and the potential need to 
harden the grid against such threats. I am a subject matter 
expert, nuclear weapons system and affects including 
electromagnetic pulse threats and in assessing the risks posed 
by such threats.
    I will first refer to the results of a recent technical 
peer review of 7 reports focused on the topic of this 
testimony, a peer review that a Sandia team of experts provided 
to the Federal Energy Regulatory Commission.
    Then I will present the view of the Sandia team on the risk 
of nuclear electromagnetic pulse attacks and the potential need 
to harden the U.S. power grid against them.
    We commend the Federal Energy Regulatory Commission and the 
authors of the 7 reports on evaluating the impact of nuclear, 
high altitude, EMP pulse threats to the U.S. power grid for 
their comprehensive work which represents an excellent start on 
modeling a very complex problem. However we respectfully 
suggest that further computational and experimental work is 
required before fully informed decisions can be made about 
where and to what extent the power grid should be hardened 
solely against nuclear, high altitude, electromagnetic pulse 
threats. If the decision is made to protect the power grid 
against a broader set of more likely electromagnetic pulse 
threats including solar geomagnetic and electromagnetic 
interference threats than an awareness of nuclear, high 
altitude, EMP environments in effect, should also be 
considered.
    From an integrated risk perspective the Sandia team 
considers nuclear, high altitude, electromagnetic pulse threats 
to be a remote likelihood. Also, the true extent of the grid's 
susceptibility and vulnerability to such effects and the 
resulting consequences are mostly unknown. Except for the 
apparent worse case environments and assumptions made in the 
reports that the Sandia team, peer review, evaluated.
    The Sandia team recommends that this complex problem be 
studied in more depth in order to include results from 
additional computer based simulations and experimental testing 
specifically under nuclear, high altitude, electromagnetic 
threat conditions.
    How to high voltage transformers and their protection and 
control elements respond to the range of induced current 
insults?
    If they fail, how do they fail and at what level of insult?
    Answering such questions would provide critical data to 
enable better understanding and validation of results by 
advancing a complete understanding of all the risk elements as 
well as quantification and reduction of uncertainties in order 
to fully inform decisions that may be made about hardening the 
U.S. power grid.
    We suggest that a graded hardening approach to be 
considered whereby selective hardening could be accomplished 
easily and cost effectively in combination with addressing new 
and emerging threats to the grid, for example intentional 
electromagnetic interference. Also by further evaluating the 
consequence of electromagnetic pulse attacks on mission 
critical U.S. installations and functions, for example 
important U.S. war fighting or continuity of operations. 
Specific sites may be identified that may require selective 
electromagnetic pulse hardening.
    This concludes my prepared remarks. I would be pleased to 
respond to any questions. Thank you.
    [The prepared statement of Mr. Tedeschi follows:]
   Prepared Statement of William Tedeschi, Senior Scientist, Sandia 
                 National Laboratories, Albuquerque, NM
                              introduction
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
members of the Senate Committee on Energy and Natural Resources, thank 
you for the opportunity to testify. I am William Tedeschi, senior 
scientist and licensed professional engineer at Sandia National 
Laboratories. Sandia is a multiprogram national security laboratory 
owned by the United States Government and operated by Sandia 
Corporation\1\ for the National Nuclear Security Administration (NNSA).
---------------------------------------------------------------------------
    \1\ Sandia Corporation is a subsidiary of the Lockheed Martin 
Corporation under Department of Energy prime contract no. DE-AC04-
94AL85000.
---------------------------------------------------------------------------
    Sandia is one of the three NNSA laboratories with responsibility 
for stockpile stewardship and annual assessment of the nation's nuclear 
weapons. Within the U.S. nuclear weapons complex, Sandia is uniquely 
responsible for the systems engineering and integration of the nuclear 
weapons in the stockpile and for the design, development, and 
qualification of nonnuclear components of nuclear weapons. While 
nuclear weapons remain Sandia's core mission, the science, technology, 
and engineering capabilities required to support this mission position 
us to support other aspects of national security as well. Indeed, there 
is natural, increasingly significant synergy between our core mission 
and our broader national security work. This broader role involves 
research and development in nonproliferation, counterproliferation, 
counterterrorism, energy security, defense, and homeland security.
    My statement today will focus on the risk of nuclear 
electromagnetic-pulse (EMP) threats against the U.S. power grid and the 
potential need to harden the grid against such threats. I have been 
employed at Sandia National Laboratories for 26 years, where I have 
done engineering work on the U.S. nuclear stockpile and have assessed a 
broad range of foreign threats to U.S. national security assets and 
infrastructures. I am a subject matter expert in nuclear weapon systems 
and effects, including EMP threats, and in assessing the risks posed by 
such threats. Part of this expertise came from Sandia having 
technically supported the congressionally mandated EMP Commission from 
2002 to 2008 through targeted EMP testing of a whole range of 
electronic equipment, assessments of water-and financial-system 
infrastructure susceptibility, and targeted writing assignments. I was 
the program manager for that work. My testimony starts with a 
description of a recent technical peer review of seven reports focused 
on the topic of this testimony, a peer review that a Sandia team of 
experts provided to the Federal Energy Regulatory Commission; 
thereafter, the testimony puts forward the view of the Sandia team on 
the risk of EMP attacks and the potential need to harden the U.S. power 
grid against them.
                     major points of this testimony
    It is the belief of a Sandia team of experts that

          1. Nuclear high-altitude electromagnetic-pulse (HEMP) attacks 
        against the U.S. power grid are of remote likelihood.
          2. The susceptibility of the power grid to EMP attacks is not 
        well characterized and should be further addressed with 
        computer-based simulations and experimental testing in order to 
        understand all the risk elements, quantify and reduce 
        uncertainties, and thus fully inform decisions that may be made 
        about the U.S. power grid.
          3. Possible approaches to mitigating electromagnetic threats 
        to the U.S. power grid could be graded hardening, whereby 
        selective hardening would be accomplished easily and cost-
        effectively while addressing new and emerging threats to the 
        grid, or selective hardening for protection of some critically 
        important U.S. nodes.
       electromagnetic pulse (emp) threats to the u.s. power grid
Sandia Team Provided a Technical Peer Review for the Federal Energy 
        Regulatory Commission
    The Federal Energy Regulatory Commission (FERC) recently requested 
Sandia to do a peer review of seven reports (more than 700 pages in 
length) on electromagnetic threats to the U.S. power grid and on 
possible actions for mitigating such threats. A team of six subject 
matter experts (including myself) in EMP threats and effects, including 
damage susceptibility and consequences, conducted this work. Included 
in the team were two members with significant expertise in modeling 
national infrastructures and their interdependencies. Our assessment 
and recommendations do not constitute a position of or an endorsement 
by Sandia National Laboratories. Rather, they represent the conclusions 
the team reached after conducting a technical service Sandia is 
frequently called upon to perform for national security purposes. The 
team's high-level observations and findings were threefold:

  <bullet> The reports are comprehensive, and the authors' knowledge 
        about the U.S. power grid design and operations, as well as 
        solar-induced and nuclear high-altitude EMP (HEMP) 
        environments, is impressive.
  <bullet> The work represents an excellent start on modeling a very 
        complex problem, but it is not yet complete and, in our view, 
        should not be the basis for any short-term national decisions 
        on whether and to what extent to harden the U.S. power grid 
        solely against nuclear HEMP threats.
  <bullet> Further study of this complex problem is recommended in 
        order to include computer-based simulations and experimental 
        testing to better understand, validate, and add to the existing 
        work so that a complete understanding of all the risk factors 
        and associated uncertainties can be obtained to support ongoing 
        decisions.

    Some additional general comments about the reports that the Sandia 
technical peer review team provided to FERC include the following:
    The identified threats appear to be worst-case nuclear HEMP 
threats, but no details are provided to indicate the seriousness and 
plausibility of such threats or what might be the full spectrum of 
possible HEMP threats. Not all nuclear bombs are created equal; 
technical details matter--details not only on the potential severity of 
nuclear HEMP effects, but also on the likelihood of such threats ever 
materializing. Further elaboration on this aspect is warranted but must 
be done in a classified setting.
    Numerous assumptions are made about the nuclear HEMP environments' 
coupling efficiency into the exposed power grid and about the 
susceptibility of key system elements and the upset or damage that 
might occur to those key elements (that is, protective features, 
control systems, and the high-voltage transformers). Few to no data and 
only a few referenced citations and limited technical analysis are 
offered to buttress the assertions made. Many assumptions are also made 
about the power grid and the type and implementation of its equipment. 
The power grid referenced in the reports as the ``normal grid design'' 
is portrayed without any information about validation from utilities. 
Assumptions about age, design, and failure thresholds of transformers 
introduce additional uncertainty and are based on limited samplings of 
transformers of a particular type and from a clear source. All the 
assumptions point to large uncertainties in the output results and 
interpretations from the model; therefore, statements on the number of 
``at-risk'' transformers and the severity of the regional damage should 
be viewed as illustrative only. More modeling and simulation and 
experiments to characterize the response space of these key elements 
are recommended.
    Finally, in our team's view, the reports' assessment of possible 
effects on the U.S. power grid as a result of nuclear HEMP attacks is 
too negative, based on a series of compounded, apparently worst-case 
assumptions. The reports lack discussion of the effect of possible 
uncertainties and mitigators on the results.
    More detailed and specific technical comments were submitted to 
FERC for its consideration, and those can be provided upon request.
 sandia team's position on electromagnetic pulse (emp) threats to the 
                            u.s. power grid
Background on Nuclear High-Altitude EMP (HEMP) Threats: Effects, 
        Damage, and Hardening
    Nuclear EMP effects at Earth's surface are created by nuclear bomb 
explosions high inside the atmosphere (at an altitude of 40?100 
kilometers) and in near outer space (from 100 kilometers to hundreds of 
kilometers above Earth's surface). According to publicly available 
information, both the United States and Russia experienced and 
characterized this class of nuclear weapon effects in the early 1960s 
during their high-altitude nuclear tests. The type and yield of the 
bomb and the altitude at which it is detonated primarily determine the 
strength of the EMP effects at ground level. Once the nuclear bomb's 
parameters are defined, predicting nuclear HEMP environments with 
computer-based models is a well-established capability in the United 
States.
    The hostile nuclear EMP environment is created by the gamma-ray 
output (as well as x-rays and bomb debris for exo-atmospheric bursts) 
from the nuclear explosion (the ``source'') and the subsequent electron 
generation and dynamics within the atmosphere and magnetic field 
perturbations outside the atmosphere. Nuclear bomb explosions at high 
altitude in the atmosphere and in near-Earth space create three 
distinct components of EMP threats that are characterized by the 
timeframe over which they occur after the burst (from nanoseconds to a 
microsecond, from microseconds to a second, and from a second to many 
minutes). These electromagnetic threats are termed the E1, E2, and E3 
components of nuclear HEMP. Each EMP threat component has different 
electric field strengths (typically ranging from kilovolts per meter 
for E1 to volts per kilometer for E3) and frequency content (ranging 
from many hundreds of megahertz to many hertz) that ultimately 
determine how much current is ``coupled'' into which parts of the 
exposed power-grid infrastructure elements, and whether or not that 
component will be temporarily or permanently disabled.
    The EMP waves travel downward (or ``propagate'') to the ground at 
the speed of light, exposing objects to the EMP threat waveforms. The 
amount of damage, if any, to the exposed electronics (for example, grid 
control centers and supervisory control and data acquisition, or SCADA, 
elements) and objects (such as transformers) connected to long 
electrical conductors (such as long power and copper communication 
lines) depends on how much energy in the form of induced electric 
current couples into the object or item that was exposed to the EMP. 
The added current going into an exposed electronic component or item of 
electrical equipment represents an ``insult,'' over and above the 
normal operating conditions within the component that can then cause an 
upset or burnout of the object. The U.S. nuclear EMP effects community 
has the computational ability to model the created EMP threat waveforms 
from the source and propagate them down to the ground and thereby to 
exposed objects. This community is also generally able to calculate how 
much current is induced in exposed conductors (for example, long lines) 
and well-defined discrete objects (such as buildings and electronics 
boxes). However, the more complicated the exposed object's design and 
geometry (for example, the design and geometry of a transformer), the 
more difficult it is to computationally model the induced current. 
Therefore, experiments are also conducted to help characterize the 
induced, or coupled, current insults as a complement to computational 
modeling approaches.
    The ultimate response of the exposed component or subsystem depends 
on the magnitude of the incoming current insult (how many amperes and 
over what timeframe). Sometimes, the high current insult burns out a 
sensitive device or circuit inside the exposed object, and the item is 
then permanently damaged. That is, the component will no longer work, 
and it would need to be replaced with a new component before system 
functionality and operability could be restored. For more moderate 
incoming current insults, local heating is generated inside the object 
because of current dissipation, and the local heating can have a 
temporary disruptive effect. Once the generated heat inside the object 
is dissipated, the object can return to normal functionality, but 
sometimes this return to functionality occurs only after human 
intervention to power down and power up the object. If the incoming 
current insult is low and not significant, the object can absorb the 
current insult and continue operating as designed. If the component is 
simple (for example, an electrical circuit or device), we can model the 
response of the exposed object to the current insult and thus determine 
whether it would be upset or damaged. However, many electrical 
components, subsystems, and even integrated systems have complex 
designs and constructions, and therefore we must resort to a 
combination of computer-based models and experimental test-based 
approaches to understand their response to the EMP-caused current 
insults. For complex, interdependent linked systems, such as the U.S. 
power grid, it is essential that computational and experimental 
modeling approaches be combined in order to verify and validate that 
the correct problem is being modeled and acquire the right level of 
confidence in the results.
    Once an electronics-based device, component, subsystem, or system 
has been fully characterized to nuclear HEMP threats and has been found 
to be susceptible or vulnerable to the EMP-induced current insult, 
adverse effects (such as temporary or permanent failure) can be 
mitigated in several ways. One would want to consider mitigating the 
adverse affects, especially if that component is a critical element in 
a larger networked system. A common approach for mitigation is to 
harden the exposed object(s) against the EMP threat using a range of 
well-established design hardening techniques, such as faraday-cage 
shielding, grounding, filters, fast-acting current shunt devices, and 
responsive control systems to manage the effects that could start to 
cascade across a larger network of linked objects. If hardening against 
EMP effects is done early in the design definition and development 
process, before manufacturing, it can be added in the easiest and most 
cost-effective manner. The designer must know ahead of time the 
expected nuclear HEMP threat environments and the required level of 
hardness for the exposed component or subsystem needed for continued 
operation after the EMP attack.
    The U.S. electric power grid contains some level of inherent 
hardness to the three nuclear EMP components. E1 (the high-frequency 
component) corresponds to electromagnetic interference threats from 
nearby transmitters (for example, cell-phone, radar, TV, and Wi-Fi 
transmissions), and electromagnetic compatibility standards are 
followed to protect against such electromagnetic threats. The E2 (mid-
frequency) component corresponds to the EMP from nearby lightning 
strikes, which the power grid is already protected against. Finally, E3 
(the low-frequency component) corresponds to solar-induced geomagnetic 
storms and the resultant ground-induced current threats, which the 
power grid is already resilient against to a degree and is more 
resilient against in some northern latitudes.
    A key unanswered question remains: How much more severe would the 
full range of possible nuclear-driven E1, E2, and E3 components be, and 
what level of protection would the existing power grid have against 
HEMP effects generated by a nuclear detonation? The answer depends, in 
part, on the type, yield, and detonation altitude of the nuclear bomb 
that produces the HEMP effects, the real-world orientations of power 
grid elements relative to the detonation, any inherent shielding 
properties of the exposed infrastructure elements, and the robustness 
of the exposed elements to withstand the EMP insult. More computer-
based modeling and simulation, as well as experimental testing, would 
provide a basis for a more complete understanding of the response of 
the power grid to a HEMP attack and of the specific hardening measures 
to be considered for addition to the grid.
    As new technologies are studied, developed, and added to the power 
grid (such as smart grid monitoring and control), being aware of and 
considering the evolving threat space (for example, intentional 
electromagnetic interference) and natural environments (such as 
variations in solar geomagnetic storm intensity) that could affect the 
performance and reliability of the new technologies may offer 
opportunities to add some level of inherent hardness against specific 
nuclear HEMP environments.
Assessing the Risks Posed by Nuclear High-Altitude EMP (HEMP) Attacks
    In assessing the risk posed by nuclear HEMP attacks, we use the 
classical risk equation, where risk is expressed in terms of likelihood 
(or probability) of the attack, susceptibility (or vulnerability) to 
the hostile environments created by the attack, and consequence (or 
system-level impact) as a result of the attack.
    In Sandia team's view, the likelihood of a nuclear HEMP attack 
occurring above the United States is very remote. The advanced nuclear 
weapon states have had the capability to do significant damage against 
the United States and our power grid for many decades, but they have 
been and hopefully will continue to be deterred from such attacks by a 
strong U.S. strategic deterrent. Some argue that terrorists who might 
someday gain possession of a nuclear device can conduct a similar type 
of attack and generate the same amount of damage. According to the 
team, the assertion that terrorists can use a nuclear warhead in a 
crippling HEMP attack against the United States is not credible, and 
the likelihood of something like that happening is low. More detailed 
explanation can be provided in a classified venue.
    In terms of actual susceptibility of the power grid to nuclear HEMP 
effects, the limited available data on damage effects make it difficult 
to know what will precisely happen to exposed elements across the grid, 
especially to the large high-voltage transformers. Given the amount of 
investment associated with potentially hardening against EMP effects, 
additional computational analysis and testing are needed for higher 
confidence in whether and to what extent exposed elements are 
susceptible to any temporary or permanent EMP damage effects. While 
computer modeling work to date has been extensive on the induced 
currents on exposed power lines, very few experimental data exist on 
how the exposed grid elements (the controllers, protective devices, 
high-voltage transformers, etc.) would actually respond to higher than 
normal currents. Highly instrumented testing of key power-grid 
components to E1 and E3 threat insults is recommended and should 
include characterizing how failures (physical damage) occur and at 
which insult levels they occur. Such data would help validate existing 
power-grid models, reduce inherent uncertainties about the amount of 
damage induced, and provide more confidence in the results.
    Finally, not enough data exist to confidently assess the extent of 
any power-grid outages from a nuclear HEMP attack and the amount of 
time needed for recovery. Several real-world examples have been studied 
of how the grid might respond to E3-like effects (for example, the 
March 1989 Hydro-Quebec grid collapse due to a severe solar geomagnetic 
storm and the August 2003 power outage in the Northeastern United 
States), and table-top exercises have been developed on how utilities 
would find and fix the resultant EMP-induced damage and bring the grid 
back online after a certain period. However, one can only 
parametrically evaluate the impact of nuclear E1 and E3 attacks because 
we do not know the level and extent of damage that would actually 
occur. If additional data were to become available on E1 and E3 damage 
effects and lethality levels of critical power-grid components, then 
the basis would exist for more-confident U.S. power grid simulations of 
the extent and magnitude of damage and the resultant recovery times.
                        summary and conclusions
    From an integrated ``total'' risk perspective, the Sandia team 
considers nuclear HEMP threats to be of remote likelihood. Also, the 
true extent of the grid's susceptibility and vulnerability to such 
effects (be they temporary, permanent, or even not present) and the 
resulting consequences (damage extent and period they would be lasting) 
are mostly unknown, except for the assumed worst-case environments and 
assumptions made in the current nuclear HEMP threat studies that the 
Sandia technical peer review team evaluated. We commend FERC and the 
authors of the studies for their excellent work to date on evaluating 
the impact of EMP threats to the U.S. power grid. However, we 
respectfully suggest that more computational and experimental work is 
required before fully informed decisions can be made about where and to 
what extent the power grid should be hardened solely against nuclear 
HEMP threats. If the decision is made to protect the power grid against 
a broader set of likely EMP threats, including solar geomagnetic and 
electromagnetic interference threats, then an awareness of nuclear HEMP 
environments and effects should also be considered.
    The Sandia technical review team recommends that this complex 
problem be studied in more depth in order to include results from 
additional computer-based simulations and experimental testing. 
Specifically, under nuclear HEMP threat conditions, how do high-voltage 
transformers and their protection and control elements respond to the 
range of induced current insults, and if they fail, how do they fail? 
Answering such questions would provide critical data to enable better 
understanding and validation of results by advancing a complete 
understanding of all the risk elements, as well as quantification and 
reduction of uncertainties in order to fully inform decisions that may 
be made about the U.S. power grid. We suggest that a graded hardening 
approach could be considered, whereby selective hardening could be 
accomplished easily and cost-effectively, in combination with 
addressing new and emerging threats to the grid (for example, 
intentional electromagnetic interference). Also, by further evaluating 
the consequence of EMP attacks on mission-critical U.S. installations 
and functions (for example, important U.S. war fighting or continuity 
of operations), specific sites may be identified that may require 
selective EMP hardening.

    The Chairman. Thank you all very much. Let me start with a 
few questions here.
    Mr. McClelland, your testimony, as I understand it is, that 
the Commission's legal authority is inadequate and that the 
draft legislation that we've prepared address many of those 
issues. Can you be more specific as to the ones we are not 
adequately addressing?
    Mr. McClelland. The draft legislation provided the 
Commission with the ability to address vulnerabilities rather 
than wait until there was a designation that there was an 
imminent danger. The legislation allows the Commission to 
address the vulnerabilities. We believe from the read that it 
also addressed a situation where it may not be appropriate or 
it may not be possible to wait for the ERO to develop a 
standard to address a specific issue.
    For instance a particular threat against a utility or a 
grouping of utilities that serves a particular military base. 
There may need to be some interim action that they take. It 
wouldn't necessarily be applicable to other utilities.
    We believe from the read that we have that the Commission 
wouldn't have to wait until the ERO made a designation about a 
particular standard or attempted to craft a particular standard 
to address that circumstance. The Commission would be able to 
move directly to address that issue.
    The Chairman. You're giving us an example here.
    Mr. McClelland. Yes.
    The Chairman. Where the draft does give you, in your view, 
the authority that you would need to deal with a situation. Are 
there instances where you think the draft fails to give you the 
authority you need to deal with particular situations?
    Mr. McClelland. No, not in particular. There are areas 
where the Commission does not have authority under 215. Some of 
those exclusions, for instance, for allowing Alaska and Hawaii 
continue. But the draft does address that circumstance in 
another manner.
    Except, I guess, the point would be that if it addresses--
if it allowed the Commission to address vulnerabilities. If it 
allows the Commission to reach beyond the definition of bulk 
power system. If it allows the Commission to address EMP and 
non cyber aspects, then it would address the issues that I 
raised in the testimony.
    The Chairman. OK.
    Ms. Hoffman, did you have any comment on any of this?
    Ms. Hoffman. No, I don't have any comment.
    The Chairman. OK. Let me ask on this EMP thing because I 
heard your testimony, Mr. McClelland. You were talking about 
EMP generally, as I understood it.
    You had this particular reference in here which I thought 
was pretty startling where you say that the study has been done 
assessing the 1921 solar storm which has been termed a one in 
100 year event. Applying that, what happened in that 1921 solar 
storm to today's power grid. The study concluded such a storm 
could damage or destroy up to 300 bulk power system 
transformers interrupting service to 130 million people for a 
period of years.
    That's very different than what Mr. Tedeschi was referring 
to. As I understand it he's talking about the electromagnetic 
pulse problem which could be created by a nuclear blast 
intentionally by someone. I guess I'm just unclear.
    You think you don't have the authority to take the 
appropriate or to require the appropriate hardening to deal 
with either of those circumstances? Is that what I understand?
    Mr. McClelland. The Commission's authority is coupled 
through the Standards Development Process. The Standards 
Development Process is too slow. It's too unpredictable. It's 
too open to address national security threats.
    So the Commission may order a standard be returned on a 
particular matter. But it can't be prescriptive or specific. It 
can't write the terms of the standard. It can only turn the 
standard over to the ERO for standards development.
    The Chairman. OK. So I think, I believe Mr. Owens made the 
point that there are 2, sort of, parts of this problem we're 
trying to deal with.
    One is the problem of potential vulnerabilities. hat would 
be the electromagnetic pulse issue.
    Then there's the other part of it which is the potential of 
imminent threats and the ability of the Commission to act or 
the ability of anyone to act quickly to deal with immediate 
imminent threats.
    You're basically saying that you believe something like 
what we've got in draft form here is essential to shore up the 
ability of the government to deal with both sets of problems?
    Mr. McClelland: Yes. It would allow the Commission to 
address a sophisticated and targeted attack or an event aside 
from the Standards Development Process. That's right.
    The Chairman. OK.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just to follow on to the questions here. I direct this to 
you, Mr. Tedeschi. When we're talking about the EMP attack or 
geomagnetic disturbances, these are not new in the sense that 
we're just now learning of them.
    So given the knowledge, given what we have in terms of the 
potential for these types of disruptions. What have we done to 
date in order to protect the grid? I'll ask you and then if 
others can step up here.
    Mr. Tedeschi. Senator, I would just suggest that the 
geomagnetic threats mimic part of the nuclear EMP threat space. 
The geomagnetic threats do occur with regularity. The severity 
of those is ongoing in terms of our scientific understanding. 
Those threats have manifested in the past.
    There are examples where elements of the grid have gone 
down. The utility owners, NERC, FERC, others, have responded to 
those. In some cases, added some of a hardening against the 
geomagnetic EMP threats.
    Our view on the nuclear electromagnetic threats there's the 
component that mimics the geomagnetic threats that it's a very 
low likelihood of occurrence. So from our perspective if the 
utilities, if NERC, FERC, the legislation, allow DOE and others 
to harden against the geomagnetic threats, which are real and 
do occur. That that will provide an inherent level of hardness 
against nuclear EMP threats if those were to occur someday.
    But I think others are more able to answer the question of 
likelihood and the severity.
    Senator Murkowski [presiding]. Ms. Hoffman.
    Ms. Hoffman. Part of the problem is a natural progression 
over time. Some of the older transformers may have some 
weaknesses in them that make them more vulnerable to any sort 
of event. Some of the newer transformers in use have a stronger 
capability to withstand certain incidents.
    Part of the discussion and the investigation that needs to 
take place is what level of protection do we want to require 
transformers and the electric grid to have, what level of event 
should they be able to withstand? Do we want to protect against 
the 1921 event with very high induced currents or do we want to 
actually look and say here is a median level of event which the 
industry should progress to protect against with respect to 
transformers, with respect to harmonics on the electric system. 
So a lot of this discussion comes down to the parameters that 
we should be building the technology to withstand.
    That's the direction I think the conversation is evolving 
toward.
    Senator Murkowski. Mr. McClelland, did you want to go 
ahead?
    Mr. McClelland. Sure. There are operational procedures in 
place today where if the industry is alerted then they can take 
precautions to go in the more conservative operations to 
protect equipment. The problem is though that we haven't seen a 
1921 event.
    A 1921 event, we found from our assessment, could be 
catastrophic in nature to the grid itself. So the question 
would be not so much as to what level we dampen to, but can we 
block all events. The answer we think is, yes.
    But there's still some work to do as Mr. Tedeschi pointed 
out. We still need to identify the proper equipment. Test the 
equipment. Then move for mitigation against these events.
    Then we wouldn't have to worry about whether we have a 25 
year event, a 50 year event, a 100 year event. If we block it, 
it's taken care of. It's an automatic mitigation method. We 
don't have to rely so much on human intervention to save the 
grid in a circumstance like that.
    Senator Murkowski. Thank you.
    Mr. McClelland. But to also answer your question directly. 
There's been very little, if any, hardware mitigation that's 
been put on to protect from say, solar magnetic disturbances on 
the grid.
    Senator Murkowski. Thank you.
    Mr. Cauley, you want to finish it up?
    Mr. Cauley. Thank you. I really think that Mr. Tedeschi's 
testimony hits on the issue of sorting out the key issues. 
We're focused at NERC and I think working with the industry to 
resolve the solar magnetic, geomagnetic issue.
    We did have a major storm in 1989 that blacked out Quebec. 
I think the industry learned from that. There was a lot of 
equipment hardening in the northern latitudes where it's more 
of an impact.
    I think as we look at the risks of a larger storm we have 
to ask ourselves, you know, how much further down into the 
continent would it extend. So we are working to upgrade notice 
procedures, advance warning systems and also doing engineering 
studies. If we did the hardening, as being suggested here, it 
will affect other issues like clearing of electrical faults and 
the dynamic behavior of the system.
    So we have to study it. Be very careful about changing the 
system in a way that does not cause harm in other ways. So 
we're focused now on this solar magnetic and geomagnetic 
disturbance issue right now.
    Senator Murkowski. Thank you. My time is up.
    I just want to ask very quickly. Is there a greater 
incidence of the solar magnetic, electromagnetic in the 
northern altitudes?
    Mr. Cauley. Yes. The impact, depending on the--it's a very 
dynamic situation. But if the pulse hits the Earth's magnetic 
field that the disturbances most severely affected in the 
northern latitudes. So the larger the pulse from the sun, the 
further down it can extend into the middle latitudes of the 
United States.
    Mr. McClelland. May I just quickly add to that? Our study 
did consider the likelihood of a solar magnetic disturbance 
over Winnipeg, Manitoba verses Minneapolis, Minnesota found 
that they were equally likely to occur. In fact if it happens 
over Minneapolis, Minnesota the number of bulk power system 
transformers that could be damaged/destroyed reaches over 1,000 
rather than 368 which was on the Winnipeg, Manitoba incidents.
    So it can center. But it can also--it can move around. We 
just don't know where it will be. We don't know when it's going 
to happen again. We just know with certainty that it will 
happen again. It's inevitable.
    Mr. Owens. May I add to this conversation just very 
briefly?
    I do agree in what they're demonstrating is there's no 
perfect solution. Mr. McClelland made a reference to the 
potential destruction of 300 transformers as he related back to 
the prior major solar activity that we had in 1921. One of the 
things that we're seeking to do in the industry, we're working 
very closely with NERC is to harden our systems, create 
redundancy in our systems.
    With respect to transformers, we are making sure we have 
spare transformers. We have a very substantial spare 
transformer inventory that the industry, for several years, has 
been committing resources to because we recognize how critical 
the transformers are. If you lose a transformer it takes a 
while to restore service.
    So we're working to make sure we have this redundancy in 
our transformers. There are other elements, critical elements 
of our network as well that we're looking at. But there's no 
perfect solution.
    It's very important that you have the redundancies and the 
hardening of the system. But it's equally important that you're 
able to restore service as quickly as possible.
    Senator Murkowski. Thank you all. I am way over time. I 
apologize to my----
    The Chairman [presiding]. No problem.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. As interesting as 
EMPs and solar magnetic pulse is, I'm going to try to stay away 
from that.
    As the only member here today of the Intelligence 
Committee, I'm going to try to focus on the realities of the 
threat that's out there and maybe the options that we have. Ms. 
Hoffman, what analytical assets does the DOE have to identify 
any intelligence threats?
    Ms. Hoffman. The intelligence cyber threats comes through 
the Department, Office of Intelligence shop, not through our 
organization, the Office of Electricity. We coordinate with our 
intelligence office as well as with DHS.
    Senator Burr. The analytical work for what the DOE receives 
is from multiple sources.
    Ms. Hoffman. Yes.
    Senator Burr. It comes from DOD. It comes from DHS. It 
comes from NSA which is part of our problem.
    Now Mr. Cauley, if I understood your testimony correct, 
NERC currently has direct contact with the intelligence 
community. Is that correct?
    Mr. Cauley. That's correct, Senator Burr, with multiple 
agencies.
    Senator Burr. So you're part of that intelligence loop 
right from the analyst?
    Mr. Cauley. Those are primary sources that we use to get 
information to industry to take actions. We have, myself, top 
secret clearance and others on staff have clearances to receive 
that information.
    Senator Burr. OK.
    Mr. McClelland, where does FERC currently get their 
intelligence from?
    Mr. McClelland. We get our intelligence from DOE, CIA, NSA 
and DHS.
    Senator Burr. OK. How many people have the security 
clearance to say, sit down with CIA to get information from 
them?
    Mr. McClelland. We have 3 people in our organization that 
have SCI clearance. I couldn't give you the specific number, 
but we have several more that have TS clearance. All of our 
chairman and all commissioners have TS clearance.
    Senator Burr. Under the joint draft, FERC would be 
authorized to develop standards to address cyber security 
vulnerabilities for utility generation, transmission and 
distribution. Who currently has jurisdiction over the 
distribution system?
    Mr. McClelland. The States do.
    Senator Burr. Under this would that then supercede the 
existing authority?
    Mr. McClelland. I think the way the legislation is written, 
I think the Commission would have the ability to write cyber 
security or non cyber standards for distribution.
    Senator Burr. Let me ask an open question. Why should we 
give FERC, who is the economic regulator of markets, 
jurisdiction over distribution?
    Mr. McClelland. Section 215 of the Federal Power Act gave 
FERC jurisdiction over both cyber security and reliability 
standards.
    Senator Burr. I realize we did. Understand that today. We 
were very early into sort of the threat----
    Mr. McClelland. Right.
    Senator Burr. Generation that we're in now. Personally if I 
had it to do over again, I'd love to see the focus of this on 
how we remove the authority that we gave to FERC. Because I 
believe as a country right now, we're--we've got the authority 
in too many different places to be responsible for a threat 
stream that by the time these agencies are notified, quite 
frankly, it may be too late for the immediacy of a threat. I 
was more impressed with Mr. Owens' answer, even though it was 
on EMP and solar magnetic.
    The industry is making the advances that they need to to 
respond, to get back up and running. The NERC, if we need to 
look somewhere, I guess our question should be what additional 
authority to you need to do what you're currently doing verses 
to bring anybody else new into the process of mapping out a 
pathway forward for the infrastructure and its integrity?
    Mr. Cauley, I'm giving you an opportunity. What do you 
think?
    Mr. Cauley. If that's a question, Senator Burr. I did point 
out in my testimony that the one gap that I sense right now is 
if there is an imminent threat or vulnerability and we need 
industry to take action then we do not have the ability to make 
enforceable directives to industry. That has to be done very 
carefully.
    I'm not an operator. Mr. McClelland is not an operator. We 
don't want to order the industry to take an action that has 
risky consequences.
    Senator Burr. If you were to take an action or if we were 
to give you the authority over distribution and you made 
determinations under the guidance of cyber vulnerability. Who 
pays for it? Who pays for that?
    Mr. Cauley. The rate payers.
    Senator Burr. Rate payers. Let me just suggest to you 
regardless of how we move forward. Let's consider the fact that 
the rate payers are going to pay for this. We don't have the 
luxury of doing everything that one might think we should do to 
protect ourselves.
    I would only say this as a member of the committee, you 
can't do enough things to protect us 100 percent from the 
threats that are out there. So let's recognize the fact that 
there's got to be some consideration on cost and a big 
consideration on who pays for it.
    Mr. McClelland.
    Mr. McClelland. I wanted to say one other thing to revisit 
the point that you had before about distribution. The problem 
with distribution is that if there are 2 way communications 
between distribution and say, the bulk power system. You know 
from your experience that any time there's 2 way communication 
there's a chance for corruption. Currently there are 50, say 
50, different agencies maybe looking at cyber security, maybe 
not.
    We've got wide scale deployment of smart grid equipment 
that depends on 2 way communication. So all I'll say is 
regardless of where that authority falls there is a gap in the 
authority. Is a significant gap that comes to cyber security. 
Thanks for----
    Senator Burr. I appreciate that comment. This would be a 
personal observation with what we don't know today. I'm more 
encouraged to slow down the implementation of smart grid 
technology until we learn the things that we need to learn to 
implement it with a great deal of confidence.
    Thank you.
    The Chairman. Senator Udall just arrived, but he has 
indicated that he would like Senator Lee to go ahead with his 
questions before he does questioning. So go ahead.
    Senator Lee. Thank you, Mr. Chairman. Thanks to all of you 
for joining us here.
    The joint staff draft would give authority to DOE and FERC 
or a combination of the 2 of them to order electric utilities 
and others to take action to overt imminent danger that could 
stem from an imminent cyber security threat. If what we're 
talking about is cyber terrorism does it make sense to put that 
authority in any of the agencies that deal with intelligence? 
For example, the intelligence agencies that are gathering the 
information that would signal this sort of a threat or does it 
make more sense to put it in a Federal regulatory agency that 
deals specifically with energy?
    Ms. Hoffman. To begin with, the approach has to be 
comprehensive. It has to involve both FERC and DOE, in fact the 
whole government. The intelligence agencies do a very good job 
in analyzing the information. The operators are the folks that 
actually look at the operations of the systems will be best to 
help develop the mitigations and the solutions.
    From my perspective it's a partnership that's required.
    Senator Lee. Is this, following up on Senator Burr's line 
of questions. Is this something that necessarily needs to be 
Federal? Is this something that could not be done on a State by 
State basis with State regulators working in concert with 
Federal authorities? In other words from a regulatory 
standpoint should the regulator be Federal or should the 
regulator be State?
    Mr. Owens. I might seek to respond to that, Senator.
    I think you have to make a distinction between an imminent 
threat and a cyber vulnerable assets. With respect to an 
imminent threat it makes sense to me to believe that you need a 
Federal agency that sees that intelligent information. So you 
can act decisively.
    I spoke earlier about the need for horizontal 
communication. So it means that the FERC, as an example, and 
the Department of Energy and the Department of Homeland 
Security, all those agencies, those who have intelligence about 
the imminent threat and those who have the understanding and 
the authority to order a change in operations. They should be 
working collaboratively.
    When you look at the issue of a cyber vulnerability, a 
critical asset, that takes more time because what you want to 
do is you want to make sure that you've hardened the system and 
you've prevented a potential cyber disaster in the future. That 
requires coordination with the industry. It requires complete 
coordination with the government agencies are affected.
    Where it gets real controversial or difficult is if you 
suggest that all assets need to be looked at by one Federal 
agency. When we recognize that we also have State bodies that 
look at these issues. It seems to me a very clear way to do 
this is to make sure that there's that vertical dialog between 
the Federal Government and the State agencies, who daily deal 
with these issues as well.
    They deal with cyber threats at the distribution level. 
They work very closely with their local law enforcement 
agencies. They work closely with the FBI. They're very much 
aware of some of these threats that are involving their local 
utilities.
    What I believe is important to make sure is we don't have a 
gap. I don't believe we have a gap. I think those agencies are 
taking on their responsibilities very forcefully. I believe 
those agencies, those State agencies are working very closely 
with the Federal Government in trying to understand what those 
imminent threats are and the actions that have to be taken.
    So I would encourage us not to give the impression that the 
State agencies aren't doing their job because they are.
    Senator Lee. Mr. McClelland, I wanted to follow up on a 
different issue with you. You referred to the fact that if we 
had another 1921 style event that it could knock out, did you 
say 300 transformers?
    Mr. McClelland. Over 300. It could affect over 300 
transformers, 368 is the exact number.
    Senator Lee. Potentially affecting how many customers?
    Mr. McClelland. 130 million customers.
    Senator Lee. I think I heard you say that some of those 
could be affected over a 10-year period is----
    Mr. McClelland. No. Yes, they could be affected. There 
could be service interruptions for over a 10-year period.
    Senator Lee. That's simply because it could take that long 
in order to restore all the equipment that would be destroyed 
by the one event.
    Mr. McClelland. Right. The bulk power system transformers 
are typically about a 52-week or 1-year lead time. They're not 
produced in the United States anymore. We are dependent on 
other Nations to bring them forward.
    There is an existing queue of transformers that need to be 
built. Developing Nations such as China are using lots of those 
slots in the queue, the ordering queue for those transformers.
    Senator Lee. OK. Is there anything we could do in that 
circumstance to shorten that time period? I mean, I assume we 
could ramp up production of those.
    Mr. McClelland. Yes.
    Senator Lee. Faster, so you're presupposing that were--that 
our production rate would be roughly what it is now.
    Mr. McClelland. Right. We could attempt to attract 
manufacturers to the United States. We could ask for expedited 
delivery. Perhaps pay some fee to have expedited recovery. But 
there's not a lot more than that.
    The transformer capacity is the capacity. So other people 
would have to get out of the queue, stand aside, for us to have 
those units built. Even then the through put of those 
facilities is limited.
    Senator Lee. OK. I assume it's not pragmatically plausible. 
I'd say it's not possible or practicable to produce a 
transformer that is immune from this sort of pulse.
    Mr. McClelland. There are blocking devices that can be 
employed. The devices are not widespread though. They haven't 
been deployed.
    So there are conceptual ideas that we've seen. They need to 
be prototyped and tested. I'm an electrical engineer having 
spent almost 27 years in the business. My recommendation would 
be to automatically block this on the most susceptible or most 
critical elements of the bulk power system so we don't need to 
stand in line after a solar magnetic disturbance to wait for 
transformers.
    Senator Lee. OK.
    Mr. McClelland. One thing, if I could just revisit very 
quickly. FERC is more than an economic regulator. My office has 
about 135 employees. Most of those employees are electrical 
engineers with advanced degrees with vast experience in the 
electric utility industry.
    Senator Lee. OK.
    Mr. McClelland. So we do have expertise with----
    Senator Lee. Just going to the technological expertise 
within your agency that could qualify you to----
    Mr. McClelland. To deal with----
    Senator Lee. Deal with these situations.
    Mr. McClelland. To deal with new section 215. That's not to 
minimize what DOE or what the industry does. But it is to 
fairly represent what we do at our agency.
    Senator Lee. Thank you. That's all.
    Mr.McClelland. Thank you.
    Senator Lee. Thank you, Mr. Chairman.
    The Chairman. Senator Udall next and then Senator Hoeven.
    Senator Udall. Thank you, Mr. Chairman. Good morning to all 
of you.
    This is an important and timely hearing, and I want to 
acknowledge the leadership of the ranking member and the 
chairman. I sit on the Armed Services committee. I sit on the 
Intelligence Committee. I sit on this committee.
    This is a truly complicated challenge for us. There are 
many entities and agencies involved. But all of that doesn't 
lessen the threat. I think the longer we delay obviously the 
more we may experience an incident that we will regret.
    The military is moving aggressively toward islanding some 
of their facilities. Because I think they see that as a 
necessity. So my appeal to all of you and all of us is to focus 
on this and truly get something done in the near, near future. 
In that spirit, hope there's a bit of positive thrust in that 
spirit.
    But I want to turn to the Secretary and Ms. Hoffman. In the 
report just last month, April 2011, MacAfee and the Center for 
Strategic International Studies, CSIS, stated that the 
``adoption of security measures continues to grow,'' but 
``unlike threats and vulnerabilities, adoption of new security 
measures is improving at a snail's pace.'' Do you think that 
characterization fairly describes our Nation's electric 
industry?
    Ms. Hoffman. The adoption of technologies is slow.
    First of all we have to look at the availability of new 
technologies to address security issues. The cyber security 
environment is changing on a real time basis. The capabilities 
of the adversary are also changing. But it takes time to deploy 
new technologies, and the electric industry tends to follow a 
longer timeline with respect to transferring out older 
technologies and bringing new technologies in.
    So there are several factors compounding an already complex 
issue. What we need to do is enable technologies to be upgraded 
in a more timely fashion. We also need to continue to test new 
technologies. We also need to build a stronger work force so 
that as we move forward we can get better adoption of the 
technologies into the system.
    Senator Udall. Do we need to call--I know we do this in 
this town, but a summit of all the stakeholders and look at 
that Gordian knot sitting in front of us and all maybe, put our 
hands on the sword and cut through it? My concern is that we 
continue to point fingers in every single direction. Nothing is 
really going to happen until we're forced to react.
    That's not the right position to be in.
    Ms. Hoffman. We need to continue to have dialogs to get 
ahead of the game. It comes down to understanding what are the 
priorities for the issues we need to address, analyzing are we 
actually complete in our strategies, and whether there are any 
gaps with respect to protecting the system.
    Then we need to make sure that there's a comprehensive look 
at what the impact and the costs are of implementing new 
strategies and solutions.
    Senator Udall. Mr. McClelland, if I might turn to you. 
Could there be circumstances where FERC ought to have the 
capacity to just order measures first rather than work through 
the ERO?
    Mr. McClelland. Yes. I think there could be. I really think 
that those circumstances should be very limited and should be 
emergency type circumstances.
    There may be a particular instance where CIA or DOE or DHS 
uncovers an attack vector of vulnerability that could be 
exploited. Something like Aurora, maybe there's not enough 
information to show that it's an imminent danger. But it's 
certainly a viable vulnerability. The facility that would be 
interrupted would be critical.
    It may not be applicable then to everyone else. But that 
entity may need to go to a heightened state of readiness. They 
may be what we would term in case of emergency break glass 
scenario where they disconnect remote operations at some 
facility for some period of time.
    There could be limited circumstances like that where a 
standard wouldn't be appropriate. But it would be very 
important to FERC to move quickly if it's given this authority, 
to order those mitigation measures to work with the affected 
entity to get those in place.
    Senator Udall. I want to give Mr. Cauley a chance to 
comment.
    But I would add this observation. I serve in the U.S. 
Senate. We have 50 States represented here. We can be very 
decentralized. We can be very focused on our own regional or 
State interests. So I have some sympathy for the challenges 
that you face. But I appreciate your comments in this regard 
too.
    Mr. Cauley. I think there is a need, Senator, for some, as 
Mr. McClelland is suggesting, some ability to get information 
and actions out to industry quickly. But I don't know of any 
one place or any one authority who is the smartest on the 
planet, who knows the right answers all the time. Can issue 
that order without any risk. So I would encourage whatever we 
end up with that there be the opportunity for consultation with 
those who have to be involved in that decision.
    I think the perception that's been painted that the 
industry really hasn't done anything and is slow is a false 
one. I'd encourage any of you in your own States to go visit 
your local utility control center who fall under our standards.
    You will have a hard time getting in. You certainly won't 
touch any of their computers. They'll ask you for devices that 
you have on you. It's like going into a government facility.
    So I don't think the industry likes to advertise how secure 
they--all the work they've done to secure our systems. But 
there is a lot of work going on.
    In our standards we've found--this number may be corrected, 
but at least 1,500 violations of cyber security standards. So 
we are actively out there beating on this day in and day out. 
Folks are fixing it. So it's not like we're standing still.
    Senator Udall. Thank you.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I'd like to follow up on Mr. Cauley's statement. Ask each 
of you just--and I'm trying to get a sense of consistency or 
where there's differences in your opinion. How secure is our 
system? Is it secure? Is it very secure? Is it secure or do you 
think it needs significant improvement?
    I am looking for kind of like say, following on your 
statements saying that boy there's a lot of work being done. 
Generally I get the sense you feel the system is secure. What 
is everybody's opinion in that regard?
    Ms. Hoffman. I will first say it depends on what we're 
securing against--from known issues where we can share the 
information with the industry or unknown issues.
    Senator Hoeven. Let's just start with a cyber attack of 
some kind. Somebody trying to put in a worm or some type of, 
you know, software attack of some kind to disrupt the system.
    Ms. Hoffman. There is a level of security out there 
already. Yes.
    Senator Hoeven. That's pretty, kind of, noncommittal, so.
    Ms. Hoffman. OK.
    Senator Hoeven. So we're secure or?
    Ms. Hoffman. We're secure to a point. There are 
vulnerabilities with human interface, so that if it's a worm or 
some human interaction continues to perpetuate that.
    Senator Hoeven. Recently the Israelis developed a cyber 
attack on the Iranian nuclear power development system. Could 
that type of worm be put into our system and disrupt power 
supply in the United States?
    Ms. Hoffman. I don't have the specific details on those 
worms. So I can't give a very good analogy to that specific 
example. The issue is there's always room for improvement.
    What we need to do is to react quickly, be very quick on 
our feet, be able to deal with any sort of event that comes 
out. The industry needs to react quickly to the event. One of 
the things we need to do is to provide for information exchange 
so that we can act quickly. That is the capability we need to 
go after.
    Senator Hoeven. If the Secretary of Energy has the ability 
to intervene in that type of event or concern that that type of 
event occurs. How is that decision made? How do they intervene?
    Ms. Hoffman. With respect to the Secretary of Energy, under 
the Cyber Space Policy Review, there is a national incident 
management process under development in the Federal Government. 
DHS has a national cyber security control center that we all 
participatein within the energy sector. ISAC also participates 
in that.
    When a cyber event occurs, the information is shared. Next 
a coordination group is formed that identifies the potential 
impacts and consequences and the potential mitigation 
solutions.
    Senator Hoeven. So then if each of you would just comment 
in terms of what you perceive that risk to be whether it's a 
high risk or whether we have strong security in place that 
would mitigate it and our ability to react.
    Mr. McClelland. Really when you're talking about as many 
utilities as you are, you're talking about absolute worst 
practices up to absolute best practices. So it depends on the 
entity that's defending and it depends on the entity that's 
attacking.
    But with that said, if my personal level of confidence is 
not high. Because if the government agencies can't protect 
against a sophisticated Nation, State threat, advanced 
persistent threats that we've seen. I don't think that 
individual utilities will be able to.
    As tightly interconnected as the utility system is, it 
doesn't take much. It doesn't take many penetrations or many 
disruptions of pieces of equipment to cause profound analogies 
within the interconnections themselves.
    Senator Hoeven. Our ability to react in the event of that 
type of an attack?
    Mr. McClelland. Again, it depends on the piece of equipment 
that's attacked. If it's a large generator, critical size 
generator and if it's a simultaneous attack on several of those 
facilities, those generators can take years to construct and 
put into service. So prolonged outages or prolonged disruptions 
or prolonged cases of reduced output, could be possible.
    Mr. Cauley. Senator, the challenge you're hearing in the 
responses, I think the answer is both. I think systems are 
secure at a baseline level. I think there's the training. 
There's the tools, the procedures.
    The challenge is there are threats that exceed the normal 
capability and awareness of a civilian infrastructure. That's 
where the interplay between the Federal Government, who has 
intelligence of emerging threats and actors who would do things 
coordinated wide area attack on physical facilities, a very 
wide coordinated cyber attack that we're not aware of. But the 
practices, the normal prudent practices, I would say the 
industry has a handle on those. Those are things they're aware 
of.
    It's the emerging things from threats that we don't have 
sufficient tools at this point that we would like to make sure 
there's a good coordination between government and industry. 
What is it we're seeing? How can we be respond and react to 
those kinds of things?
    Mr. Owens. I think he said it well. It requires, as I was 
stressing earlier, tremendous coordination involving the 
government and industry. We've hardened our systems. But as was 
said earlier, there's no perfect system.
    We have to be able to restore service quickly if there's an 
outage. We have isolated assets that we think are very critical 
that provide some cyber vulnerability working very closely with 
NERC and with the Federal Energy Regulatory Commission. It was 
mentioned earlier about the new technology called modernizing 
the grid or the smart grid.
    We're making sure that the equipment that we're installing 
to make that grid much smarter, that they're high cyber 
standards that have to be met by the vendors and the 
manufacturers. So it's an evolutionary process. It's not a 
static process.
    Our systems are not perfect. We are building redundancies. 
But again, there's still a lot of work that needs to be done. 
But it requires complete coordination between industry and 
government.
    Senator Hoeven. Sir?
    Mr. Tedeschi. Senator, I am not a cyber expert. So I must 
defer on answering the question.
    Senator Hoeven. Alright. Thank you.
    The Chairman. Let me ask about one other issue that's come 
up in the testimony that some of you've presented here. That is 
the whole issue of authority over the distribution systems. As 
I understand it we've got FERC's authority is under the Power 
Act is over the bulk power system. We're trying to also deal 
with this cyber security threat in terms of the distribution 
systems because the whole thing is integrated.
    Let me just ask you, begin with you, Mr. McClelland, as to 
what your thought is as to what has been proposed in our draft 
to extend the authority to the distribution systems and what 
should be proposed and whether what we've got here is the right 
solution or whether there should be a different solution.
    Mr. McClelland. I can comment on what's been proposed. Then 
I can also comment on what might happen if there's no 
distribution system protection.
    What's been proposed, as I read it, is an emergency 
authority to address a vulnerability that would have a profound 
impact on the critical infrastructure of the United States, a 
strong impact. That authority would have to be used very 
judiciously, very infrequently. So it would not be a normal 
authority, but it would be an authority where say a smart grid 
installation is proceeding and millions of meters have the 
ability to provide a denial of service to some critical bulk 
power system facility.
    At least in my personal opinion, that may trigger that 
authority to be used. Without an authority over distribution 
though, it would be up to 50 States to determine their policies 
as to how the cyber security might or might not work. It may 
not be consistent. It may mean that distribution systems would 
have to be treated as a non trusted source.
    So from a verification, from a communication standpoint 
with cyber security, it would be placed in an outside realm. It 
would also mean that there would be no protection afforded to 
them by any sort of a Federal program, a Federal standards or a 
Federal jurisdictional program.
    The Chairman. OK. Mr. Cauley, I think you have testimony in 
here about concerns that we would be in this draft extending 
jurisdiction, the FERC jurisdiction, to the distribution 
systems while your organization would not be able to extend any 
of your activities in that area. Am I understanding that right?
    Mr. Cauley. Yes, Mr. Chairman. Without taking a particular 
position about whether distribution should be included in the 
legislation or not, there are some concerns.
    First off, I think our standards and the programs that we 
have in place work well to achieve the reliability and security 
of the bulk power system. The question is do we want to extend 
now that same protection to the distribution system I think was 
a policy question that I won't weigh in on. But if it were the 
case where FERC had authority that was beyond that of NERC I 
think it would be at all times we could be looked at as being 
deficient because our standards don't extend out to the 
distribution area.
    So the point I made in the written testimony was I think to 
the extent we're going to cover cyber security between NERC and 
FERC I think the jurisdiction should be consistent between us.
    The Chairman. But you don't think this distinction that Mr. 
McClelland is making between authority over to put in place 
standards to guard against potential vulnerabilities, that's 
one set of authorities.
    A separate set of authorities is to take immediate action 
to deal with an imminent threat. You don't think it's 
appropriate that FERC have authority in that second area 
without NERC also having authority in that second area?
    Mr. Cauley. I think it's beneficial to have alignment with 
our--between the FERC and the NERC. As our process--essentially 
when we send out alerts or actions it goes out to the same 
companies. It goes out to individual companies that operate 
both transmission and generation and distribution.
    So I think we would make the situation more complex and 
more difficult if we had, sort of, fractured jurisdiction.
    The Chairman. OK.
    Mr. Owens. May I respond to that too, Senator?
    The Chairman. Sure. Go right ahead.
    Mr. Owens. I would again go back to a distinction. For an 
imminent threat that puts our national security at risk, that 
puts our economic security at risk, I think it's very 
appropriate that the government act decisively and 
deliberately. That means Federal Government in close 
coordination amongst the various agencies that have 
intelligence information as well as the industry.
    So I think that's a no brainer that we've got to act 
decisively to protect our society and our way of life and 
prevent disruptions. When we're looking at the issue of 
vulnerability, of potential vulnerability, of an asset that 
could lead to a cyber disruption that could affect our society, 
I think it's grey. That area gets very grey.
    Where it gets grey is we know that the States already are 
dealing with that issue. I think that's what Mr. Cauley spoke 
to. I would have great difficulty if we said let's give FERC 
that authority and let them have that authority permanently to 
begin to develop standards that impact the distribution level, 
recognizing that we already have States that are intimately 
involved in these activities.
    A standard implies that you have to make changes in 
investments, in your resources and so forth. There's a cost 
associated with that. Those State commissions have a 
responsibility of looking at those costs and the impact on 
consumers.
    So I'd have great difficulty suggesting that we give FERC 
permanent authority over distribution assets when we already 
recognize the States have a vital role in this area. I think it 
would add tremendous confusion.
    The Chairman. But I don't think that's what we're doing. As 
I understand what the draft does and what I thought I 
understood Mr. McClelland to say was that we would be giving 
FERC authority to take action to deal with imminent threats in 
the distribution system.
    Mr. Owens. I have no difficulty with that.
    The Chairman. OK. So that's the limited authority. We're 
not saying from now on FERC has authority to set standards in 
the distribution system.
    Mr. Owens. OK.
    The Chairman. I don't believe. Is that a correct 
understanding?
    Mr. McClelland. I think there is a distinction here that's 
important to point out. So and I wouldn't argue with Mr. Owens' 
point. But there are 2 authorities.
    One is for an imminent danger that goes to the DOE.
    One is to address a vulnerability that could provide, you 
know, an impact, a negative impact on a critical 
infrastructure.
    The difficult piece of this is to try define imminent 
danger. In a cyber security realm--I mean it's not as difficult 
if someone is setting up an intercontinental ballistic missile. 
You can look by satellites to see the launch pad.
    For cyber security it may be a non descript building with 
100 people attempting to probe the system. So as long at the 
threshold isn't so high, imminent danger can be a very high 
threshold to prove. It may in fact mean that an attack is 
underway or there is already a problem that begins to 
materialize.
    So that's the distinction that I think that we would all 
wrestle with.
    The Chairman. OK.
    Senator Murkowski.
    Senator Murkowski. Let me just follow on to that. Because 
it was my understanding that OK, we're in agreement that when 
we're talking about the imminent threats it's DOE that has that 
authority. They don't need to wait for anyone here.
    But with the less time sensitive vulnerabilities this is 
where FERC has that jurisdiction. But you have that stakeholder 
process with ERO under section 215 that says the stakeholders 
go first. So the concern that has been expressed and I'm not 
quite sure whether it was intentional, whether it was drafting 
error, where we are.
    But what I understand has happened with this. With the text 
that we're dealing with is that we may be in a situation here 
where FERC is able to bypass that stakeholder process with--
which is not the intention. FERC could actually bypass and then 
effectively direct what the standards may be for--at this local 
level which I don't think is what we intended it to do.
    So the question then becomes do we need to clarify this 
within the draft language so that we do not effectively allow 
for that bypass. That it is clear that that stakeholder process 
has the authority to go first, if you will. Do we need to 
resolve within the language this discrepancy? Because it sounds 
like the chairman and I are both a little bit foggy on what it 
actually does. It sounds like a pretty critical piece of what 
we're trying to resolve here.
    Mr. Cauley.
    Mr. Cauley. I think there could be some clarification as I 
had suggested in my testimony. I think the Commission has 
authority today to direct us to do a very specific standard and 
achieve a very specific outcome. If similar language is sort of 
repeated in this new legislation I think it would be very 
beneficial if it did provide for the Commission to give us a 
specific objective, a problem we're trying to solve and give an 
opportunity for the process to work.
    One of the difficulties I see with having a vulnerability 
section separately is the line between what we're calling 
vulnerabilities and threats is a very nebulous line. 
Vulnerabilities can come out today. A premise be made that this 
is a vulnerability we need to solve in a week in the area of 
safety and reliability doing standards fast is not usually one 
of my first objectives.
    My first objective is to get it right and solve a problem. 
I think that carries over to nuclear safety, airline safety. 
It's not about being fast.
    That's where I suggest that our ability to issue a 
mandatory emergency directive whether it be for a vulnerability 
that has now just popped up or an imminent known threat coming 
in from an intelligence agency. I think we need to strengthen 
our ability to get those directives and immediate actions out 
and have them have teeth and have some enforceability with 
that. So----
    Senator Murkowski. So are you suggesting that we should not 
have this bifurcation between the vulnerability and the 
imminent threat?
    Mr. Cauley. I think it's an artificial one to be honest. I 
think to the extent that a vulnerability is an enduring 
vulnerability like a solar magnetic disturbance is. It's here 
this week. It's here next week. It's going to be here 10 years 
from now. That should be handled through our standards process.
    But the emergent dynamic issues that are coming up whether 
you call it a threat or vulnerability need some faster 
mechanism to respond to. I think that would be more 
appropriately handled through directives and actions in a, sort 
of in a near term basis with consultation from the entities 
that have to follow those requirements.
    Senator Murkowski. Mr. McClelland.
    Mr. McClelland. There is a bifurcation in the bill between 
imminent danger which is a threat and then vulnerability that 
exposes an imminent danger. So for instance, Aurora although it 
was demonstrated in a laboratory there was never any 
intelligence that anyone planned to use it. So it would fall 
under a vulnerability per say.
    So the bifurcation once we acknowledge the bifurcation, I 
personally saw it as 3 levels.
    One would be the routine standards development process.
    The second would be a measure to address a vulnerability 
through the ERO and the stakeholder process.
    A third which would be an extraordinary level which would 
be something that needed to be done immediately that could not 
result in a standard. A good example would be say, distribution 
systems. There are no--the jurisdiction of the ERO does not 
extend over distribution systems. In that regard I personally 
thought it may be some sort of a targeted vulnerability that 
may be temporary in nature to address a specific issue.
    Without that vulnerability though, a personal perspective 
is that the cyber security would be extremely difficult to 
prove imminent danger. There would be no Federal agency that 
has the ability, be it FERC, DOE, DHS or anyone that would have 
the ability to trust but verify to compel action and make 
certain that that action is taken. So from, again from a 
perspective, the vulnerability in the manner in the layers that 
I represented, I thought would be adequate, somewhat 
extraordinary, but adequate to address any cyber security 
issues.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Owens, you're shaking your head. I actually had a 
question for you about the NERC alerts not being legally 
enforceable. It was Mr. Cauley. You recognize that as a gap. 
I'd like that addressed.
    But I recognize that Senator Udall is here. Do you mind if 
I just finish out my question?
    Senator Udall. Go right ahead. Sure.
    Senator Murkowski. I have been running over the clock for 
the past 2 hearings.
    The Chairman. Go right ahead.
    Senator Murkowski. I'm very conscious of that.
    Mr. Owens.
    Mr. Owens. I think we are making it far too complicated.
    Senator Murkowski. I agree. It's getting tougher instead of 
easier.
    Mr. Owens. Let me just try to be very simplistic in 
explaining this. One side we have imminent threats. The other 
side we have assets that create a vulnerability where it could 
lead to a cyber breach that could be very disruptive to our 
society.
    On the imminent threat side I think all the panelists agree 
that it requires an agency that has intelligence about the 
threat working with other Federal agencies and the industry to 
be decisive. So irrespective of jurisdictional boundaries, it's 
irrelevant. We're trying to do something to protect our 
national security.
    So let's do it. So that's imminent. You got to act quickly. 
You got to act decisively. Let's do it. But let's make sure 
that folks that operate the systems are involved in the 
decisionmaking. So we make the right decisions, not a decision 
that's going to lead to unwarranted circumstances.
    The second area are we have some assets that were evolving, 
that are evolving that now pose potential cyber risk. Some of 
those assets are critical. Some of those assets are not 
critical.
    The critical assets we want to make sure that those 
critical assets are identified. We want to make sure that the 
government agencies and industry can work closely together. To 
make sure that we continue to have those assets secure so they 
remove that potential cyber risk.
    The question becomes who has that responsibility. Should 
the Federal Energy Regulatory Commission have that 
responsibility exclusively on over all these critical cyber 
assets or should it be acknowledged that the States have a 
vital role too? What I'm saying is the States have a vital role 
to the degree that some of those critical assets are suggesting 
that they can lead to an imminent threat. The question becomes 
should the Federal Government act decisively to deal with that.
    I don't have a difficulty with that. The difficulty I have 
is if the Federal Government, FERC, decides they have the 
solution only and they seek to operate and deal with that 
solution without having States involved and without having the 
industry involved. That's what the problem is.
    No single Federal agency has the wherewithal to know all 
aspects of the system and how to correct it. It requires 
vertical and horizontal communication and coordination. That's 
where I have the difficulty with what Mr. McClelland was 
saying.
    Senator Murkowski. I appreciate that. I think you've laid 
it out cleanly. I wish it was that neat.
    Can you comment on the enforceability of the alerts and 
whether or not that is a gap that needs to be addressed?
    Mr. Owens. I think Mr. Cauley is correct that NERC has a 
series of alerts. There are alerts that are advisory. There are 
alerts that require immediate action by the industry.
    He said, and I would agree with him to the degree that 
there is an action that needs to be taken he needs to be able 
to be decisive in that. But he also said you need to have 
industry inputs. So I wouldn't quarrel with him on that.
    As long as industry is involved we understand what he sees. 
We share his corrective actions then I think it is appropriate 
that we respond appropriately.
    Senator Murkowski. Thank you, Mr. Chairman. Thank you all.
    The Chairman. Senator Udall.
    Senator Udall. This is getting interesting. I decline to 
defer to the Senator from Alaska for continued line of 
questions and answers here.
    [Laughter.]
    Senator Udall. But this is, I think, why we're holding this 
hearing. This is very helpful. I appreciate the passion that's 
being displayed.
    I did want to make a comment. I know Senator Burr talked at 
some length about the smart grid. I don't want to take all of 
my time.
    But I would ask for answers now. But I would ask the 
panelists if you would in your follow on answers to questions. 
Define the smart grid for us.
    I think we all talk about the smart grid, but I think it's 
in the eye of the beholder, and we need to do a better job 
explaining to the public what the smart grid is. We need to 
know as policymakers what we mean by the term, the smart grid.
    [The information referred to follows:]

    The digital computing, communications, and information technologies 
that are transforming other areas of the economy are now being applied 
to the electric system to improve performance and create a ``smarter'' 
grid. As described in the 2009 Smart Grid System Report prepared by 
DOE, a smart grid uses digital technology to improve the reliability, 
security, and efficiency of the electric system. New smart grid 
functions can be implemented throughout the system, from generation 
through the transmission and distribution systems and all the way to 
consumers. System operations will be enhanced as a growing number of 
distributed generation and storage resources are deployed and 
participating customers are able to adjust their load in response to 
system operating signals.
    Smart grid technologies provide a secure and reliable electricity 
infrastructure with the following characteristics\1\:
---------------------------------------------------------------------------
    \1\ Energy Independence and Security Act of 2007, Section XIII

          (1) Increased use of digital information and controls 
        technology to improve reliability, security, and efficiency of 
        the electric grid.
          (2) Dynamic optimization of grid operations and resources, 
        with full cyber-security.
          (3) Deployment and integration of distributed resources and 
        generation, including renewable resources.
          (4) Development and incorporation of demand response, demand-
        side resources, and energy-efficiency resources.
          (5) Deployment of ``smart'' technologies (real-time, 
        automated, interactive technologies that optimize the physical 
        operation of appliances and consumer devices) for metering, 
        communications concerning grid operations and status, and 
        distribution automation.
          (6) Integration of ``smart'' appliances and consumer devices.
          (7) Deployment and integration of advanced electricity 
        storage and peak-shaving technologies, including plug-in 
        electric and hybrid electric vehicles, and thermal-storage air 
        conditioning.
          (8) Provision to consumers of timely information and control 
        options.
          (9) Development of standards for communication and 
        interoperability of appliances and equipment connected to the 
        electric grid, including the infrastructure serving the grid.
          (10) Identification and lowering of unreasonable or 
        unnecessary barriers to adoption of smart grid technologies, 
        practices, and services.

    Senator Udall. Secretary Hoffman, maybe I can turn to you 
again. We've talked a lot about cyber threats here today. 
There's certainly physical threats to the grid. Do you agree 
that that's a vulnerability we have to consider? Could the 
draft bill be improved to address the potential of physical 
threats to the grid?
    Ms. Hoffman. The physical threats exists, and I think 
they've always existed. Because they are more familiar we have 
processes in place to address them. I think the higher urgency 
is trying to find a method for addressing the cyber threats.
    So from my perspective the more urgent issue is actually 
finding a compromise among interested parties on cyber 
legislation so that we can better address the cyber issues that 
are out there.
    Senator Udall. Anybody else care to comment?
    Mr. McClelland. Yes. Actually I can tie that to your smart 
grid question too, Senator, in that as the smart grid is 
deployed, smart grids become all things to all people. But 
assuming that it's a 2 way communication from the meters at the 
lowest level through perhaps communication back to the 
generators and central dispatch, the physical vulnerabilities 
also increase with the smart grid.
    Good old fashioned electromechanical meters are impervious 
to EMP strikes or EMP events. However, intentional 
electromagnetic interference device, a hand held device would 
have a profound effect, could have a profound effect on smart 
grid meters. So physical also plays into where the grid is 
going and how the grid is evolving.
    Senator Udall. Anybody else care to comment?
    Mr. Cauley. I would just say I am concerned about physical 
security as well from a real world sense of what could happen 
bad to the grid. I think to Senator Murkowski's view. The more 
comprehensive and holistically we can look at this. I think the 
more effective legislation will be. Because we have to deal 
with what are the priorities. What's the next most important 
thing we can invest in?
    So I think to have things where we can balance between 
physical and cyber and say, what are the real world things that 
can happen? What would the consequences be? I would prefer a, 
sort of, a more comprehensive and more holistic view.
    Mr. Owens. I would echo what Mr. Cauley just said. I would 
just expand it just a little bit. We're modernizing the grid. I 
don't know what smart grid is either. Even though I have 
responsibility for the industry for dealing with that it's an 
evolutionary, modernization of the overall grid or another way 
to say it we're digitizing the grid.
    If we're digitizing the grid it suggests that there are a 
tremendous set of new challenges with respect to cyber 
security. It also says we've got a lot of new players. We're 
going to put in a lot of different kinds of equipment.
    So it suggests that we need a high standard for that 
equipment. That equipment must be authenticated that it is 
cyber secure. It seems to me and this whole area is evolving so 
vendors, manufacturers, utilities, regulators. Those who have 
the responsibility for protecting the integrity of the grid, we 
all have to understand the language. We all have to make cyber 
security a top priority.
    Senator Udall. Mr. Tedeschi, do you--would you have any 
comments? You're the wise man at the table as the scientist 
among us.
    Mr. Tedeschi. I would just offer up, Senator, that there's 
a broad spectrum of threats out there that are real that should 
be considered. Cyber is certainly at the top of the list. The 
probability from a risk perspective is 1.0 that those threats 
are happening every day.
    But it would be wise to consider a broader set of threats, 
not just EMP, but also physical attack threats, car bombs, 
standoff weapons, that sort of thing. There is--there are 
security systems around a lot of these facilities. There's 
standoffs. There are inherent security hardness levels to them.
    But I think the owners of the utilities, Mr. Cauley, got it 
just right. That they understand their operations, the effects 
that can occur from the variety of threats and there are links 
into those who have additional intelligence information, if you 
will, that could be brought to bear that they can be aware of 
to factor into decisions on where to provide security, 
etcetera. So there's a good link, I think, into this world.
    But don't forget about the other threats especially car 
bombs, explosive type threats, electromagnetic pulse. We 
haven't really touched on even unintentional electromagnetic 
interference from other high frequency sources like cell 
phones, TV transmissions, radars, that can have an adverse 
effect on the operation of some of the smart grid technology. 
It is new technology. It can be sensitive to a broad variety of 
electromagnetic threats not just handheld devices or nuclear 
EMP.
    So understanding how that technology will operate in 
today's broad threat space within America would pay dividends 
long term in terms of any hardness that might be invoked.
    Senator Udall. If the chairman would indulge me, I'll just 
throw out a final question. Maybe a couple of you could comment 
and then the rest could comment for the record. I think Senator 
Hoeven talked a bit about Stuxnet. There's also the Aurora 
event.
    I'm curious if some of you would briefly respond to the 
significance of those 2 events that we're aware of among 
others.
    Mr. Cauley. I would just say they're both very real. 
They're very real risks. Aurora, we recognized a couple years 
ago has the risk of damaging equipment.
    One thing that we were able to do a little over a year ago 
is to work with the intelligence community to grasp the details 
of what the actual threat is, what the vulnerability is and how 
to fix it. So we were able to translate that into information 
out to industry. So I think we've got, at this point, a very 
high response rate in terms of addressing it.
    It was real. But I think the awareness level in the last 12 
months has really increased. I think the actions that have 
taken place.
    The Stuxnet is similar. It wasn't there if you look beyond 
a year ago it wasn't there. Now all of sudden it's here. It's 
real. I think we got the information out to the industry. They 
took the actions to install the patches and blocks to keep that 
from penetrating our control systems.
    So the answer is, I think, they're very real. They're very 
scary. They can each do damage to our grid. But I think we just 
have to take the protective measures that we've been doing to 
make sure it doesn't happen.
    But that really describes the nature of this business. 
Because next week, there's going to be another one that we 
don't know about yet. We have to keep--it's more about having 
the mechanisms in process to adapt and keep fixing and learning 
then it is to have solved this problem once.
    Senator Udall. The rest of you respond for the record. I do 
not want to abuse the chairman's forbearance. So thank you 
again for being here.
    [The information referred to follows:]

    The significance of Aurora and Stuxnet includes the demonstrated 
ability to target industrial control systems, the difficulty in 
identifying the attacker, the difficulty in defending against zero-day 
attacks, and the demonstrated ability to conduct cyber-physical, or 
blended attacks. The risk to the power system has become more acute 
over the past 15 years as digital communicating equipment has 
introduced cyber vulnerability to the system, and cost-saving 
requirements have allowed some inherent physical redundancy within the 
system to be reduced. The specific concern with respect to these 
threats is the targeting of multiple key nodes on the system that, if 
damaged, destroyed, or interrupted in a coordinated fashion, could 
bring the system outside the protection provided by traditional 
planning and operating criteria. Such an attack would behave very 
differently than traditional risks to the system in that an intelligent 
attacker could mount an attack, as in the case of Aurora or Stuxnet, 
that would manipulate assets, provide misleading information to system 
operators attempting to address the issue, or destroy equipment.
    While no such attack has occurred on the North American electric 
systems infrastructure to date, Stuxnet demonstrated the ability and 
desire to target specific components of an industrial control system. 
The attack was so specific in its use of industrial control systems, 
that any remaining skeptics should be convinced of the abilities and 
intent of intelligent attackers to target industrial control systems. 
As in most cyber attacks, timely attribution remains difficult. The 
ability to mask the real identity of the attacker is often a concern, 
and it often takes an extended period of time to make a final 
determination and prosecute or take other appropriate action. The 
originators of Stuxnet remain unknown, while a similar case could be 
made for attackers that might choose to exploit an Aurora-type 
vulnerability. Most of the developed world uses commercial software to 
prevent cyber attacks. The use of zero-day vulnerabilities and the USB 
drive delivery method for Stuxnet showed the inadequacy of current 
anti-virus, intrusion detection, and firewall applications to prevent 
unauthorized access to networks. Finally both Aurora and Stuxnet 
demonstrated the ability of cyber attacks to cause physical effects. 
Such an attack, although never experienced in North America, could 
damage or destroy key system components, significantly degrade system 
operating conditions, and, in extreme cases, result in prolonged 
outages to large parts of the system.
    The interconnected and interdependent nature of the electric 
systems infrastructure requires that risk management actions be 
consistently and systematically applied across the entire system to be 
effective. The magnitude of such an effort should not be 
underestimated. The North American bulk power system is comprised of 
more than 200,000 miles of high-voltage transmission lines, thousands 
of generation plants, and millions of digital controls. More than 1,800 
entities own and operate portions of the system, with thousands more 
involved in the operation of distribution networks across North 
America. These entities range in size from large investor-owned 
utilities with over 20,000 employees to small cooperatives with only 
ten. The systems and facilities comprising the larger system have 
differing configurations, design schemes, and operational concerns. Any 
mitigation on such a system is complex and expensive, and should be 
carefully planned and coordinated between the stakeholders and asset 
owners and operators.
    The Department has supported the North American Electricity 
Reliability Corporation (NERC), the energy sector and other sectors, 
and other government departments and agencies Department of Defense 
efforts to mitigate the Aurora vulnerability and Stuxnet and other 
threats through information sharing and technology development. In 
addition, recognizing that Aurora and Stuxnet are just two examples in 
a larger threat environment, DOE, in coordination with the National 
Institute for Standards and Technology, NERC, and the Department of 
Homeland Security, is leading a public-private collaboration to develop 
a risk management process guideline to provide a consistent, 
repeatable, and adaptable process for the electric sector, and enable 
organizations to proactively manage cybersecurity risk. This 
collaboration will build upon existing guidance and requirements to 
develop a flexible risk management process tuned to the diverse 
missions, equipment, and business needs of the electric sector and to 
bridge the divide between security for industrial control systems and 
information technology.

    The Chairman. Let me just ask one final issue here, Mr. 
Cauley. Your organization, NERC, is a private membership 
organization. I'm right about that, am I not?
    Mr. Cauley. That's correct.
    The Chairman. If we were to give NERC jurisdiction over 
distribution facilities would, in your view, should that 
include the ability to levy fines or penalties on companies 
that are not members of your organization?
    Mr. Cauley. Mr. Chairman, we actually can enforce standards 
and levy fines today on entities who are not members of our 
organization. So membership only gives us, gives a company the 
ability to participate in the governance. Vote on our directors 
and so on.
    But our authority for our mandatory standards applies to 
1,900 companies whether they're members or not. That authority 
came from--legislation.
    The Chairman. You levy those fines? FERC doesn't.
    Mr. Cauley. We levy them. But the FERC approves them in all 
cases. So they have the oversight. They're the final approval 
authority.
    But we have the operatives in the field that do the 
investigations and determine appropriate penalties and submit 
them to the Commission for approval.
    The Chairman. Did you have any thought on this?
    Mr. Cauley. But the question--your first question was 
whether--if it includes distribution would that work? I'm very 
hopeful that if the legislation does include distribution, that 
it would be very limited to issues of national level interest 
and security. Not totally usurp the right of the States to 
manage and the distribution level.
    But to the extent that that authority was granted to FERC I 
think it would be--make sense since NERC also is a national--
looking at the national interest to have a similar alignment 
with that authority.
    The Chairman. Mr. McClelland, did you have a thought?
    Mr. McClelland. Yes. The Commission has a full range of 
authority. It has a review of the standards. It has 
enforcement.
    Then it also has it's delegated the fee authority to the 
ERO to be able to levy those fines. Although they still come 
back to the Commission for approval. In addition we have ALJs 
and we have settlement processes. Then if someone doesn't like 
a Commission decision they could always take us to court.
    So there is an iterative process with the Commission on 
every order that it issues. The ability to enforce a Commission 
rule is something that, as a regulator, that the Commission is 
completely comfortable with.
    The Chairman. OK. Senator Murkowski, did you have 
additional questions?
    Senator Murkowski. I do not, Mr. Chairman.
    The Chairman. Thank you all. This has been a useful 
hearing. I appreciate it.
    [Whereupon, at 11:24 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of Gerry Cauley to Questions From Senator Bingaman
    Question 1. In February, the Department of Energy launched an open 
collaboration with the National Institute of Standards and Technology 
and the North American Electric Reliability Corporation to ``develop a 
cyber security risk management process guideline for the electric 
sector.'' Could you describe the objectives of this collaboration and 
how its work will filter into the NERC standards development and 
approval processes?
    Answer. The Risk Management Process (RMP) is a public-private 
collaboration to develop a cybersecurity risk management guideline that 
enables organizations to proactively manage risk in the diverse 
electrical environment that exists in North America. The evolution of 
smart grid technology increases the electricity sector's cybersecurity 
risk exposure, emphasizing the need for owners and operators to employ 
consistent, measurable, and adaptable processes for electricity 
generation, transmission, distribution, retail operations, energy 
service providers, as well as situation awareness. Additionally, the 
differing jurisdictions--NERC for the North American bulk power system 
(BPS), States and municipalities for the distribution grid, working 
with the owners and operators of the grid--require a comprehensive yet 
flexible approach to managing risk. This effort is led by the 
Department of Energy (DOE) in coordination with the National Institute 
of Standards and Technology (NIST) and NERC, and with the collaboration 
of subject matter expert representatives from across the public and 
private sectors. DOE plans to publish these industry-wide risk 
management guidelines in 2011, which are intended to complement, but 
not replace or supersede, the current Critical Infrastructure 
Protection (CIP) Standards. Objectives for this collaboration include:

  <bullet> Support the unique needs of the diverse utilities and other 
        stakeholders participating in the North American electric grid 
        with an end-to-end perspective that includes generation, 
        transmission, distribution, retail, energy service providers 
        and wide area situation awareness (e.g., Phasor Measurement 
        Unit or PMU networks).
  <bullet> Provide guidance in applying cybersecurity measures to the 
        control systems and information technologies used throughout 
        the electric grid.
  <bullet> Provide guidance for an integrated organization-wide 
        approach to managing those cybersecurity risks pertinent to 
        operations, assets, data, personnel, and the Nation as the 
        existing electric grid is transitioned to a smart grid.
  <bullet> Leverage risk management and cybersecurity experiences and 
        practices among the electric grid stakeholders including the 
        risk management guidelines (NIST Special Publications, i.e., 
        NIST 800-39; and NERC CIP Standards) and lessons learned within 
        the Federal Government.
  <bullet> Recommend implementation guidelines that apply the RMP to 
        electric grid domains and to unique electric grid components, 
        such as control systems.

    NERC expects there will be a phased implementation of the 
guidelines, starting with host utilities and vendors. NERC expects to 
refine the practices through these demonstration projects. As the 
practices are demonstrated to be effective, NERC will consider whether 
some subsets of the practices are appropriate for inclusion in the 
reliability standards.
    Question 2. The Discussion Draft creates a process to address cyber 
security vulnerabilities affecting critical electric infrastructure. 
The Discussion Draft left open the question of the maximum number of 
days FERC should have to determine whether the existing set of 
reliability standards are adequate to protect this infrastructure from 
cyber security vulnerabilities. Assuming that FERC identified a 
specific deficiency in the existing set of reliability standards, do 
you have an opinion as to how long, in days, FERC should have to make 
this determination? How long should NERC have, in days, to develop 
standards in response to a FERC directive to address specifically-
identified cyber security vulnerabilities?
    Answer. As noted in my testimony, NERC does not believe the 
vulnerabilities section is needed. In response to this question 
concerning the discussion draft, NERC would defer to FERC with respect 
to the timeframe for FERC's determination whether existing reliability 
standards are adequate to protect critical electric infrastructure from 
cybersecurity vulnerabilities, except that the timeframe must be 
sufficient to allow for notice to and consultation with stakeholders, 
including Canadian authorities. Such consultation is essential to 
provide a basis for a finding that reliability standards, or other 
actions taken by the electric reliability organization (ERO), are 
inadequate or that a specific deficiency exists.
    The appropriate timeframe for NERC to respond to a FERC directive 
to address specifically identified cybersecurity vulnerabilities will 
vary depending on whether specific actionable information about the 
vulnerability is made available to NERC and stakeholders. It will also 
vary depending on the approach determined by NERC to be the most 
effective in responding to such a directive. As discussed during the 
hearing, not all vulnerabilities can or should be addressed by a 
reliability standard. NERC has other tools at its disposal through its 
Alert system to address cybersecurity vulnerabilities. In addition, the 
legislation should authorize a mandatory and enforceable means for NERC 
to address cybersecurity vulnerabilities identified by FERC in addition 
to the use of reliability standards. One way to do this would be to 
authorize NERC to issue ``Mandatory Directives,'' as discussed in 
response to Q. 7 below. In the case where a reliability standard is 
required to address an identified vulnerability, NERC should have 180 
days to develop a response. The Mandatory Directives could be issued in 
much shorter time frame, measured in days or weeks.
    Question 3. NERC submitted eight proposed cybersecurity standards, 
known as the Critical Infrastructure Protection (CIP) standards, to 
FERC for approval under section 215. FERC approved those standards in 
2008 but directed NERC to make certain revisions. As I understand it, 
NERC continues to work on those revisions and plans to submit them to 
FERC somewhere in 2012. If submitted in 2012, development and approval 
of the first set of cybersecurity standards will have lasted around 6 
years. Why has this process lasted this long?
    Answer. The Reliability Standards development process is an 
iterative process of continuing improvement. NERC's first set of CIP 
standards was approved by FERC in January 2008. NERC has worked with 
industry, consumer representatives and regulators to strengthen the CIP 
Reliability Standards, and also to respond to specific directives from 
FERC. While this process is occurring, mandatory and enforceable 
cybersecurity standards have been in place and have provided important 
protections for the bulk power system. The need to respond to FERC 
directives has necessarily influenced the direction and timing of the 
CIP standards development process. The second set of CIP standards 
addressed certain high-priority directives from FERC; FERC approved 
that second set in September 2009. FERC's September 2009 order included 
new directives and gave NERC 90 days to comply. NERC filed the third 
version of the CIP standards in December 2009, and FERC approved that 
third set in March 2010.
    The most recent revision to the CIP Reliability Standards--CIP-002 
Version 4--was approved by the NERC stakeholders on December 31st, 
2010; approved by the NERC Board of Trustees on January 24, 2011 and 
submitted to the Commission for approval on February 10, 2011. Work 
continues on further improvements to the standards, including responses 
to remaining Commission directives, and it is these further enhanced 
standards that will be submitted to the Commission in 2012.
    Question 4. Can you describe how NERC's newly-approved procedures 
for developing a reliability standard on an expedited basis differ from 
the existing development procedures? How would expedited procedures 
make it easier for NERC to address cyber security vulnerabilities?
    Answer. The new procedures approved by FERC in September 2010 
provide for developing a reliability standard on an expedited basis. 
Key differences from the traditional standards development procedures 
are in the areas of confidentiality of information; use of pre-
identified technical experts for standards drafting; and process 
streamlining.
Confidentiality
    The expedited process contains procedures that provide protection 
of sensitive information affecting national security. The traditional 
procedures do not contain similar protections.
    The new procedures limit the individuals who may serve on drafting 
teams to those who have been pre-screened for their expertise and 
willingness to work under strict security and confidentiality rules, 
and require drafting teams to work under strict security and 
confidentiality rules. Sensitive information is further protected by 
limiting distribution of draft standards. In contrast to the general 
procedures, the new procedures do not require public posting of draft 
standards.
Technical expertise
    The new procedures require formation of a Standard Drafting Team 
from a list of pre-identified technical experts. This provides for the 
necessary diversity of expertise and industry perspectives to develop a 
technically sound standard that can quickly be finalized and approved. 
Cybersecurity involves every owner, operator and user of the bulk power 
system--having a diverse view when crafting the language of a standard 
is essential. The expedited procedures assure that the Standard 
Drafting Team will have the collective knowledge and expertise to 
develop a standard that reflects an understanding of the diverse 
utilities and their associated equipment configurations in the North 
American bulk power system.
Process streamlining
    The new procedures allow the Standards Committee authority to 
approve a wide range of process deviations, enabling a standard to be 
developed in a shorter period of time. The general procedures allowed 
some latitude in shortening the duration of only certain process steps.
    These expedited processes will enable NERC to address cybersecurity 
vulnerabilities through a reliability standard on a timely basis--when 
that is the most appropriate approach.
    Question 5. In your statement, you stated that NERC was concerned 
that the Discussion Draft contained no requirement that FERC indentify 
any deficiency in existing reliability standards or a cybersecurity 
vulnerability for NERC to address. The Administrative Procedures Act 
requires agencies to give notice of either the terms or substance of 
the proposed rule or a description of the subjects and issues involved. 
Is that requirement sufficient to address this concern? If not, how 
would NERC propose to revise Section 224(b) of the Discussion Draft to 
address this concern?
    Answer. The Administrative Procedure Act (APA), 5 U.S.C. 553(b), 
which requires publication for comment of a general notice of proposed 
rulemaking that includes ``either the terms or substance of the 
proposed rule or a description of the subjects and issues involved,'' 
does not resolve NERC's concern. Proposed Section 224(b) (2) requires 
FERC to issue an ``initial order,'' not a proposed rule. There is 
nothing in the legislative text that requires FERC in its order to 
advise the ERO of the specific vulnerability in sufficient detail so 
that the ERO can respond appropriately. Moreover, proposed Section 
224(b)(6)(B) authorizes FERC to issue an interim final rule ``without 
prior notice or hearing.'' In contrast, the provisions of Federal Power 
Act Section 215(d) authorize FERC to order the ERO to submit a proposed 
reliability standard ``that addresses a specific matter.''
    NERC recommends that proposed Section 224(b)(2) be revised to 
include at the end the following:

          The Commission's order shall specify the vulnerabilities 
        against which such standards or directives must protect, and 
        shall appropriately balance the risks to the critical electric 
        infrastructure associated with such cybersecurity 
        vulnerabilities, including any regional variation in such 
        risks, and the costs of mitigating such risks.

    Note: with respect to the inclusion of ``or directives'' in the 
above language, see the discussion in response to question 7, below.
    Question 6. Your testimony states that NERC is not sure that a 
section to address cybersecurity vulnerabilities (section 224(b)) is 
needed in the Discussion Draft. Does NERC believe that there should be 
a means of addressing cybersecurity vulnerabilities? Should this means 
be mandatory and enforceable? If not, how can compliance be assured and 
measured?
    Answer. NERC believes not only that there should be a means of 
addressing cybersecurity vulnerabilities, but that such means already 
exist. NERC addresses cybersecurity vulnerabilities today through 
reliability standards and through its Alert system of Industry 
Advisories, Recommendations to Industry, and Essential Actions. Since 
January 2010, NERC has issued 14 critical infrastructure protection-
related Alerts; these Alerts covered matters including Stuxnet and 
Night Dragon.
    FERC also already has authority under FPA Section 215(d)(5) to 
order the ERO to ``submit to the Commission a proposed reliability 
standard or a modification to a reliability standard that addresses a 
specific matter if the Commission considers such a new or modified 
reliability standard appropriate to carry out [section 215].'' 
``Cybersecurity protection'' is expressly included within the 
definition of ``reliability standard'' in section 215(a)(3).
    There should be a mandatory and enforceable means in addition to 
the use of reliability standards for NERC to address cybersecurity 
vulnerabilities identified by FERC. One way to do this would be to 
authorize NERC to issue ``Mandatory Directives,'' as discussed in 
response to Q. 7 below.
    Question 7. Your testimony states that making ``other NERC 
directives'' legally enforceable would significantly enhance cyber 
security. Can you identify these ``other NERC directives''? Please 
describe how NERC envisions using these other directives? Does NERC 
envision the process of enforcing these directives being overseen by 
FERC? Does NERC contemplate using these enforceable NERC directives to 
address cyber security or other reliability vulnerabilities? What due 
process does NERC envisions for those entities subject to these 
directives?
    Answer. The other NERC directives referenced in my testimony would 
be a new category of directives that could be called ``Mandatory 
Directives.'' NERC envisions using a Mandatory Directive to address 
cybersecurity vulnerabilities that are not appropriate to address 
through reliability standards. The draft legislation should be modified 
to include this authority. Provision should be made for expedited FERC 
approval of these Mandatory Directives. As is the case with reliability 
standards, FERC approval would be an essential step in making these 
Mandatory Directives enforceable.
    Enforcement of these Mandatory Directives should be overseen by 
FERC, just as the enforcement of reliability rules by NERC today is 
overseen by FERC. The same due process that applies to the enforcement 
of reliability standards under FPA Section 215(e) should apply to the 
enforcement of NERC Mandatory Directives.
    Question 8a. Your testimony states that NERC has issued 14 cyber 
security alerts since January 2010. How do these alerts differ from 
NERC standards? Was the alerts process filed with and approved by FERC? 
Can you describe, generally, the level of compliance NERC has observed 
with respect to these alerts? Have any users, owners, or operators of 
the bulk power system that failed to comply with any of the alerts? How 
did NERC respond to these users, owners, and operators?
    Answer. Alerts differ from NERC reliability standards in that, 
unlike standards, the Alerts are not enforceable. Alerts are used when 
NERC has a need to place industry participants on formal notice of 
particular matters related to the reliability and security of the 
electric system. The Alerts are targeted, can be developed much more 
quickly than standards, do not involve an industry ballot, and can 
reach a broader audience than just those subject to reliability 
standards.
    NERC's alerts process is set out in Rule 810 of NERC's Rules of 
Procedure, which FERC approved in February 2008. Alerts and 
Notifications are created and deployed from NERC in its role as the 
Electric Sector Information and Analysis Center (ES-ISAC). The ES-ISAC 
coordinates electric industry activities to promote critical 
infrastructure protection of the bulk power system in North America, as 
called for by Rule 1003.1 of NERC's Rules of Procedure, which FERC 
approved in July 2006.
    NERC has had significant interaction with registered entities, most 
recently in response to the Aurora and Stuxnet ``Recommendation to 
Industry'' Alerts. Following the Aurora Alert, NERC hosted four 
informational webinars and a technical conference with more than 1,000 
people participating. NERC continues to follow-up and meet directly 
with entity representatives, through both outreach and personal follow-
up activities. A progress check webinar was held in early May that 
attracted more than 400 participants and another is scheduled for June. 
Similarly, following the Stuxnet Alert in September 2010, NERC made 
contact with industry entities to confirm acknowledgement of receipt of 
the Alert.
    While the present Alerts and Notifications are neither mandatory 
nor legally enforceable, the Rules of Procedure do require NERC 
registered entities to report on the status of activities related to 
any Level 2 (Recommendation to Industry) or Level 3 (Essential Action) 
Alert.
    This obligatory reporting requirement for NERC Alerts and 
Notifications is unique among all of the other Computer Emergency 
Response Teams (CERT) and critical infrastructure Information Sharing 
and Analysis Centers (ISAC) that do not impose a required response 
component.
    Question 8b. Can you describe, generally, the level of compliance 
NERC has observed with respect to these alerts?
    Answer. The responses to the Aurora and Stuxnet alerts have been 
very high. Regarding United States entities that were sent the Stuxnet 
recommendation, as of November 2010 99% of industry acknowledged 
receipt of the recommendation, more than 98% have developed a response 
to the recommendation and routed that response to their management for 
approval and more than 94% have received approval from management on 
the response they developed. Regarding the Aurora recommendation, as of 
January 2011, 99% of industry acknowledged receipt, 98% have responded 
to NERC and 96% have received management approval for their response 
they developed. Implementation plans are at various levels of 
completion. Every six months entities must update NERC on the status of 
their implementation plan until the implementation is complete. The 
next update to this status is June 13th 2011.
    Question 8c. Have any users, owners, or operators of the bulk power 
system that failed to comply with any of the alerts?
    Answer. For those entities that have been non-responsive, NERC 
staff follows up with phone calls discussing the recommendation, 
answering questions and clarifying uncertainties. In NERC's discussions 
with nonresponsive entities, interaction is maintained until a response 
is developed and all concerns are resolved and all questions are 
answered. In addition to phone calls and personal interaction, NERC 
continues to follow-up and meet directly with entity representatives, 
through both outreach and personal follow-up activities such as 
webinars and technical conferences.
    Question 8d. How did NERC respond to these users, owners, and 
operators?
    Answer. NERC entities that do not fulfill their obligation under 
the Rules of Procedure will receive heightened levels of NERC attention 
up to and including direct senior level interaction from NERC, Regional 
and industry leadership. NERC, the industry including CEO's, and the 
Regions take the NERC Alert process seriously.
    Question 9. Level Three alerts are characterized as ``essential 
action.'' Has NERC ever issued a Level Three alert? How does NERC 
compel action consistent with these alerts from among users, owners, 
and operators of the bulk power system?
    Answer. NERC has not yet issued an ``Essential Action'' Alert. 
Although NERC cannot compel action to implement an Essential Action, 
NERC has every expectation that if its Board of Trustees makes a 
determination that certain actions are ``essential to protect the 
reliability of the bulk power system'', then users, owners and 
operators of the bulk power system will take appropriate actions. NERC 
would follow up as necessary. Essential Actions do carry a mandatory 
reporting obligation. A failure to report would constitute a violation 
of a rule adopted under the authority of FPA section 215 and could be 
enforced by FERC.
    Question 10. You indicated that following the 1989 geomagnetic 
disturbance that affected Quebec the industry learned lessons and 
hardened a lot of equipment hardened at northern latitudes. Can you 
describe the lessons the industry learned after that event? How was 
equipment hardened? Given that the risks of geomagnetic disturbances 
are not a new threat to the electric sector, have utilities in other 
geographic areas hardened their equipment and systems against the 
affects of geomagnetic disturbances?
    Answer. The potential impact of geomagnetic disturbance events have 
gained renewed attention as recent studies\1\ have suggested the 
severity of solar storms may be greater and reach lower geographic 
latitudes than formerly expected. NERC and the U.S. Department of 
Energy identified this as a High Impact, Low Frequency event risk to 
bulk power system reliability in a joint report issued in April 
2010.\2\ Geomagnetic disturbances (GMD) can impact bulk power system 
reliability. The most well-known recent experience in North America was 
the March 13-14, 1989 geomagnetic disturbance, which led to the 
collapse of the Hydro Quebec system in the early morning hours of March 
13, 1989, lasting approximately nine hours.
---------------------------------------------------------------------------
    \1\ The U.S. Federal Energy Regulation Commission and Oak Ridge 
National Labs issued a number of reports on Geomagnetic Storms and 
their impact on the bulk power system in November 2010: http://
www.ornl.gov/sci/ees/etsd/pes/ferc_emp_gic.shtml
    \2\ The High-Impact, Low -Frequency Report can be found here: 
http://www.nerc.com/files/hilf.pdf
---------------------------------------------------------------------------
    System and equipment modifications that occurred in the Hydro-
Quebec TransEnergie (HQT) system following the 1989 geomagnetic storm 
included adding series compensation elements on long-distance AC 
transmission lines, rebalancing their protection systems, monitoring 
geomagnetic induced currents (GICs) on key pathways on their system and 
testing the addition of blocking capacitors to transformer neutrals. 
Additionally, HQT developed new analyses on how GICs impact the Quebec 
interconnection and employed new operating and planning procedures to 
observe GIC impacts in voltage.
    One of the characteristics of transformers experiencing high levels 
of GICs is increased requirements for reactive power. The bulk power 
system, when faced with the need for large amounts of reactive power, 
as Hydro Quebec faced with their 480 nanotesla per minute storm in 
1989,\3\ may react in an unplanned or unexpected manner, including 
break-up, islanding, or collapse. Industry investigation is needed to 
determine the amount and extent of disruptions that might occur. This 
analysis includes determination of transformer characteristics to 
identify the most affected designs as well as the most, static, dynamic 
and transient simulations which model the non-linear behavior of each 
of the interconnections in North America. Once these analyses are 
complete, appropriate and jurisdictionally acceptable solutions, 
including grid hardening, relaying, operational procedures and spare 
equipment could be determined to maintain an acceptable level of 
reliability, given the relative risk from GMD events.
---------------------------------------------------------------------------
    \3\ http://www.nerc.com/files/1989-Quebec-Disturbance.pdf
---------------------------------------------------------------------------
    NERC's GMD Task Force recently held a workshop focused on potential 
mitigation approaches. A major outcome of the workshop was the 
realization that significant work is still required by industry and 
governmental organizations to improve not only solar storm forecasting 
and but also in developing robust modeling methods to understand how 
GMD events impact bulk power system equipment. Once impacts have been 
determined, suitable actions can then be taken by both planners and 
operators of the bulk power system in North America to ensure 
reliability of the grid. The primary deliverable from the workshop, an 
Industry Advisory NERC Alert on GMD\4\ provides industry with suitable 
guidance for operational and planning actions given the knowledge 
available today to prepare for the effects of severe GMD on the bulk 
power system. NERC expects to provide incremental information as it 
become available.
---------------------------------------------------------------------------
    \4\ http://www.nerc.com/fileUploads/File/Events%20Analysis/A-2011-
05-10-01_GMD_FINAL.pdf\4\
---------------------------------------------------------------------------
    Question 11. NERC's High Impact, Low Frequency Event Risk to the 
North American Bulk Power System report contemplates ``re-launching'' 
NERC's spare equipment database? Why is the spare equipment database 
not operational today? When was it stopped?
    Answer. NERC maintains a database of spare transformers, called the 
Spare Equipment Database (SED), which is voluntarily populated by 
industry stakeholders.
    SED is operational today. It is being re-launched in 2012 as a 
revitalized tool to provide increased coverage and give it increased 
visibility among stakeholders--in direct response to NERC's High 
Impact, Low Frequency (HILF) report\5\ developed in collaboration with 
the Department of Energy. In 2010, based on the results of HILF roadmap 
developed by the Electricity Subsector Coordinating Council\6\ and 
technical committees strategic coordinated action plan,\7\ NERC 
initiated its SED revitalization efforts and will fund the development 
of an on-line data collection tool. SED will initially focus on bulk 
power transformers; however, other critical long-lead time equipment 
may be added in the future.
---------------------------------------------------------------------------
    \5\ Joint NERC and U.S. DOE report, High Impact, Low Frequency 
Event Risk to the North American Bulk Power System: http://
www.nerc.com/files/HILF.pdf
    \6\ Electricity Subsector Coordinating Council report, Critical 
Infrastructure Strategic Roadmap: http://www.nerc.com/docs/escc/
ESCC_Critical_Infrastructure_Strategic_Roadmap.pdf
    \7\ Technical Committee Report, Critical Infrastructure Strategic 
Initiatives Coordinated Action Plan: http://www.nerc.com/docs/ciscap/
Critical_Infrastructure_Strategic_Initiatives_Coordinated_Action_Plan_BO
T_Apprd_11-2010.pdf
---------------------------------------------------------------------------
     Responses of Gerry Cauley to Questions From Senator Murkowski
    Question 1. Through the definition of ``critical electric 
infrastructure,'' the discussion draft legislation extends FERC's 
jurisdiction beyond the Bulk Power System to the distribution level as 
long as those systems or assets are ``vital'' to the nation's security, 
economy, public health or safety. In your testimony, you point out that 
NERC's authority as the ERO does not extend to the distribution level.
    In the text, we were trying to respect the Section 215 stakeholder 
process--the idea being that if FERC directed the ERO to develop or 
modify a cyber standard to protect ``critical electric infrastructure'' 
that standard would be developed through the existing stakeholder 
process. It was certainly not my intent to allow FERC sole discretion 
to dictate standards at the local level or bypass the Section 215 
process altogether. Please comment. Can you provide the Committee with 
clarifying language?
    Answer. NERC appreciates the effort to respect the Section 215 
standards development process. As I indicated in my testimony, under 
the current discussion draft structure, unless FERC and NERC have the 
same jurisdictional reach, it will be difficult to achieve the 
necessary collaboration and coordination that must take place if 
requirements applicable to the bulk power system and the distribution 
systems are to work together to achieve the desired outcomes. This 
issue arises because the definition of ``critical electric 
infrastructure'' in the discussion draft includes distribution 
facilities and the definition of bulk power system in section 215 does 
not.
    As I stated during the hearing, NERC is not seeking jurisdiction 
over distribution, but is concerned about the language in the 
discussion draft that leads to a mismatch in NERC and FERC 
jurisdiction. If FERC is given jurisdiction over certain distribution 
facilities for purposes of addressing cyber vulnerabilities, then NERC 
believes it should have equivalent jurisdiction. NERC does not believe 
it is workable to try to address cyber vulnerabilities in two different 
places at the same time. NERC has proposed amendments to various 
aspects of the discussion draft in response to question 2, below, and 
the provisions dealing with the jurisdictional mismatch are included in 
those proposed amendments.
    Question 2. You testified that given the constantly changing nature 
of vulnerabilities, not all vulnerabilities can or should be addressed 
by a standard. I understand that for the Aurora, Stuxnet, and Night 
Dragon attacks, NERC issued Alerts. Moreover, the Commission, which has 
the authority to order NERC to produce reliability standards, has never 
ordered NERC to take such action--is that correct? Can you provide the 
Committee with language to make these NERC Alerts legally enforceable?
    Answer. It is correct that to date, FERC has not exercised its 
authority under FPA Section 215(d)(5) to direct NERC to produce a 
reliability standard to address a specific matter, although FERC has 
exercised that authority hundreds of times to direct NERC to make 
modifications to standards that NERC had filed for FERC approval. NERC 
suggests the following changes to the discussion draft to enable the 
ERO to promulgate Mandatory Directives in response to a Commission 
order under proposed Section 224(b) that will be mandatory and 
enforceable. The changes below also address NERC's concerns that, as 
written, proposed Section 224(b) does not expressly require FERC to 
identify the specific cyber securities vulnerabilities to be addressed 
by the ERO. In addition, these proposed changes address the mismatch in 
FERC and NERC jurisdiction that I discussed in response to the prior 
question. (Language to be added is underlined; language to be deleted 
is stricken through):

    [Note: For printing purposes, italic represents underlined language 
and bold represents stricken through language.]

          I. Add a new definition of ``Mandatory Directive'' as FPA 
        Section 224(a)(8), to read as follows:

                  ``(8) MANDATORY DIRECTIVE--An enforceable order 
                issued by the Electric Reliability Organization to 
                users, owners and operators of Critical Electric 
                Infrastructure and approved by the Commission to 
                address critical electric infrastructure cybersecurity 
                vulnerabilities in response to a Commission order 
                issued pursuant to subsection (b) of this section.''

          II. Modify proposed Section 224(b)(2) to include Mandatory 
        Directives, as follows:

                  ``(2) INITIAL ORDER--Unless If the Commission 
                determines that the reliability standards and alerts, 
                advisories or other actions taken by the Electric 
                Reliability Organization established pursuant to 
                section 215 are not adequate to protect critical 
                electric infrastructure from specified cybersecurity 
                vulnerabilities within------days after the date of 
                enactment of this section, the Commission shall order 
                the Electric Reliability Organization to submit to the 
                Commission, not later than------days after the date of 
                enactment of this section such Commission Order, a 
                proposed reliability standard, or a modification to a 
                reliability standard, or a Mandatory Directive that 
                will address the cybersecurity vulnerabilities 
                identified by the Commission and provide adequate 
                protection of protect critical electric infrastructure 
                from cybersecurity vulnerabilities. The Commission's 
                order shall specify the vulnerabilities against which 
                such standards or directives must protect, and shall 
                appropriately balance the risks to the critical 
                electric infrastructure associated with such 
                cybersecurity vulnerabilities, including any regional 
                variation in such risks, and the costs of mitigating 
                such risks.''

          III. Modify proposed section 224(b)(3) to include Mandatory 
        Directives, as follows:

                  ``(3) SUBSEQUENT DETERMINATIONS AND ORDERS--If at any 
                time following the issuance of the initial order under 
                paragraph (2) the Commission determines that the 
                reliability standards, alerts, advisories or other 
                actions taken by the Electric Reliability Organization 
                established pursuant to section 215 or Mandatory 
                Directives issued by the Electric Reliability 
                Organization pursuant to this section are inadequate to 
                protect critical electric infrastructure from an 
                identified cybersecurity vulnerability, the Commission 
                shall order the Electric Reliability Organization to 
                submit to the Commission, not later than 180 days after 
                the date of the determination, a proposed reliability 
                standard, or a modification to a reliability standard, 
                or a Mandatory Directive that will provide adequate 
                address the cybersecurity vulnerabilities identified by 
                the Commission and protect protection of critical 
                electric infrastructure from the cybersecurity 
                vulnerability vulnerabilities. The Commission's order 
                shall specify the vulnerabilities against which such 
                standards or directives must protect, and shall 
                appropriately balance the risks to the critical 
                electric infrastructure associated with such 
                cybersecurity vulnerabilities, including any regional 
                variation in such risks, and the costs of mitigating 
                such risks.

          IV. Add a new section 224(b)(5) to provide for the 
        development and approval of Mandatory Directives (and renumber 
        succeeding subsections accordingly):

                  ``(5) MANDATORY DIRECTIVES--A Mandatory Directive 
                submitted by the Electric Reliability Organization 
                pursuant to paragraph (2) or (3) shall be developed by 
                the Electric Reliability Organization pursuant to 
                procedures approved by the Commission, may apply to all 
                users, owners and operators of Critical Electric 
                Infrastructure as defined in this section, and shall be 
                mandatory and enforceable as to such entities upon 
                approval by the Commission, which shall act upon 
                proposed Mandatory Directives on an expedited basis.''

          V. Add a new section 224(b)(7) to provide for enforcement of 
        Mandatory Directives and reliability standards issued in 
        response to Commission orders under Sections 224(b)(2) and (3) 
        (and renumber succeeding subsections accordingly):

                  ``(7) ENFORCEMENT----
                    (A) Mandatory Directives.--A Mandatory Directive 
                approved by the Commission under this section may be 
                enforced in the same manner as is provided for in 
                section 215(e) for the enforcement of reliability 
                standards approved under section 215.
                    (B) Certain Reliability Standards.--Reliability 
                standards developed by the Electric Reliability 
                Organization in response to a Commission order issued 
                under paragraphs (b)(2) or (b)(3) of this section to 
                protect critical electric infrastructure from an 
                identified cybersecurity vulnerability, including 
                reliability standards that replace an Interim Final 
                Rule issued by the Commission under paragraph (b)(6) of 
                this section, and approved by the Commission may be 
                enforced in the same manner as is provided for in 
                section 215(e) for the enforcement of reliability 
                standards approved under section 215.

          VI. Conforming changes would be made to include Mandatory 
        Directives in the provisions regarding Interim Final Rules.

    Question 3. In the vulnerabilities section of the discussion draft, 
we have yet to specify the timeframes for FERC's initial determination 
on the adequacy of reliability standards and for NERC's response to any 
Commission directive. In NERC's opinion, what is the appropriate amount 
of time for these actions?
    Answer. NERC would defer to FERC with respect to the timeframe for 
FERC's determination whether existing reliability standards are 
adequate to protect critical electric infrastructure from cybersecurity 
vulnerabilities, except that the timeframe must be sufficient to allow 
for notice to and consultation with stakeholders, including Canadian 
authorities.
    The appropriate timeframe for NERC to respond to a FERC directive 
to address specifically identified cybersecurity vulnerabilities will 
vary depending on whether specific actionable information about the 
vulnerability is made available to NERC and stakeholders. It will also 
vary depending on the nature of the approach determined by NERC to be 
the most effective in responding to such a directive. As discussed 
during the hearing, given the constantly changing nature of 
cybersecurity vulnerabilities, not all vulnerabilities can or should be 
addressed by a reliability standard. NERC has other tools at its 
disposal through its Alert system in addition to reliability standards 
to address cybersecurity vulnerabilities. The legislation should 
expressly recognize that the response to a cybersecurity vulnerability 
identified by the Commission may take the form of an alert, advisory or 
other action by the ERO. Such NERC directives can be issued very 
quickly, in some cases in as little as a day to several weeks, 
depending on the specific nature of the vulnerability. In the case 
where a reliability standard is required to address a vulnerability, 
NERC should have 180 days to develop a response.
    Question 4. Do you read the discussion draft as allowing both FERC 
and DOE to develop different lists of critical assets? If so, can you 
provide clarifying language to the Committee?
    Answer. The composition of the list of critical assets is vital to 
assuring that the appropriate owners, operators and users of critical 
electric infrastructure are able to receive communications affecting 
their assets and are aware of their obligations. NERC has itemized 
``bright line'' criteria for the identification of critical assets as 
part of the most recent revision to the CIP Reliability Standards, 
which was submitted to the Commission for approval in February.
    Because the discussion draft does not require consultation or 
coordination between FERC and DOE in the identification of critical 
electric infrastructure, there is the potential that different lists of 
critical assets could be identified. At a minimum, DOE and FERC should 
coordinate in the preparation of assets lists and use common criteria 
in defining critical electric infrastructure. Suggested language to 
accomplish this follows:

          Amend the definition of critical electric infrastructure in 
        proposed FPA Section 224(a)(1) to add the following at the end:

                  The Commission and the Secretary shall coordinate in 
                the identification of critical electric infrastructure 
                systems and assets.

    Question 5. What is the nature of NERC? Is your organization a 
purely private entity? How does your membership work? How many entities 
are on your Compliance Registry and are they all NERC members? Finally, 
please specify your enforcement/penalty authority.
    Answer. NERC is a private, non-profit corporation governed by an 
independent board of trustees. By statute and NERC's bylaws, the 
independent trustees can have no financial or business interest in the 
users, owners, and operators of the bulk power system who are subject 
to NERC's standards. NERC's membership includes large and small 
electricity consumers, government representatives, municipalities, 
cooperatives, independent power producers, investor owned utilities, 
independent transmission system operators and federal power marketing 
agencies, such as TVA and Bonneville Power Administration and the eight 
regional entities. Due to the international nature and electrical 
properties of the bulk power system, NERC's membership also includes 
Canadian entities.
    NERC is a non-governmental entity that has been certified by the 
Federal Energy Regulatory Commission as the ``electric reliability 
organization'' for the U.S. and has been delegated certain powers 
pursuant to FPA section 215(c)(2).
    Membership in NERC is open to all entities with an interest in the 
reliability of the bulk power system of North America. Membership in 
NERC is free of charge. As of May 16, 2011, NERC has 729 members. 
NERC's members fall into the following sectors:

  <bullet> Investor-owned utility
  <bullet> State or municipal utility
  <bullet> Cooperative utility
  <bullet> Federal or provincial utility/power marketing administrator
  <bullet> Transmission-dependent utility
  <bullet> Merchant electricity generator
  <bullet> Electricity marketer
  <bullet> Large end-use electricity customer
  <bullet> Small end-use electricity customer
  <bullet> Independent system operator/regional transmission 
        organization
  <bullet> Regional Entity
  <bullet> Government representative

    The NERC Compliance Registry is separate from the NERC membership 
list and consists of users, owners and operators of the bulk power 
system. The entities included on the compliance registry are the ones 
obligated to comply with NERC's mandatory reliability standards. 
Entities included on the NERC Compliance Registry in many cases are, 
but are not required to be, members of NERC. As of May 16, 2011, 1,923 
entities were listed on the NERC Compliance Registry.
    NERC's authority as the ERO to enforce reliability standards is 
established in FPA section 215(e). Section 400 of NERC's Rules of 
Procedure, which have been approved by FERC, set forth the NERC 
Compliance Enforcement Program.\8\ NERC has the authority to impose 
financial penalties for violation of Reliability Standards, but those 
penalties cannot take effect until they have been filed with FERC, with 
an opportunity for FERC review. FERC has ruled that NERC may impose 
penalties of up to $1,000,000 per violation. FPA section 215(e)(6) 
requires that any penalty must bear a reasonable relation to the 
seriousness of the violation and must take into consideration the 
efforts of the user, owner, or operator to remedy the violation in a 
timely manner.
---------------------------------------------------------------------------
    \8\ NERC's Rules of Procedure are available at: http://
www.nerc.com/files/NERC_Rules_of_Procedure_EFFECTIVE_20110412.pdf.
---------------------------------------------------------------------------
    Question 6. In your testimony, you describe several alternative 
methods for approving standards, including an expedited stakeholder 
process and a process by which the NERC Board of Trustees can approve a 
standard directed by FERC if there is no consensus among your members. 
Do you think these processes adequately address the concerns raised by 
the January 2011 GAO Inspector General Audit regarding the timeliness 
of the stakeholder process? When did these new processes become 
effective and have they been used to date?
    Answer. The expedited stakeholder process and the process by which 
the NERC Board of Trustees may propose and adopt a standard in response 
to a FERC directive if the Board determines that the regular standards 
process is not being sufficiently responsive to the Commission (Rule 
321 of NERC's Rules of Procedure) are, we believe, responsive to the 
concerns raised in the GAO Inspector General Audit. FERC approved 
NERC's expedited stakeholder process on February 5, 2010; it approved 
new Rule 321 on March 17, 2011. To date NERC has not had the occasion 
to use either process.
    Question 7. The discussion draft defines the term ``Critical 
Electric Infrastructure'' as follows:

          . . .means systems and assets, whether physical or virtual, 
        used for the generation, transmission, or distribution of 
        electric energy affecting interstate commerce that, as 
        determined by the Commission or the Secretary (as appropriate), 
        are so vital to the United States that the incapacity or 
        destruction of the systems and assets would have a debilitating 
        impact on national security, national economic security, or 
        national public health or safety.

    To what extent are distribution assets captured in this definition?
    Answer. Distribution assets are expressly captured to the extent 
that they are determined by DOE or FERC to meet the statutory 
definition of ``Critical Electric Infrastructure,'' i.e., to the extent 
they are ``so vital to the United States that the incapacity or 
destruction of the systems and assets would have a debilitating impact 
on national security, national economic security, or national public 
health or safety.'' With no clear indication of how the criteria will 
be applied by FERC and/or DOE in determining what distribution assets 
meet the statutory definition, NERC is unable to comment on the scope 
or magnitude of distribution assets that may be covered. If the 
definition is intended to cover national defense facilities or 
government facilities, that should be made express. I am concerned that 
reading the definition to cover major metropolitan areas could lead to 
potential conflicts with existing State and local jurisdiction and 
authorities.
    Question 8. You have stated that you seek to transition to risk-
based assessments for not just cybersecurity standards but all 
standard-setting. Please update the Committee on the transition. When 
do you expect to base cyber security standards upon risk-based 
assessments? In what ways will standards change after implementing 
risk-based assessments?
    Answer. NERC is incorporating the concept of risk into all of its 
standards development activities. A new project prioritization process 
is being used to develop the Reliability Standards Development Plan. 
This process evaluates several different factors, but gives 
considerable weight to the ``reliability risk'' that a project is 
intended to address. This risk is evaluated in both qualitative and 
quantitative terms--what kind of risk NERC is trying to manage, and how 
effectively will the proposed project manage that risk. Other areas 
considered in the prioritization include regulatory drivers, 
coordination and logistics, and general experiences with the current 
set of standards. Each project is evaluated relative to these areas and 
prioritized to help NERC allocate its resources. The risk analysis 
drives NERC's three-year work plan for Standards Development.
    Additionally, NERC is implementing our ``Results-Based Standards'' 
initiative. This effort uses best-practices from product development to 
improve the quality and effectiveness of our standards. In the 
``Results-Based'' approach, NERC develops requirements in its standards 
to address specific outcomes: ensuring adequate performance, managing 
risk, and verifying competency. NERC requires, particularly in the CIP 
standards, that entities take actions to mitigate risks or to 
demonstrate competency prior to an event occurring. In this way, we not 
only evaluate how well an entity performs, but also whether they are 
well-prepared. By requiring specific risk-mitigation measures, we 
protect against the ``known'' risks, and by verifying competency, we 
ensure that the industry has the tools and skills to make informed 
decisions when facing unknown risks. In the CIP field, not all 
contingencies can be anticipated. Resilience is required.
       Responses of Gerry Cauley to Questions From Senator Udall
    Question 1. Has the Aurora vulnerability been effectively 
mitigated, and how is this verified? What is the factual basis for your 
answer?
    Answer. NERC believes that registered entities now understand the 
Aurora vulnerability and are taking steps to mitigate that 
vulnerability within their systems. The basis for this belief is as 
follows:
    From 2007 through 2010 NERC worked closely with federal partners on 
information controls which finally resulted in NERC's receiving 
authorization to share with industry an extensive technical library 
designated ``For Official Use Only'' on NERC's various protected 
portals.
    The availability of this technical library allowed NERC to develop 
and issue an Aurora ``Recommendation to Industry'' Alert on October 13, 
2010 with more explicit information on the vulnerability and 
recommendations for detailed mitigation measures than was made 
available when the Aurora vulnerability first surfaced in 2007. This 
NERC Level 2 ``Recommendation to Industry'' carried mandatory reporting 
obligations in accordance with NERC Rules of Procedure (ROP) Section 
810, Information Exchange and Issuance of NERC Advisories, 
Recommendations and Essential Actions, which outlines the requirements.
    The goal of the Aurora Recommendation was to disseminate 
vulnerability information, discuss generally-recommended mitigation 
measures, and gather situational awareness data critical to an 
industry-wide Aurora risk assessment. Work toward this goal has reduced 
reliability risks to the bulk power system from exposure to the Aurora 
vulnerability.
    Through the implementation of recommended actions, based on the 
confidential reports received, NERC believes that the potential impact 
on the bulk power system from an Aurora event has been significantly 
reduced. Mitigation plans either have been or are in the process of 
being implemented, and as this process continues, the potential impact 
to the power system will be further reduced. Additionally, the 
provisioning of the technical library helped establish enhanced 
communication channels between NERC and the users, owners, and 
operators of the bulk power system and is facilitating general 
industry-wide awareness regarding the Aurora vulnerability.
    The status of entities' continuing actions in implementing Aurora 
mitigation will be updated every six months in accordance with the 
reporting obligations in the Aurora Recommendation.
    The October 2010, NERC Aurora ``Recommendation to Industry'' 
included the following questions, which NERC developed in consultation 
with FERC and industry subject matter experts:

          1. Does your organization fully understand Aurora, especially 
        given the new information? If not, contact NERC for assistance.
          2. Has your organization assembled a project team to assess 
        Aurora susceptibility, and/or develop Aurora mitigation 
        recommendations based on the new information?
          3. What is your plan to respond to customer inquiries 
        regarding Aurora?
          4. Has your organization taken steps to mitigate the risk of 
        an Aurora event or attack, as both a consumer and provider of 
        electric power?
          5. Is your project plan for mitigation complete? If not, when 
        do you expect it to be complete? Please indicate within the 
        mitigation plan what types of assets were considered for 
        inclusion.
          6. Are your mitigation efforts complete? If not, when do you 
        expect them to be complete?

    The response to the Aurora alert has been very high. As of January 
2011, 99% of industry acknowledged receipt, 98% have responded to NERC 
and 96% have received management approval for their response they 
developed. Implementation plans are at various levels of completion. 
Every six months entities have to update NERC on the status of their 
implementation plan until the implementation is complete. The next 
update to this status is June 13, 2011.
    For those entities that have been non-responsive, NERC staff 
follows up with phone calls discussing the recommendation, answering 
questions and clarifying uncertainties. In NERC's discussions with 
nonresponsive entities, interaction is maintained until a response is 
developed and all concerns are resolved and all questions are answered. 
. In addition to phone calls and personal interaction, NERC continues 
to follow-up and meet directly with entity representatives, through 
both outreach and personal follow-up activities such as webinars and 
technical conferences.
    NERC entities that do not fulfill their obligation under the Rules 
of Procedure will receive heightened levels of NERC attention up to and 
including direct senior level interaction from NERC, Regional and 
industry leadership. NERC, the industry including CEO's, and the 
Regions take the NERC Alert process seriously.
    NERC will monitor the progress of entities as they update their 
status every six months as required until complete. In addition NERC 
will execute its plans for continually closing the mitigation gap by 
implementing a continuous improvement action plan. NERC's action plan 
includes:

  <bullet> Establishing a series of periodic webinars for entities to 
        share information that will continuously inform bulk power 
        system entities of lessons learned from continuing reviews.
  <bullet> Continue to review the submitted responses and communicate 
        with entities to solicit feedback and close gaps identified in 
        response areas.
  <bullet> As entities indicate that they have completed implementation 
        of their mitigation plans by updating the Aurora Recommendation 
        responses, NERC will place these entities into a category for a 
        potential Sufficiency Review, the purpose of which is to 
        conduct a risk-based assessment that determines an entity's 
        ability to ensure the safe, reliable operation of the bulk 
        power system. This review will provide additional assurance of 
        adequate Aurora mitigation efforts.
  <bullet> Continue to maintain and update the Aurora Technical Library 
        and provide periodic updates to industry to include documents 
        pertaining to lessons-learned, best practices and areas of 
        concern.
  <bullet> Continue to communicate with the industrial control system 
        vendor community regarding issues and concerns discovered 
        through Aurora mitigation activities.
  <bullet> Continue to contact entities who stated that they have no 
        Aurora-vulnerable assets to ensure adequacy of their 
        activities.
  <bullet> Maintain examples of well-designed customer outreach 
        packages and other resources that entities make available based 
        on the needs expressed by entities to further facilitate the 
        sharing of information.

    Question 2. Are the current spare transformer resources, including 
the EEI STEP program, sufficient to mitigate the transformer loss 
scenario presented in the Oak Ridge National Laboratory report from a 
1921-level solar storm (over 300 transformers)? What is the factual 
basis for your answer?
    Answer. NERC is studying common mode failures, such as potential 
increases in failure rates from geomagnetic disturbances (GMD). The 
number of transformers that might be required to respond to a 1921-like 
GMD event has yet to be determined. A detailed study of the bulk power 
system reaction to vulnerable transformer failures must be completed, 
with suitable modeling and appropriate scenarios, to understand the 
resulting resiliency from operational procedures and spare equipment 
requirements.
    The electric sector has a long history of successfully managing 
day-to-day risk to the reliability of the bulk power system. Mitigation 
efforts at threatened assets, NERC's Spare Equipment Database (SED), 
EEI's STEP, and the many pooling/bilateral agreements that exist will 
support utilities in responding to and managing bulk power system 
reliability in the event of a significant GMD.
    Generally there are a limited number of replacement spares 
available. Spares are typically determined by assessing the likely 
failure risk and balancing that against prudent, regulatory review, 
allocation of investment funds. Individual failure rates of bulk power 
system transformers (transmission auto-transformers and generation 
start-up) typically are low (1-1.5%). As high voltage transformers, 
depending on size, can range in cost from $1M to $10M+ dollars and have 
replacement manufacturing times of 6 to 18 months, programs such as 
SED, STEP and equipment pooling arrangements support industry goals to 
address individual failures and allow for sharing of high-cost and long 
lead-time electric transmission assets.
    NERC would like to offer the Committee some context regarding the 
ORNL study.\9\ FERC sponsored the study to evaluate the impacts from 
GMD that can cause the flow of geomagnetic induced currents (GIC) into 
high voltage transformers (345 kV, 500 kV and 765 kV), leading to their 
projected failure. A simplified bulk power system model was used to 
simulate GIC. Further, based on information gathered from measurements, 
descriptions of local geology, and validation from past observed GMDs, 
a zonal ground model was developed to represent the ground 
impedances.\10\ A set of GMD homogenous intensities and orientations 
was developed, the resulting GICs were modeled, and quasi-direct 
current (DC) injections into transformer ground neutrals were 
calculated.
---------------------------------------------------------------------------
    \9\ FERC sponsored ORNL report Meta-R-319 http://www.ornl.gov/sci/
ees/etsd/pes/ferc_emp_gic.shtml.
    \10\ Ground impedances form part of the circuit that determines GIC 
flows. GIC results from changes in Earth's magnetic field caused by GMD
---------------------------------------------------------------------------
    Based on the results of the study, when the intensity of a 
homogenously modeled GMD reach 4,800 nanotesla per minute (projected as 
the intensity of the 1921 solar storm) at the 50 degree geomagnetic 
latitude in the Northern Hemisphere, nearly 1,000 high voltage 
transformers experienced GICs greater than 30 amps per phase and over 
300 high voltage transformers experienced greater than 90 amps per 
phase. In these scenarios, all bulk power system lines were assumed to 
be in-service, a single system dispatch and loading was assumed, and 
the transformers experiencing the specified GIC neutral amperage were 
assumed to irreparably fail. The assumption depicted in the study, and 
reflected in FERC's testimony at the hearing, is that all transformers 
with GIC at or above 90 amps per phase in their neutrals, would 
catastrophically and simultaneously fail, causing an unrecoverable 
blackout for more than six months. More work is needed before one can 
draw that, or any, conclusion.
    The contention that all high voltage transformers will 
catastrophically fail simultaneously for the 4,800 nanotesla/minute 
scenario affecting 130 million people is a simplistic view, which 
ignores the dynamic and system operational character of the bulk power 
system. This forecast assumes the dynamic characteristics of the bulk 
power system and its resiliency are irrelevant parameters, all 
transformers are equally sensitive to GIC flows, and the system will 
neither act nor respond when transformers experience high levels of 
GIC. Further, it is unclear if the intensity of the field strengths, in 
reality, is homogenous. Rather, the fields can be made up of a variety 
of structures creating local GIC flows, resulting in narrow 
concentrated impacts, rather than broad-scale affects. There is a 
danger in overreacting to worst-case scenarios. Industry organizations 
do take these issues seriously, but resources are limited. Over-
commitment of resources to address the worst-case scenario will take 
resources away from addressing other, more probable risks. NERC's 
current work is focused on performing a realistic and responsible 
assessment of the impacts and priorities for mitigation, so that it is 
possible to balance the real risks and the costs of appropriate 
mitigation.
    The appropriate use of the FERC study is as a screening assessment 
to identify those transformers that may be most vulnerable from GIC 
effects. The prudent next step is for additional detailed simulation of 
bulk power system behavior. For example, when the injected DC entering 
a transformer neutral reaches significant levels (e.g. 90 amps per 
phase), the resulting core saturation acts as a large reactor, and, 
therefore, demands large amounts of reactive power from the bulk power 
system. The reactive demand would result in voltage profile variations 
triggering automatic action in some cases, and operator action in 
others. High levels of GIC would also cause conventional current 
transformers to saturate, providing unreliable signals used to support 
system protection. Further, large quantities of harmonics would emanate 
from the saturated transformers, also interfering with system 
protection objectives. The affects of these characteristics on the bulk 
power system under multiple credible scenarios, loadings and system 
conditions must be simulated to ensure a full understanding of 
potential impacts.
    The bulk power system, when faced with the need for large amounts 
of reactive power, as when Hydro Quebec was faced with their 480 
nanotesla per minute storm in 1989,\11\ may react in an unplanned or 
unexpected manner, including break-up, islanding, or collapse. Industry 
investigation is needed to determine the amount and extent of 
disruptions that might occur. This analysis would include static, 
dynamic and transient simulations which model the non-linear behavior 
of each of the interconnections in North America. Once these analyses 
are complete, appropriate and jurisdictionally acceptable solutions, 
including grid hardening, relaying and spare equipment could be 
determined to maintain an acceptable level of reliability, given the 
relative risk from the GMD event.
---------------------------------------------------------------------------
    \11\ http://www.nerc.com/files/1989-Quebec-Disturbance.pdf
---------------------------------------------------------------------------
    Finally, the study was developed by FERC without industry vetting 
of the modeling approaches, simulation algorithms or basic data 
supporting the results. More assessment of the algorithms and 
simulation approaches with industry input is a vital next step, as 
addressed in testimony of Dr. William Tedeschi, Senior Scientist, 
Sandia National Laboratories.
    Question 3. How effective has the current standards development 
process been in protecting against cyber and other non-cyber threats 
and vulnerabilities to the grid? Is it possible to use this process 
supplemented with NERC's emergency standards process and the Alerts 
process to get the job done?
    Answer. NERC's mandatory and enforceable standards have resulted in 
unprecedented industry-wide focus and attention to protecting the grid 
against cyber and non-cyber threats. It may be possible to get the job 
done using standards and NERC's alert and advisory system, especially 
if NERC's proposal for Mandatory Directives is accepted. However, some 
agency in the federal government should be given authority to respond 
to a genuine cyber emergency, because such an emergency may demand 
swift and widespread action of a sort not achievable by the ERO, 
particularly given the challenge of translating classified information 
to industry in a useable form.
       Response of Gerry Cauley to Question From Senator Portman
    Question 1. Multiple levels of protection on the electric system 
have significant, additional costs, and may not be the most cost-
effective means of mitigating known vulnerabilities or combating known 
threats. How would you recommend that determinations be made about 
additional security requirements that are ordered to be put in to 
place? Should there be a risk assessment required to determine cost-
effectiveness?
    Answer. Yes, there should be. I believe the reliability investment 
that we are promoting every day through our standards, compliance 
program, alerts, and other initiatives, should be driven primarily by 
overall value to customers and ratepayers. It is important to achieve 
reliability risk mitigation in a manner that balances affordability of 
electricity in a competitive global market with the need to ensure the 
reliability and security of our North American electricity 
infrastructure. Additional security requirements should be identified 
through priorities and must be driven by a clear understanding of risks 
and consequences, as well as the costs and benefits associated with 
addressing them.
    In February, FERC held a technical conference to begin the 
discussion on the identification of priorities. The setting of 
priorities for NERC has to take into consideration the need to be 
responsive to regulatory directives from the Commission as well as 
priorities identified by Congress. Beyond simply discussing priorities 
there must be a systematic approach for analyzing risks and setting 
priorities going forward.
      Responses of Gerry Cauley to Questions From Senator Shaheen
    Question 1. There is wide agreement that our goal needs to be to 
prevent a cyber attack from ever being successful. But we also can't 
ignore the possibility that we will one day see some disruption in our 
infrastructure due to this kind of threat. If there was a successful 
attack on U.S. electrical infrastructure, how widespread could the 
effects be? How much would this cost the economy?
    Answer. The resilience of the bulk power system in North America is 
well documented and while we occasionally experience isolated outages 
due to weather or other natural disasters, those outages are generally 
limited in geographic areas and rarely last for a long period of time. 
Coordinated physical and cyber attacks intended to disable elements of 
the power grid or deny electricity to specific targets, such as 
government or business centers, military installations, or other 
infrastructures differ from conventional risks in that they result from 
intentional actions by adversaries and are not simply random failures 
or acts of nature. Damage experienced during a cyber attack on a 
critical infrastructure like the electrical sector is difficult to 
quantify because there are too many variables, every potential attack 
is unique and most importantly, it has never happened before. However, 
it is difficult to imagine a scenario with the electric sector 
infrastructure in place today that would result in widespread outages 
for any significant length of time. There are several major factors 
that could contribute to the cost of a cyber event: actual damage to 
equipment, economic losses due to lack of electricity; and perhaps most 
importantly, the human suffering that could ensue. Damage to equipment 
is manageable from a cyber perspective but physical attacks on 
equipment such as transformers, if methodically orchestrated by a 
determined adversary, could result in extended outages until 
replacement equipment was identified, transported and installed. Any 
extended outage, depending upon geographic location, could result in 
significant economic costs and impact on the safety and well-being of 
citizens.
    Question 2. Is there anything that can be done to limit how much 
damage can result from a single attack?
    Answer. Yes. Critical Cyber Assets (CCA) are required to be 
segmented both from other system assets and each other. CCAs are 
incorporated into the larger Electronic Security Perimeter (ESP) that 
controls and identifies all access points within utilities. As a result 
of this segmentation, if one ESP is compromised, other ESPs are not 
necessarily compromised, thus limiting any attack damage.
    Limiting damage and the potential effects of a cascading 
environment is important to NERC and the electricity industry. Current 
CIP Standards contain requirements for response and recovery planning 
for cybersecurity incidents. For example, NERC Reliability Standard 
CIP-008, Incident Reporting and Response Planning, requires that the 
Responsible Entity develop and maintain a cybersecurity incident 
response plan and implement the plan in response to cybersecurity 
incidents. At a minimum, the cybersecurity incident response plan must 
address:

  <bullet> Procedures to characterize and classify events as reportable 
        cybersecurity incidents.
  <bullet> Response actions, including roles and responsibilities of 
        cybersecurity incident response teams, cybersecurity incident 
        handling procedures, and communications plans.
  <bullet> A process for reporting cybersecurity incidents to the ES-
        ISAC. The Responsible Entity must ensure that all reportable 
        cybersecurity incidents are reported to the ES-ISAC either 
        directly or through an intermediary.
  <bullet> A process for updating the cybersecurity incident response 
        plan within 30 calendar days of any changes.
  <bullet> A process for ensuring that the cybersecurity incident 
        response plan is reviewed at least annually.
  <bullet> A process for ensuring the cybersecurity incident response 
        plan is tested at least annually. Testing the cybersecurity 
        incident response plan can range from a conducting a paper 
        drill, to holding a full operational exercise, to responding to 
        an actual incident.

    NERC Reliability Standard CIP-009, Recovery Plans for Critical 
Cyber Assets, requires that the Responsible Entity create and annually 
review recovery plans for CCAs. At a minimum, the recovery plans must 
address the following:

  <bullet> A definition of severity that would activate incident 
        recovery plans.
  <bullet> An annual review of exercise recovery plans.
  <bullet> A process and procedure for the backup and storage of 
        information required to successfully restore CCAs.
  <bullet> Annual testing of information essential to recovery that is 
        stored on backup media. This testing is to ensure that the 
        information is available.

    The bulk power system is highly redundant and planned with 
sufficient resources to accommodate unexpected loads, including a 
contingency/reserve margins to meet balancing and regulation needs. 
Redundancy plays an important role for reliability and it implies that 
more than one means should exist to perform a given function. In the 
case of a targeted attack, it is this system redundancy that will 
mitigate system failure and cascading effects.
    Question 3. Are the possible results of a successful cyber attack 
incorporated into broader reliability planning?
    Answer. Yes. Establishment and continued refinement of NERC's 
enterprise risk-based programs, policies and processes to prepare for, 
react to, and recover from cybersecurity vulnerabilities continue to be 
a high priority. NERC's Reliability Assessments and Performance 
Analysis Division (RAPA) is dedicated to annually assessing the 
adequacy of the bulk electric system in the United States and Canada 
and produces special assessments to assist with planning purposes. In 
2010, DOE and NERC produced the High Impact, Low Frequency (HILF) Event 
Risk to the North American Bulk Power System report which focused on a 
class of rare risks with the potential to cause long-term catastrophic 
damage to the bulk power system. The HILF report looked at pandemic 
illness, coordinated cyber, physical, or blended attacks on the system, 
geomagnetic disturbances (GMD) caused by extreme solar weather, and the 
high-altitude detonation of a nuclear weapon. While some of these 
events have never occurred and the probability of future occurrence and 
impact is difficult to measure, the report identified nineteen 
proposals for action for government and industry to evaluate and where 
necessary, enhance current planning and operating practices to address 
these risks.
    Following release of the HILF report, the Electricity Sub-Sector 
Coordinating Council (ESCC) developed the Critical Infrastructure 
Strategic Roadmap which provided a framework to address severe-impact 
risks, including those identified in the report. NERC staff and the 
leadership of the NERC technical committees (Planning, Operating, and 
Critical Infrastructure Protection Committees) have developed the 
Critical Infrastructure Strategic Initiatives (Coordinated Action Plan) 
to address these severe impact scenarios. The following task forces 
have been created to further develop this plan:

          1. The Cyber Attack Task Force (CATF) is charged with 
        considering the impact of a coordinated cyber attack on the 
        reliable operation of the bulk power system and also 
        identifying opportunities to enhance existing protection, 
        resilience and recovery capabilities.
          2. Physical attack scenarios are addressed in two task 
        forces--the Severe Impact Resiliency Task Force (SIRTF) and the 
        Spare Equipment Data Base Task Force (SEDTF). The SIRTF was 
        formed to provide guidance and options to enhance the 
        resilience of the bulk power system to withstand and recover 
        from coordinated cyber and physical attacks as well as GMD.
          3. The SEDTF was assigned to vet and redesign the SED, 
        including policies and protocols for its deployment across 
        North America. NERC has for many years (early 1980's) operated 
        an informal transformer-based Spare Equipment Database (SED) 
        for assisting utilities following events that exceed planned 
        contingencies. NERC is currently reorganizing and formalizing 
        SED to provide wider coverage among the many NERC participants 
        and provide broader coverage of the spare transformers to be 
        reported to the program.
          4. The Geo-Magnetic Disturbance Task Force (GMDTF) was formed 
        to identify the current capabilities, potential impacts and 
        resiliency to GMD. The GMDTF will also identify modeling 
        requirements to support the requisite screening and detailed 
        study of vulnerable transformers to understand bulk power 
        system behavior and appropriate hardening and operational 
        requirements. In April 2011, NERC sponsored an industry 
        workshop on responding to geo-magnetic disturbances.\12\On May 
        10, 2011, NERC issued an Advisory Alert to industry on the 
        operational preparatory actions and bulk power system planning 
        activities.\13\
---------------------------------------------------------------------------
    \12\ See agenda at http://www.nerc.com/docs/pc/gmdtf/
GMD_Workshop_rev6_04.19.2011.pdf
    \13\ Industry Advisory, Preparing for Geo-Magnetic Disturbances, 
issued on May 10, 2011, http://www.nerc.com/fileUploads/File/
Events%20Analysis/A-2011-05-10-01_GMD_FINAL.pdf
---------------------------------------------------------------------------
                                 ______
                                 
     Responses of David K. Owens to Questions From Senator Bingaman
    Question 1. At the 2009 Committee hearing on electric cyber 
security, you testified that 1) consultation with industry was critical 
to improving cyber security and that 2) legislation should complement, 
not supplant, the existing reliability processes. Do you believe that 
the changes in today's Discussion Draft respond to your comments from 
last Congress? With which federal and state agencies do you coordinate 
on cyber security threats and vulnerabilities?
    Answer. We appreciate the Committee's continued efforts on this 
critical issue. The Committee's ``Discussion Draft'' still provides 
significant latitude for the Federal Energy Regulatory Commission 
(FERC) to act unilaterally in mitigating cyber vulnerabilities. 
Unintended consequences of mitigation are a concern absent input from 
the stakeholder-driven, Electric Reliability Organization (ERO) process 
contemplated in Sec. 215 of the Federal Power Act.
    The industry currently coordinates with law enforcement at both the 
state and federal level, as well as with state and Federal regulatory 
bodies, including FERC and the various state public utility 
commissions. At the Federal level we also continue to develop 
relationships and work with the Department of Defense, Department of 
Homeland Security, Department of Energy, as well as the intelligence 
community, senior Administration leadership, and standards bodies like 
the National Institute of Standards and Technology.
    Question 2. Your testimony states that vulnerabilities, by their 
nature, offer some time to determine the best response. Do you believe 
that the process for addressing cyber security vulnerabilities in the 
Discussion Draft can be completed in sufficient time to address 
vulnerabilities?
    Answer. Yes. In fact, we would encourage more coordination and 
stakeholder input, such as that outlined in Sec. 215 of the Federal 
Power Act.
    Question 3. Your testimony highlights information sharing between 
government agencies and utilities as an important issue. Do you believe 
that this bill meets the needs of the industry in that area?
    Answer. We appreciate the language in the ``Discussion Draft'' that 
requires procedures be set up for information sharing that enables the 
industry to implement rules or orders stemming from the legislation. 
While we would prefer a very explicit mandate for sharing, as well as 
public-private coordination and consultation in all situations that 
time allows, we believe the Committee took an important step by 
addressing information sharing in its draft.
    Question 4. You testified that industry is working with NERC to 
harden systems against and create redundancy in the systems to protect 
against the affects of solar disturbances. Can you provide an update on 
the general course of progress that members of your coalition are 
making? Does EEI believe that the power grid in the United States, or 
regions within it, hardened against solar-magnetic disturbances or 
electromagnetic pulse from man-made events?
    Answer. EEI has not performed a formal survey of its members, but 
we are aware that a number of EEI member companies have started to 
purchase transformers with features that provide protections against 
ground induced current like those caused by solar disturbances.
    In addition, EEI member companies are working with NERC to develop 
operational practices to mitigate risks associated with solar 
disturbances through its Geomagnetic Disturbance Task Force (GMDTF). In 
fact, on May 10, 2011, NERC issued an Industry Advisory on Preparing 
for Geo-Magnetic Disturbances.
    http://www.nerc.com/fileUploads/File/Events%20Analysis/A-2011-05-
10-01_GMD_FINAL.pdf
    NERC is actively addressing a range of high-impact, low-frequency 
(HILF) risks to the bulk power system. These efforts are coordinated 
through several task forces on which EEI and EEI member companies 
participate, including: the GMDTF, the Spare Equipment Database Task 
Force, the Cyber and Physical Attack Task Force, and the Severe Impact 
Resilience Task Force.
    The goal of these efforts is to develop models to better understand 
the nature and effects of Coronal Mass Ejections (CME), the 
vulnerabilities of equipment, bulk power system design considerations, 
ability to reduce the operational and real time impacts of geo-magnetic 
disturbances (GMD) on the bulk power system, inventory long-lead time 
equipment, and restoration methods. Additional information will be 
issued as findings from this assessment are completed.
    EEI believes that efforts underway to mitigate risks associated 
with solar disturbances do, in fact, reduce risk. We believe, 
consistent with the testimony of Dr. William Tedeschi, more research is 
needed in this area to better understand potential impacts and identify 
additional effective risk mitigation strategies.
    EEI believes there are residual risks associated with solar-
magnetic disturbances, and that there may not be 100% protection 
possible against the most severe events.
    Regarding electromagnetic pulse events from man-made activities, we 
think that it is useful to differentiate between localized effects that 
might be created from a portable device to create disruptive 
electromagnetic energy vs. potential EMP from a high-altitude nuclear 
weapon. A localized disruption would be handled similarly to how 
electric utilities currently handle significant natural disasters. For 
example, in the event that a tornado, flood, hurricane, or wild-fire 
were to cause a particular facility to be non-operational, the electric 
utility would initiate restoration activities and, as appropriate, 
migrate operations to backup facilities.
    Regarding potential EMP effects resulting from the detonation of a 
high-altitude nuclear weapon, electric utilities rely on national 
defense to prevent such events from occurring.
    Question 5. NERC's High Impact, Low Frequency Event Risk to the 
North American Bulk Power System report states that the interconnected 
nature of the bulk power system requires that risk management actions 
be consistently and systematically applied across the entire system to 
be effective. If there are distribution-level systems and assets that 
are so vital that their loss would have a debilitating impact on 
national security, national economic security, or national public 
health or safety, why shouldn't we apply risk management processes 
consistently and systematically to this limited set of systems and 
assets? Do you think each state has adequate cyber expertise and has 
already taken the steps needed to protect distribution facilities?
    Answer. To the degree there are distribution-level systems and 
assets that are so vital that their loss would have a debilitating 
impact on national security, national economic security, or national 
public health or safety, they could be protected in a manner consistent 
with the recently released Administration proposal for critical 
infrastructure protection. Given the interests of the States concerning 
distribution-level systems, it is important to coordinate protection 
strategies with them.
    Question 6. NERC has stated that not all vulnerabilities can or 
should be addressed by a standard. Do you agree? If yes, what would be 
the appropriate means of addressing some of these vulnerabilities? 
Would you support making NERC directives other than standards mandatory 
and enforceable?
    Answer. Cyber threats and vulnerabilities evolve very quickly and 
oftentimes are specific to a particular entity or type of asset, but 
standards are designed to ``standardize'' procedures or processes in a 
more long-term, broadly applicable way. Instead, patches and alerts are 
the preferred approach for addressing rapidly-evolving, targeted 
threats and vulnerabilities.
    In limited circumstances and with stakeholder input designed to 
meet a very short deadline, it could make sense for NERC alerts or 
directives to be mandatory and enforceable. With respect to the limited 
circumstances, I would suggest classifying a fourth level of alert--
currently, there are three--which would provide NERC with this 
authority under circumstances where failure to patch the vulnerability 
could have particularly devastating effects. With respect to industry 
input, we continue to make the case that, to the best of everyone's 
ability, unintended consequences from mitigation need to be avoided, 
and having grid engineers suggesting mitigation is the most prudent way 
to accomplish this.
    Responses of David K. Owens to Questions From Senator Murkowski
    Question 1. You note that the distinction between imminent threats 
and less time sensitive vulnerabilities is important. I understand that 
EEI, along with the rest of the industry, supports new federal 
authority to deal with emergency threats. However, you believe 
vulnerabilities are already covered through the Section 215 process so 
additional FERC authority in this area is not necessary. Is that 
correct? Do you support NERC's request to make their Alerts legally 
enforceable?
    Answer. EEI supports new federal authority to deal with emergency 
threats; however vulnerabilities are already covered through the 
Section 215 process so additional FERC authority in this area is not 
necessary.
    Cyber threats and vulnerabilities evolve very quickly and 
oftentimes are specific to a particular entity or type of asset, but 
standards are designed to ``standardize'' procedures or processes in a 
more long-term, broadly applicable way. Instead, patches and alerts are 
the preferred approach for addressing rapidly-evolving, targeted 
threats and vulnerabilities.
    In limited circumstances and with stakeholder input designed to 
meet a very short deadline, it could make sense for NERC alerts or 
directives to be mandatory and enforceable. With respect to the limited 
circumstances, I would suggest classifying a fourth level of alert--
currently, there are three--which would provide NERC with this 
authority under circumstances where failure to patch the vulnerability 
could have particularly devastating effects. With respect to industry 
input, we continue to make the case that, to the best of everyone's 
ability, unintended consequences from mitigation need to be avoided, 
and having grid engineers suggesting mitigation is the most prudent way 
to accomplish this.
    Question 2. You testified that any new government authority should 
be limited to covering truly critical assets--that over-inclusion of 
electric utility infrastructure would be counterproductive. Are you 
talking about allowing FERC to get down to the distribution level, even 
for ``vital'' assets? If we do allow FERC this additional authority, do 
you agree with NERC that the discussion draft should be amended to make 
sure the ERO, and the Section 215 stakeholder process, can cover this 
local level as well?
    Answer. To the degree there are distribution-level systems and 
assets that are so vital that their loss would have a debilitating 
impact on national security, national economic security, or national 
public health or safety, they could be protected in a manner consistent 
with the recently released Administration proposal for critical 
infrastructure protection. Given the interests of the States concerning 
distribution-level systems, it is important to coordinate protection 
strategies with them. And, given the value of the ERO process, it is 
important that any FERC authority be buttressed by stakeholder input.
    Question 3. In the vulnerabilities section of the discussion draft, 
we have yet to specify the timeframes for FERC's initial determination 
on the adequacy of reliability standards and for NERC's response to any 
Commission directive. In EEI's opinion, what is the appropriate amount 
of time for these actions?
    Answer. It is important to balance the need for FERC to have 
sufficient time to review the current standards in light of known 
potential vulnerabilities with the need to identify those potential 
vulnerabilities in an expeditious manner so that NERC can begin its 
standards development process. Given that FERC is already familiar with 
the existing body of standards, having previously approved them, a 
period of around 120 days may be appropriate. Similarly, the time for 
NERC to respond must also be a balance of the need to respond to 
potential vulnerabilities in a prompt manner while giving the NERC 
standards development process a sufficient time to complete the task. 
Given that NERC has adopted procedures that provide for faster action 
in certain cases, a similar 120 period may be appropriate. FERC and 
NERC may have views on this issue.
    Question 4. You note in your testimony that the new proposed 
authority for FERC to issue an ``Interim Final Rule'' could be done 
with no hearing or prior notice. The provision was written this way 
because the intent was for a NERC developed standard to eventually 
supplant the FERC Interim Rule. If the Committee fixes the discrepancy 
problem with NERC's ability to reach the distribution level do you 
still have due process concerns?
    Answer. Since NERC does not have authority to develop standards for 
facilities used in local distribution, this effectively means FERC 
would be writing standards or directing operational changes for 
distribution facilities. Giving FERC this jurisdiction over local 
distribution facilities is contrary to both Section 215 and the Federal 
Power Act as a whole, which excludes from federal jurisdiction 
facilities used in the local distribution of electric energy.
    However, EEI remains concerned with the provision even if 
distribution facilities were removed. As I pointed out in my written 
and oral testimony, utilities understand how their complex systems are 
designed and operated and ``are in a unique position to understand the 
consequences of a potential malicious act as well as proposed actions 
to prevent such exploitation, including ensuring against unintended 
consequences of remedial actions. It is critically important to 
establish a workable structure that enables the government and the 
private sector to work together in order to provide a more secure 
system for our customers.'' This is why it is vitally important that 
there be consultation and an opportunity for comment, even if 
expedited, before FERC could develop an ``interim final'' rule. An 
interim final rule is, in effect, ``final'' until replaced with another 
rule. Industry consultation is imperative in order to develop a 
solution that protects utility systems and customers. This is an 
integral part of the public-private partnership that the majority of 
witnesses at the hearing endorsed.
    Question 5. The potential threat from an EMP attack or geomagnetic 
disturbances is not new. Given the existing knowledge of the potential 
for these types of disruptions, what steps have been taken to protect 
our grid from EMP and geomagnetic-related events? Are hardening 
standards in place for new products being placed onto the grid?
    Answer. Although the threats posed by potential EMP effects 
resulting from the detonation of a high-altitude nuclear weapon are not 
new, the discussion of the potential for a rogue nation to launch and 
detonate a small number of high-altitude nuclear weapons is relatively 
new, and significantly different than a ``cold war'' discussion of 
``mutually assured destruction.'' The industry is not in the position 
to evaluate the threats posed by potential rogue nation(s) in this 
regard.
    A number of electric utilities and regional transmission operators 
have developed operational procedures to reduce the risk to the system 
during elevated periods of solar disturbance activities. In addition, 
entities receive and evaluate solar magnetic event predictions 
generated by National Oceanic and Atmospheric Administration (NOAA) 
Space Weather Prediction Center (SWPC).
    There are no uniform (standard) specifications for new transformers 
to mitigate ground induced currents associated with solar magnetic 
disturbances. Moreover, there are a number of installation specific 
attributes to be factored into potential designs including the 
characteristics of the energy to be transformed (e.g. voltage, 
impedance, etc.) as well as the relative resistance/conductivity or 
underground rock formation of the installation site.
    EEI has not performed a formal survey of its members, but we are 
aware that a number of EEI member companies have started to purchase 
transformers with features that provide protections against ground 
induced current like those caused by solar disturbances. Although 
entities purchasing new transformers can designate product 
characteristics that may mitigate the risk of geomagnetic disturbances, 
they are not required to do so.
    Question 6. Please describe the industry's existing Spare 
Transformer Sharing program. What more can be done in this area?
    Answer. Please see attached STEP Overview document.*
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
      Responses of David K. Owens to Questions From Senator Udall
    Question 1. Has the Aurora vulnerability been effectively 
mitigated, and how is this verified? What is the factual basis for your 
answer?
    Answer. On October 13, 2010, NERC issued an Alert titled:'' AURORA 
Mitigation--Protection and Control Engineering Practices and Electronic 
and Physical Security Mitigation Measures.''
    NERC required registered entities to respond to NERC regarding 
their mitigation status. Those entities that have not completed 
mitigation are required to report their status to NERC every six months 
until they are complete. NERC is best able to provide an answer to your 
question.
    Question 2. Are the current spare transformer resources, including 
the EEI STEP program, sufficient to mitigate the transformer loss 
scenario presented in the Oak Ridge National Laboratory report from a 
1921-level solar storm (over 300 transformers)? What is the factual 
basis for your answer?
    Answer. The EEI STEP program is currently structured to address 
responding to a terrorist attack on substations and transformers, 
rather than a geomagnetic disturbance. Although there are spare 
transformers available, it is not known with certainty whether the 
available spares would adequately respond to the scenario envisioned in 
the Metatech report.
    We don't have access to the assumptions, methodology or selection 
criteria used by Metatech, or how the conclusion regarding transformer 
failure was arrived at. It is our understanding that the report was not 
subject to scientific or industry peer review.
    Question 3. How effective has the current standards development 
process been in protecting against cyber and other non-cyber threats 
and vulnerabilities to the grid? Is it possible to use this process 
supplemented with NERC's emergency standards process and the Alerts 
process to get the job done?
    Answer. It's effective and improving. Yes, it's possible to get the 
job done as you suggest, and given the complexity of the bulk power 
system, it is critical to continue to actively engage owners and 
operators of the system as well as industry stakeholders in the 
development of mandatory and enforceable standards.
      Response of David K. Owens to Question From Senator Portman
    Question 1. Multiple levels of protection on the electric system 
have significant, additional costs, and may not be the most cost-
effective means of mitigating known vulnerabilities or combating known 
threats. How would you recommend that determinations be made about 
additional security requirements that are ordered to be put in to 
place? Should there be a risk assessment required to determine cost-
effectiveness?
    Answer. Risk assessments should be used to prioritize threats and 
vulnerabilities and evaluate potential risk mitigation strategies. In a 
resource-constrained environment, choices will have to be made about 
which risks to address, and to what degree.
    It is appropriate to recognize that it is simply not possible to 
prevent all failures. In addition to prevention, the electric utilities 
have demonstrated a significant resilience in response to various local 
and regional disasters.
                                 ______
                                 
   Responses of Joseph McClelland to Questions From Senator Bingaman
    Question 1. The Discussion Draft creates a process to address cyber 
security vulnerabilities affecting critical electric infrastructure. 
The Discussion Draft left open the following question: what is the 
maximum number of days the Federal Energy Regulatory Commission (FERC) 
should be granted to determine whether the existing set of reliability 
standards are adequate to protect this infrastructure from cyber 
security vulnerabilities. Can you estimate how long, in days, it might 
take FERC to make this determination?
    Answer. I believe 120 days would be adequate for FERC to make this 
determination. This would include time for the Commission to issue a 
proposed determination, seek and consider public comments and then 
issue its determination.
    Question 2. How long NERC should have, in days, to develop 
standards in response to a FERC directive to address cyber security 
vulnerabilities?
    Answer. I believe 60 days would be adequate for NERC to develop 
standards in response to a FERC directive.
    Question 3. Your testimony states that NERC submitted eight 
proposed cyber security standards, known as the Critical Infrastructure 
Protection (CIP) standards, to FERC for approval under section 215. 
Your testimony further states that FERC approved those standards in 
2008 but directed NERC to make certain revisions. As I understand it, 
NERC continues to work on those revisions and plans to submit them to 
FERC somewhere in 2012. If submitted in 2012, development and approval 
of the first set of cyber security standards will have lasted around 6 
years. Why has this process lasted this long?
    Answer. The length of time it has taken for the CIP standards to be 
developed and implemented illustrates the potential limitations of 
NERC's standards development process. Under section 215 of the Federal 
Power Act, the ERO's standards development process must provide for 
reasonable notice and opportunity for public comment, due process, 
openness, and balance of interests in developing reliability standards. 
Accordingly, NERC's standards development procedures, under which the 
CIP standards must be developed, allows for extensive opportunity for 
stakeholder participation. The NERC standards development process is 
intended to develop consensus on both the need for, and the substance 
of, the proposed standard. This results in a relatively slow process.
    Question 4. Can FERC describe the advantages of having a definition 
of ``Critical Electric Infrastructure'' that is slightly more expansive 
than the current definition of ``Bulk Power System''?
    Answer. The ERO's current interpretation of the definition of bulk-
power system excludes virtually all of the grid facilities in certain 
large cities such as New York. Moreover, the bulk-power system is 
statutorily defined as excluding facilities used in local distribution. 
Thus, the advantage of having a definition of ``Critical Electric 
Infrastructure,'' as set forth in the Discussion Draft that is more 
expansive than the current definition of ``bulk-power system,'' as 
defined in section 215(a)(1) of the Federal Power Act, is the 
Commission would be, for the first time, authorized to take action to 
mitigate cyber security vulnerabilities that involve certain critical 
distribution facilities and certain critical transmission facilities 
located in major population areas. However, the Discussion Draft 
includes these facilities only if their incapacity or destruction 
``would have a debilitating impact on national security, national 
economic security, or national public health or safety.''
    Question 5. Your testimony states that the Federal Power Act allows 
for some degree of discretion in defining elements of the Bulk Power 
System. (Your 2009 testimony made the same point.) From FERC's 
perspective, has progress been made to the processes of identifying 
critical assets? Do users, owners, and operators have the same level of 
discretion some two years later?
    Answer. In February 2011, NERC filed a petition seeking approval of 
Version 4 of the CIP standards. Version 4 includes new proposed 
criteria to identify ``critical assets'' for purposes of the CIP 
reliability standards. This filing is currently under review by the 
Commission. Thus, I cannot address its merits at this time. In order to 
better understand the NERC Version 4 petition, particularly the number 
of critical cyber assets that will be identified under this revision, 
the Commission issued data requests to NERC, with responses due on July 
11, 2011, which reflects an extension of time requested by NERC. 
Currently, users, owners and operators essentially have the same 
discretion as to whether their facilities fall under the CIP standards 
because there has been no change in method of identifying critical 
cyber assets in the CIP Standards that are currently in-effect.
    Question 6. Do you think every State has adequate cyber expertise 
to protect distribution-level systems and assets that that are so vital 
that their loss would have a debilitating impact on national security, 
national economic security, or national public health or safety?
    Answer. I do not know whether every State has adequate cyber 
expertise to protect these distribution-level systems and assets. 
However, expertise and coordination at the state level would have to 
include the knowledge of how cyber security vulnerabilities on the 
distribution-level systems and assets, along with their associated 
connectivity, could have a debilitating impact on the bulk-power system 
as well as on national security, national economic security, or 
national public health or safety.
    Question 7. NERC indicated that industry learned lessons and 
hardened a lot of equipment following the 1989 geomagnetic disturbance 
that affected Quebec. Does FERC believe that the power grid in the 
United States, or regions within it, hardened against solar-magnetic 
disturbances or electromagnetic pulse from man-made events?
    Answer. I am not aware of information showing that the power grid 
has been hardened to withstand a geomagnetic disturbance or an EMP 
event. Steps taken after the 1989 geomagnetic event are principally 
operational in nature. Further, according to the NERC--DOE High Impact, 
Low Frequency Event Risk to the North American Bulk Power System 
Summary Report (June 2010), the procedures put in place after the 1989 
geomagnetic event were not designed for the extreme geomagnetically 
induced current (GIC) levels considered in the NERC-DOE study. The 
recommended actions in the NERC-DOE study include monitoring of NOAA 
alerts, reducing loading on critical transmission facilities, 
increasing generation reserves, and deferring or discontinuing 
maintenance. Some utilities have readjusted protection systems to be 
more tolerant of harmonic currents in order to reduce the probability 
of undesirable operation under GIC conditions. However, none of these 
actions reduce or prohibit the flow of GIC on the system and are not 
considered to be hardening of equipment to protect against an EMP 
event. Although we have received information about a few utilities that 
have attempted to harden some individual elements within their systems 
against either a solar magnetic disturbance or an EMP event, overall, 
the U.S. power grid has not been hardened against either.
    Question 8. NERC stated that legislation that provided for both 
standards and other NERC directives to be legally enforceable would 
significantly enhance cyber security. NERC's alerts process is 
contained within the NERC Rules of Procedure. Did NERC file these rules 
with FERC? If yes, what was the stated intent of the alerts program in 
the NERC filing? Did FERC formally approve these rules? What role, if 
any, does FERC play in the NERC alerts process?
    Answer. Yes, the ERO is required by section 215(f) of the Federal 
Power Act to file with the Commission for approval any proposed rule or 
proposed rule change. A proposed rule or change to the rules of the ERO 
(NERC) may not take effect until the Commission approves the rule. 
NERC's ``alert process'' is set forth in section 810 of its Rules of 
Procedure, ``Information Exchange and Issuance of NERC Advisories, 
Recommendations and Essential Actions.'' NERC has stated that the 
purpose of section 810 is to allow NERC to disseminate findings and 
recommendations from its analyses of major events and information on 
other events and on potential bulk-power system vulnerabilities. The 
Commission formally approved section 810 of NERC's Rules of Procedure 
by order dated February 6, 2008. See North American Electric 
Reliability Corp., 122 FERC  61,105 (2008). The Commission's role with 
respect any NERC advisory, recommendation, or essential action notice 
is set forth in section 810(5) of the Rules of Procedure. Specifically, 
NERC is required to give the Commission at least five days prior 
notice, or less if necessary due to extraordinary circumstances, of 
NERC's intention to issue an advisory, recommendation or essential 
action notice This provides the Commission an opportunity to provide 
input regarding the content of the advisory, recommendation or 
essential action notice. However, neither the NERC Rules of Procedure 
nor the Commission's regulations require NERC to accept any Commission 
input. Further, none of the Alerts are mandatory for the industry to 
follow.
   Responses of Joseph McClelland to Questions From Senator Murkowski
    Question 1. Through the definition of ``critical electric 
infrastructure,'' the discussion draft legislation extends FERC's 
jurisdiction beyond the Bulk Power System to the distribution level as 
long as those systems or assets are ``vital'' to the nation's security, 
economy, public health or safety. However, as discussed at the May 5th 
hearing, NERC's authority as the ERO does not extend to the 
distribution level.
    In the discussion draft text, we were trying to respect the Section 
215 stakeholder process--the idea being that if FERC directed the ERO 
to develop or modify a cyber standard to protect ``critical electric 
infrastructure'' that standard would be developed through the existing 
stakeholder process. If FERC found that standard to be inadequate, only 
then would the Commission be authorized to develop an interim back-stop 
standard. And that FERC standard would eventually be supplanted by an 
acceptable NERC produced standard. It was not my intent to allow FERC 
sole discretion to dictate standards at the local level or bypass the 
Section 215 process altogether. Please comment.
    Answer. I agree that the discussion draft does not eliminate the 
ERO's standards development role. However, if the ERO fails to submit a 
timely and adequate standard or modification, the discussion draft 
would allow the Commission to issue an interim final rule. The 
discussion draft is unclear on whether the Commission may take such 
action in other circumstances but, as I stated in my testimony, FERC 
should be able to require mitigation even before or while NERC and its 
stakeholders develop a standard, when circumstances require urgent 
action. Should the Commission require an action on the distribution 
system, the Commission could rescind the action when no longer 
necessary. If your intention is to allow the ERO to develop reliability 
standards to address distribution level cyber vulnerabilities, the 
discussion draft may need to be modified.
    Question 2. The discussion draft defines the term ``Critical 
Electric Infrastructure'' as follows:
          . . .means systems and assets, whether physical or virtual, 
        used for the generation, transmission, or distribution of 
        electric energy affecting interstate commerce that, as 
        determined by the Commission or the Secretary (as appropriate), 
        are so vital to the United States that the incapacity or 
        destruction of the systems and assets would have a debilitating 
        impact on national security, national economic security, or 
        national public health or safety.

    To what extent are distribution assets captured in this definition?
    Answer. Distribution systems and assets are captured by the 
proposed Critical Electric Infrastructure definition in the discussion 
draft, if their incapacity or destruction would have a debilitating 
impact on national security, national economic security or national 
public health or safety.
    Question 3. Do you read the discussion draft as allowing both FERC 
and DOE to develop different lists of critical assets? If so, can you 
provide clarifying language to the Committee?
    Answer. Yes. The discussion draft authorizes the Commission or DOE 
to identify critical electric infrastructure systems and assets. If 
this approach is deemed inappropriate, the definition of Critical 
Electric Infrastructure could be clarified as follows:

          The term `critical electric infrastructure' means systems and 
        assets, whether physical or virtual, used for the generation, 
        transmission, or distribution of electric energy affecting 
        interstate commerce that, as determined by the Commission in 
        consultation with the Secretary or the Secretary (as 
        appropriate), are so vital to the United States that the 
        incapacity or destruction of the systems and assets would have 
        a debilitating impact on national security, national economic 
        security, or national public health or safety.

    [Note: For printing purposes, in the above text, italic represents 
double underlined language and bold represents strike through 
language.]

    Question 4. Currently, how do FERC and DOE work together to assess 
threats and vulnerabilities? Have there been any problems with this 
working relationship? How do the two agencies coordinate with the 
government's intelligence agencies? How does FERC coordinate with NERC 
on these issues?
    Answer. FERC, DOE, DHS, DOD, NRC, FBI, NSA and CIA share 
information about vulnerabilities to the electric grid. That 
interaction includes ad hoc meetings on specific topics (such as 
Stuxnet) and participation in established forums. FERC participates in 
and supports the Government Coordinating Council for the Energy Sector 
(for which DOE is the sector-specific agency), the Industrial Control 
Systems Joint Working Group (organized by DHS) and the Roadmap to 
Secure Control Systems in the Energy Sector (sponsored by DOE and DHS). 
FERC also receives technical information and daily reports on threats 
and vulnerabilities from DHS, the U.S. CERT (Cyber Emergency Response 
Team), the ICS CERT (Industrial Control Systems CERT) and the SCADA 
Test Bed. To date, I have not seen any problems with this working 
relationship.
    FERC and NERC coordinate in a number of ways. These include FERC 
briefing NERC and the industry on threats and vulnerabilities and 
receiving information through the Electric Sector Information Sharing 
and Analysis Center (operated by NERC). In addition, FERC works with 
NERC on every Alert issued to the Electric Sector by NERC. FERC 
provides technical analysis and input to the Alerts.
    Question 5. In your testimony, you note that the Commission has 
existing authority to direct NERC to develop a reliability standard to 
address a particular issue, including a cyber security matter, pursuant 
to Section 215(d)(5) of the Federal Power Act. To date, FERC has not 
used this authority, which is noted in the DOE/IG report you reference. 
Why not? Are you aware of any current vulnerabilities that NERC is not 
addressing?
    Answer. The Commission has used its FPA section 215(d)(5) authority 
to direct the ERO to address cyber security matters. Specifically, on 
January 18, 2008, in Order No. 706, the Commission directed the ERO, 
pursuant to section 215(d)(5) of the FPA, to develop significant 
modifications to the CIP standards the ERO submitted to the Commission 
for approval to address vulnerabilities identified by the Commission. 
To date, the majority of the Order No. 706 directed modifications to 
the CIP standards have not been completed by NERC. Until they are 
addressed, there are significant gaps in protection such as inadequate 
identification of critical cyber assets. NERC is in various stages of 
its standards development process to address these directed 
modifications. Section 215 of the FPA does not allow the Commission to 
write or modify the standards, therefore the Commission must rely on 
the ERO's standards development process to answer the Commission's 
directives such as those in Order No. 706. This authority is inadequate 
to address cyber threats and vulnerabilities on the power grid. The 
DOE-IG report also concluded that this authority was inadequate and 
recommended the Commission seek additional authority from Congress.
    Question 6. You note that the existing reliability standards do not 
address EMP vulnerabilities. Can't FERC order NERC to produce EMP-
related standards pursuant to Section 215? If so, why hasn't the 
Commission taken such action?
    Answer. Yes. The Commission can order the ERO to address EMP 
vulnerabilities under Section 215. However, to date, the Commission has 
focused on cyber security issues identified in Order No. 706 which 
remain largely unaddressed, as explained in question #5 above. In order 
to better understand the EMP issue and inform our actions, the 
Commission initiated a joint study with DOE and DHS through the Oak 
Ridge National Laboratory. This study was just completed September 20, 
2010 and was released for peer review at that time. From that time, the 
Commission has been considering possible options to address this matter 
including use of its FPA 215 authority. However, the Commission has 
found the standards development process to be too slow, too open and 
too undependable to protect the grid from vulnerabilities and threats 
that can imperil national security. Physical or non-cyber events or 
attacks, such as an EMP attack, can damage the grid as much as, or more 
than, cyber attacks. These events might vary significantly and range 
from natural causes such as solar-magnetic storms to deliberate and 
coordinated attacks on specific equipment such as bulk power 
transformers. Legislation including non-cyber vulnerabilities would 
authorize regulatory requirements, quickly if necessary, to install and 
actuate protection measures against a solar storm (or threat of an 
electromagnetic pulse attack) or the stockpiling and sharing of costs 
for spare transformers.
    Question 7. You state that NERC's inclusive stakeholder process, 
while appropriate for developing routine reliability standards, can 
serve as an impediment when immediate measures need to be taken to 
address threats to national security. However, the discussion draft 
bifurcates federal authority--it tasks DOE with responding to immediate 
threats and FERC, through the NERC process, with responding to less 
time-sensitive vulnerabilities. What is FERC's position on this 
proposed bifurcation? Does the additional authority granted in the 
discussion draft to the Energy Department for imminent threats address 
your concerns?
    Answer. The discussion draft allows for protection of critical 
electric infrastructure against all cyber security vulnerabilities and 
threats. The legislation directs FERC to address cyber security 
vulnerabilities of the Nation's critical electric infrastructure. These 
vulnerabilities may sometimes be urgent even if an ``imminent danger'' 
of a threat has not yet been adequately documented. To this extent, the 
discussion draft's authorization for the Department of Energy to 
address imminent threats is not, by itself, an adequate solution. The 
discussion draft places the responsibility and authority to address 
cyber security vulnerabilities of the electric grid with the agency 
that is already charged with regulating reliability and cyber security 
of the bulk-power system and is therefore experienced and expert in 
regulating these matters. Should the discussion draft retain the 
separation of FERC and DOE responsibilities, FERC expects to coordinate 
with DOE in order to prevent overlap of our actions regarding FERC's 
responsibility to address ``vulnerabilities'' and DOE's responsibility 
to address ``threats.'' FERC already coordinates with and has an 
excellent working relationship with many other agencies such as DOE, 
DHS, DOD, NRC, FBI, NSA and CIA to avoid duplicative or conflicting 
actions.
    Question 8. What is FERC's position on making NERC's Alerts legally 
enforceable?
    Answer. Allowing NERC to issue legally enforceable ``Alerts'' would 
vest too much authority in a non-government organization.
    Question 9. It appears from your testimony that FERC has been 
frustrated with NERC's process and timeliness in identifying critical 
assets. However, NERC's revised ``bright-line'' proposal for 
identifying these assets has been pending with the Commission since 
February. Why hasn't the Commission acted on this proposal to fill in 
this gap? Couldn't FERC accept this standard and, at the same time, 
request additional information if needed?
    Answer. In February 2011, NERC filed a petition seeking approval of 
Version 4 of the CIP standards. Version 4 includes new proposed 
criteria to identify ``critical assets'' for purposes of the CIP 
reliability standards. This filing is currently under review by the 
Commission. Thus, I cannot address its merits at this time. In order to 
better understand the NERC Version 4 petition, particularly the number 
of critical cyber assets that will be identified under this revision, 
the Commission issued data requests to NERC, with responses due on July 
11, 2011, which reflects an extension of time requested by NERC. 
Currently, users, owners and operators essentially have the same 
discretion as to whether their facilities fall under the CIP standards 
because there has been no change in method of identifying critical 
cyber assets in the CIP Standards that are currently in-effect.
    Question 10. In the vulnerabilities section of the discussion 
draft, we have yet to specify the timeframes for FERC's initial 
determination on the adequacy of reliability standards and for NERC's 
response to any Commission directive. In FERC's opinion, what is the 
appropriate amount of time for these actions?
    Answer. See the responses to Senator Bingaman's Question Nos. 1 and 
2.
    Question 11. In the 2007 Energy Independence and Security Act 
(EISA), Congress directed NIST and FERC to work on interoperability 
standards for smart grid devices, including cyber security standards. 
What is the status of this effort? Do the discussion draft's provisions 
build on or supersede EISA's efforts to improve the cyber security of 
smart grid devices?
    Answer. The most recent Commission action regarding 
interoperability standards for smart grid devices was a technical 
conference held on January 31, 2011 to obtain further information to 
aid the Commission's determination of whether there is ``sufficient 
consensus'' that certain smart grid interoperability standards are 
ready for Commission consideration in a rulemaking proceeding. By 
notice issued February 16, 2011 the Commission sought industry 
comments. Comments were filed April 8, 2011 and reply comments were 
filed April 22, 2011. The discussion draft's provisions complement 
EISA's efforts to address cyber security of smart grid devices. EISA 
requires the Director of the National Institute of Standards and 
Technology (NIST) to coordinate the development of a framework that 
includes protocols and model standards for information management to 
achieve interoperability of smart grid devices and systems. When the 
Commission finds that NIST's work has led to sufficient consensus, the 
Commission's task is to institute a rulemaking to adopt such standards 
and protocols as may be necessary to insure smart grid functionality 
and interoperability in interstate transmission of electric power, and 
regional and wholesale electricity markets. Because the smart grid 
interoperability standards are developed using a consensus approach, 
similar to NERC's development of reliability standards, the process can 
be slow. Thus the discussion draft provisions would allow the 
Commission, if necessary, to move quickly and effectively to address 
cyber security vulnerabilities that may arise from the implementation 
of smart grid technology.
    Question 12. You testified that you support ``clarifications that 
might better ensure recovery of costs incurred under this 
legislation.'' Can the Commission provide proposed text?
    Answer. As I stated in my testimony, ``it is important that 
entities be able to recover costs they incur to mitigate 
vulnerabilities and threats.'' However, ensuring cost recovery is 
complex because the affected utilities include not only public 
utilities regulated under sections 205 and 206 of the Federal Power Act 
but also non-public utilities. Also, some utilities charge cost-based 
rates while others charge market-based rates. Given these complexities 
and others, I do not have specific text to suggest at this time, but 
the affected utilities may have considered this issue in more depth.
    Question 13. At the May 5th hearing, you testified that FERC should 
only get out in front of the ERO in ``limited circumstances.'' Please 
elaborate. Can FERC provide the Committee with language to capture only 
these limited circumstances?
    Answer. The discussion draft would authorize the Commission to take 
immediate action to address a cyber security vulnerability, i.e., get 
out in front of the ERO by issuing an interim final rule, only if the 
Commission determines immediate action is necessary. The discussion 
draft language, in subsection (b)(6)(B), appropriately frames these 
``limited circumstances'' as those of immediacy. To clarify this point, 
however, this subsection could be modified by adding the following at 
the beginning of subsection (b)(6)(B): ``Notwithstanding paragraph (A). 
. ..''
    Question 14. The Energy Committee's discussion draft is an 
electricity-sector only cyber piece. Does FERC prefer a comprehensive, 
government-wide approach to cyber security issues?
    Answer. FERC has no preference, but if a government-wide course is 
pursued, care should be taken to ensure that the two approaches 
complement each other, preserving or even enhancing FERC's ability to 
regulate effectively under legislation such as the discussion draft. 
The discussion draft would authorize FERC to address cyber security 
vulnerabilities of the Nation's critical electric infrastructure. By 
doing so, the legislation places the responsibility and authority to 
address cyber security vulnerabilities of the electric grid with the 
agency that is already charged with regulating reliability and cyber 
security of the bulk-power system and is therefore experienced and 
expert in theses matters. The discussion draft does not preclude or 
discourage FERC from working with other agencies or even a central 
authority (if Congress or the President elects to establish one) to 
address and mitigate these issues. In fact, in order to be most 
effective, the Commission would need to coordinate closely with other 
agencies and bring all resources and expertise to bear on the 
particular vulnerability or threat presented. FERC already works 
closely with agencies such as DOE, DOD, DHS, NSA, FBI, NRC, CIA in 
these matters and expects to continue to do so if the proposed 
legislation is passed; even in combination with other cyber security 
legislative efforts affecting other industries and agencies.
     Responses of Joseph McClelland to Questions From Senator Udall
    Question 1. Has the Aurora vulnerability been effectively 
mitigated, and how is this verified? What is the factual basis for your 
answer?
    Answer. No, I am not aware of any information showing that it has 
been effectively mitigated. The latest effort to further mitigate the 
Aurora vulnerability involved NERC and several federal agencies. This 
mitigation effort included the controlled release to industry of a 
significant body of technical information about the vulnerability and 
NERC's issuance of a Level 2 Recommendation in October 2010. The Level 
2 Recommendation set forth mitigation steps that asset owners could 
take voluntarily and required feedback on six related questions. Other 
than responding to the questions, no actions described in the 
Recommendation were mandatory. The responses indicated that the 
majority of the companies had not completed their mitigation plans, 
their mitigation efforts or even whether the plans would be effective.
    Question 2. Are the current spare transformer resources, including 
the EEI STEP program, sufficient to mitigate the transformer loss 
scenario presented in the Oak Ridge National Laboratory report from a 
1921-level solar storm (over 300 transformers)? What is the factual 
basis for your answer?
    Answer. I do not have any information to substantiate that current 
spare transformer resources from the EEI STEP program are sufficient to 
mitigate the projected losses from such a storm--up to 368 
transformers.
    Moreover, the EEI STEP program was designed as a transformer asset 
sharing program which assists a participating utility in the 
restoration of electric service in the event of an act of deliberate 
destruction of utility substations. This program is designed to reduce 
the acquisition of transformers by aggregating the needs, in a 
particular voltage class, among utilities that participate in that 
program class. While this program may assist any one utility in 
restoration under a large scale destructive event, it is not designed 
to mitigate the multiple utility losses as in the case scenario 
presented in the Oak Ridge Study.
    Question 3. How effective has the current standards development 
process been in protecting against cyber and other non-cyber threats 
and vulnerabilities to the grid? Is it possible to use this process 
supplemented with NERC's emergency standards process and the Alerts 
process to get the job done?
    Answer. The current standards development process has not resulted 
in cyber security standards that adequately protect the grid against 
cyber vulnerabilities or threats. More than three years has passed 
since the Commission issued Order No. 706 directing significant 
modifications to the eight Critical Infrastructure Protection 
reliability standards. Most of the directed modifications have not been 
made yet. In addition, the level of sophistication of cyber and other 
national security threats has increased and more hacker attention is 
being focused on control systems. NERC's emergency standards process 
and its ``Alerts process'' are not enough to bridge the gap in 
protection. NERC's Alerts are voluntary and are subject to the same 
limitations as the standards such as open disclosure and unpredictable 
results. Further, NERC's emergency standards process calls for an 
urgent action standard to be developed within 60 days and submitted to 
the Commission for approval or remand (which could be further expedited 
by a written finding by the NERC board of trustees that an 
extraordinary and immediate threat exists to bulk-power system 
reliability or national security). Should the Commission approve the 
standard, it becomes mandatory for two years and must be replaced, 
requiring the standards development process to produce a replacement 
standard. Moreover, while it is untested and unclear, NERC's urgent 
action procedures could widely publicize both the vulnerability and the 
proposed solutions before they are even deployed, thereby negating 
their effectiveness. If faced with a national security risk to 
reliability, there may be a need for an order by the Commission to act 
directly; expeditiously, within hours or days, rather than weeks or 
months; and confidentially, in a manner that protects certain 
information from public disclosure. Thus, even with NERC's emergency 
standards process and Alerts process there is a continued need for a 
process to mandate immediate and confidential security measures. The 
best method for adopting and implementing mandatory and confidential 
security measures quickly is through direct federal agency action.
    Responses of Joseph McClelland to Questions From Senator Portman
    Question 1. Is it your understanding that the joint discussion 
draft pertaining to cyber-security of critical electric infrastructure 
would extend the jurisdiction of the Federal Regulatory Commission to 
include distribution of assets for purposes of ensuring reliability 
standards are adequate to protect Critical Electric Infrastructure?
    Answer. Yes, see my response to Senator Murkowski's Question No. 2. 
Distribution systems and assets would be included only if their 
incapacity or destruction would ``have a debilitating impact on 
national security, national economic security, or national public 
health or safety.''
    Question 2. Since distribution assets are generally under the 
jurisdiction of the states where they are located, do you anticipate 
conflicts with various state laws and regulations or, perhaps, other 
federal initiatives such as interoperability standards for Smart Grid?
    Answer. No. The discussion draft would expand the Commission's 
jurisdiction over certain critical distribution assets for the limited 
purpose of protecting such assets from cyber vulnerabilities. Thus, 
this limited expansion of the Commission's jurisdiction would preempt 
state authority in this discrete area, thereby avoiding any potential 
conflict. With respect to other federal initiatives, the Commission 
would coordinate with other agencies, as necessary, to prevent overlap 
of orders or enforcement actions regarding FERC's responsibility to 
address cyber vulnerabilities. FERC already coordinates with many other 
agencies such as DOE, DOD, DHS, NRC, NSA, FBI and CIA to avoid 
duplicative or conflicting actions.
    Question 3. Should conflicts arise, how do you envision these 
conflicts will be resolved?
    Answer. See above response to your Question No. 2.
    Question 4. Do you believe that FERC jurisdiction over distribution 
of assets is necessary?
    Answer. Without FERC jurisdiction over distribution assets that fit 
the definition of critical electric infrastructure, cyber 
vulnerabilities and threats would not be not be mitigated as proposed 
by this legislation. Similar to how a compromise at the bulk-power 
system level could impact the nation, this subset of distribution 
facilities needs the same level of protection that would be applicable 
to the bulk-power system to deter against having a debilitating impact 
on national security, national economic security, or national public 
health or safety.
    Question 5. What do you think will be accomplished that is not 
already being accomplished?
    Answer. With FERC's experience and expertise of the mandatory 
security requirements to protect the bulk-power system from compromise, 
FERC can provide an effective protection effort. For example, FERC will 
be able to address the protection of distribution-level systems and 
assets, along with their associated physical and virtual connectivity, 
to protect the reliability or operability of the bulk-power system. 
This would translate into having the necessary protection measures for 
certain distribution facilities in concert with measures required for 
the bulk-power system for national security, national economic 
security, or national public health or safety.
    Question 6. The discussion draft permits FERC to issue an interim 
rule if the Electric Reliability Organization fails to meet deadlines 
established by FERC. What do you envision will be the role of the 
Electric Industry in helping FERC to get an interim rule right?
    Answer. FERC's orders and appeals allow the affected industry 
members to participate whenever practical to help ensure that the 
measures contained within an interim FERC rule are appropriate for 
expeditious and effective implementation for security of the bulk-power 
system. FERC's processes allow the affected utilities the option to 
engage in the process and provide their perspective and any alternative 
ideas before they are implemented.
    Question 7. Multiple levels of protection on the electric system 
have significant, additional costs, and may not be the most cost-
effective means of mitigating known vulnerabilities or combating known 
threats. How would you recommend that determinations be made about 
additional security requirements that are ordered to be put in to 
place? Should there be a risk assessment required to determine cost-
effectiveness?
    Answer. The consequences of an entity having an ineffective 
security posture can be catastrophic, reaching far beyond that entity. 
Coordinated and simultaneous cyber attacks meant to cause physical 
damage to large electrical equipment with long lead times for 
replacement can cause prolonged outages for specific areas of the 
country. For this reason, considerations regarding cost effectiveness 
in the cyber security realm are different from the typical cost 
effectiveness that has been considered for more traditional scenarios. 
In most scenarios, the limitations and risks are known and quantifiable 
or at least capable of being estimated based on prior experiences such 
as severe weather. With cyber security, cost considerations should 
consider both the known risks as well as ones that have not yet been 
discovered. In light of these complexities, considerations such as the 
life-cycle of equipment based on its upgradeability and the 
consequences of successfully exploiting any cyber vulnerabilities must 
be considered in addition to more traditional procurement and 
operational cost measures. For example, according to public reports, 
the recent Stuxnet malware exploited several zero-day (previously not 
widely known) software vulnerabilities. Control system owners were not 
even aware of these vulnerabilities until months after Stuxnet was 
launched but their emergence required prompt mitigation regardless of 
the associated costs. Although this threat was mitigated, cyber 
security is not a one-time event. It is a continuing process involving 
technology, security processes and human interaction. Therefore the 
appropriate showing of cost effectiveness is that the measures taken 
fit into a comprehensive security program that involves prevention, 
detection and recovery from a security breach.
    Responses of Joseph McClelland to Questions From Senator Shaheen
    Question 1. I've heard from the NH electric co-operative about 
their concerns in granting FERC authority to regulate at the 
distribution level of our electric system. Regulation at this level is 
traditionally handled by the state. What authority, if any, does FERC 
have right now to regulate distribution facilities in the U.S.?
    Answer. Section 215 of the Federal Power Act expressly does not 
apply to local distribution facilities. These facilities are also 
generally exempt from FERC's rate regulation, although limited 
exceptions apply if the facilities are used in providing FERC-
jurisdictional services. The additional authority over distribution 
facilities proposed in the discussion draft would be very limited in 
nature. It would only allow the Commission to regulate distribution 
facilities that are ``so vital to the United States that the incapacity 
or destruction of the systems and as sets would have a debilitating 
impact on national security, national economic security, or national 
public health or safety.'' In addition, the current proposal would only 
allow the Commission to regulate that discrete set of facilities for 
the purpose of addressing cyber security vulnerabilities.
    Question 2. The current NERC standard development process is a 
``bottoms up'' approach that works with electricity sector experts in 
the U.S. and Canada to develop technical standards that take into 
account the different among more than 3000 individual North American 
utilities. Why does FERC think this should be replaced with a standards 
process that would emanate from Washington, DC?
    Answer. FERC does not think that the current NERC standards 
development process should be replaced. And the discussion draft does 
not eliminate or replace the NERC standards development role. The 
standards development process will continue to be performed by the ERO 
and industry unless there is a need for immediate action. The 
discussion draft would only allow the Commission in very limited 
defined circumstances to directly, quickly and confidentially address 
cyber security vulnerabilities that threaten national security through 
the power grid.
                                 ______
                                 
    Responses of William Tedeschi to Questions From Senator Bingaman
    Question 1. Your testimony states that it may be possible to 
mitigate electromagnetic threats to the power grid through selective 
hardening. Could you describe some of the ways in which utilities could 
selectively harden their systems?
    Answer. The utilities have available two primary opportunities for 
selectively hardening the power grid. (1) They can wait until new 
technologies or planned system upgrades are to be introduced to the 
grid, and then apply some form of EMP hardening requirements that can 
be incorporated in the acquisition process for those new/upgraded 
features to be procured and introduced to the grid. (2) The other major 
possibility is that they can choose to retroactively harden key 
elements of the current grid, by procuring electronics hardware with 
specifically designed hardening features incorporated into the hardware 
design. The former approach is recommended, as adding hardening after a 
system has been fielded is typically more expensive. However, if a 
particular grid element or node is critically important and susceptible 
to EMP threats, then one may wish to retroactively add hardening to the 
existing design and make it more robust to EMP threats.
    There are specific hardening approaches that can be selectively 
employed at the hardware, box, and device levels. The principle that 
applies is to define, anticipate, and plan to harden against select EMP 
threat environments. For highfrequency EMP threats, such as 
unintentional electromagnetic interference or malevolent microwave 
devices, in the many megahertz to gigahertz frequency range, one can 
require new electronics have existing electromagnetic compatibility and 
interference (EMC/EMI) standards incorporated into their design. Such 
standards are published by both national and international 
organizations, based on subject matter expert inputs and endorsed by 
industry, governments, and academia. Hardening features can include the 
following: properly shielded and grounded enclosures; fast-acting over-
current shunts or blocks at points of entry; spark gaps and other over-
voltage protection; better internal design robustness against over-
current and over-voltage conditions, and direct-current or slowly 
varying offsets (such as better design features inside highvoltage 
transformers); and electronic filters that are highly selective in the 
frequencies of electronic transmissions around and into critical grid 
elements or nodes with operating electronics inside. Hardening can also 
include creating a more-robust control system for real-time and near 
real time monitoring and adjusting the actual operation of power flow 
into, over, and out of the grid, to effectively sense, understand, and 
respond to a greater range of off-normal conditions during grid 
operation. Many of these same hardening approaches, and other related 
techniques not mentioned, can also be considered for the low-and 
medium-frequency EMP threats, in the many hertz to megahertz frequency 
range. The type of hardening one might consider employing and at what 
point in the grid's life cycle should be based on a good understanding 
of the EMP threat spectrum, what hardware, device, or electronics box 
is susceptible to EMP attack, and the identified trade-offs in cost, 
benefit, and risk reduction for the various types of possible hardening 
approaches.
    Question 2. Your testimony states that more work is required before 
fully informed decisions can be made about where and to what extent the 
grid should be hardened solely against nuclear electromagnetic pulse 
threats. What kind of information would additional work on 
electromagnetic pulse threats seek to produce? How long would you 
estimate that this study may take?
    Answer. The additional information we recommend to be generated is 
to determine an appropriate set of EMP threat scenarios that could 
adversely affect the power grid, determine if and how the grid is 
susceptible/vulnerable to the established EMP threats, and identify 
appropriate threat mitigation and hardening strategies. This set of 
work (see next paragraph for details) is estimated to require from 2 to 
3 years to accomplish, depending on the number of EMP threat classes 
selected and the amount of technical resolution in the results required 
to reduce existing uncertainties to an acceptable level and provide a 
level of riskbased confidence in the current and projected resilience 
of the power grid.
    The full spectrum of possible nuclear high-altitude EMP threats 
should be examined and characterized, beyond what has been considered 
to date, namely, only the postulated worst-case nuclear EMP threats. 
The resulting over-current and over-voltage insults to the grid will be 
of lesser magnitude and total energy content than the worst-case 
assumptions that have been made to date, but the worst-case system 
response may not always be driven by the largest magnitude EMP 
conditions. The spectrum of possible conventional EMP threats, both 
malevolent and unintentional, should also be examined and 
characterized. In particular, what are the technical characteristics of 
all the postulated EMP threats in terms of their waveforms, frequency 
content, and electric field strengths? These EMP threat waveforms, 
along with those postulated from solar-induced geomagnetic storms, 
should be peer reviewed and validated by a panel of knowledgeable 
subject matter experts. Next, these EMP threat waveforms can be 
projected onto selected key elements of the U.S. power grid, and the 
induced over-current/over-voltage insult estimated by using a 
combination of computerbased modeling and simulation, along with 
experimental testing. Threatened key elements of the grid, given a 
particular EMP threat scenario, can be identified from our knowledge of 
the grid's network topology and unique design features. Once the 
electrical insults for the key grid elements are determined, one would 
ascertain if the element is susceptible to upset or burnout, or other 
possible adverse effects. Thresholds for upset and burnout would be 
determined through a combination of computational and experimental 
modeling and simulation, and by using a somewhat different set of tools 
and subject matter experts. Given a projected set of upset and/or 
burnout conditions, one would finally estimate the net cumulative 
effect (or consequence) on the power grid given the particular EMP 
threat waveform that was projected against a particular set of grid 
elements. Once the complete set of risks to the power grid is 
characterized and better understood--given the full spectrum of 
possible EMP threats and resultant possible damage responses and 
ultimately consequences to the grid's continued operability--one can 
make more informed decisions on whether, where, and to what extent to 
harden the grid against certain classes of EMP threats. All the work 
results should be peer reviewed and validated by appropriate subject 
matter experts, and relevant work conducted in the past should be 
utilized to the maximum extent possible.
   Responses of William Tedeschi to Questions From Senator Murkowski
    Question 1. Your testimony notes that more study is needed to 
characterize and simulate the susceptibility of the power grid to EMP 
attacks, and that existing EMP reports should not be the basis for any 
short-term national decisions. Is it premature to develop hardening 
standards to mitigate an EMP attack?
    Answer. Yes, today it is premature to develop hardening standards 
for the power grid against EMP threats, both malevolent and non-
malevolent (i.e., unintentional and naturally occurring geomagnetic 
threats). The spectrum of possible EMP threats has not been defined and 
characterized, and neither has the susceptibility of key grid elements 
to EMP-induced over-current/over-voltage insults, along with the 
possible resultant damage and consequences to the continued reliable 
operation of the grid. For example, the 2010 FERC-sponsored study on 
EMP threats to the power grid suggests that over 300 high-voltage (HV) 
transformers would be at risk for damage or failure by a 1-in-100 year 
geomagnetic storm. This damage estimate appears to have been based 
primarily on one data point, an estimated 90-amp over-current insult to 
an HV transformer that failed at the Salem Nuclear Plant during the 
1989 geomagnetic storm. Applying that particular over-current damage 
threshold, based on little analysis and no experimental testing, to all 
HV transformers in a large-area geomagnetic storm results in great 
uncertainty about the total number of at-risk HV transformers. We 
assess that this is a worst-case approach to predicting when HV 
transformers could fail due to over-current insults. The Salem Nuclear 
Plant HV transformer could have failed for a number of reasons. We 
recommend that the specific reasons for that failure, as well as 
consideration of the suite of other possible failure thresholds and 
conditions, should be better understood so that, ultimately, a more-
balanced damage criteria can be established, which will result in a 
better estimate of the potential damage and consequences to the grid, 
not only from geomagnetic EMP threats, but also from other EMP threats. 
We recommend more analysis, experimentation, and assessment be 
performed to determine how and why HV transformers can fail, along with 
other key elements of the grid. There simply is not enough data and 
understanding at this time on how and why key power grid elements can 
fail to the spectrum of possible EMP threats. Once the additional data 
and understanding are derived, a defensible technical basis exists for 
developing and implementing a national hardening strategy.
    Question 2. Do parts of the power grid, and particularly 
transformers, based on age and design, react differently to an EMP 
attack? Do we need to treat all of them in the same manner?
    Answer. Yes, every element in the power grid when exposed to EMP 
attack will react differently to the over-current/over-voltage insult 
caused by the EMP attack. How each grid element will react depends on a 
number of factors: the element's design, as-manufactured configuration, 
current configuration if it has been changed or modified, age and 
location within the grid topology; installation details; how the EMP 
threat irradiates and couples electrical energy into the exposed 
element; how that electrical energy insult flows within the element and 
deposits its energy along the way; and the strength of the element to 
withstand the flowing and deposited electrical energy. The full range 
of possible outcomes of the exposed grid element to the EMP attack 
include temporary damage or upset, permanent damage, and possibly even 
no damage or adverse effect. One must also factor in the interplay of 
how one element's response to the EMP attack will affect the operation 
of other elements that are connected to it. As far as treating each 
element in the same manner, one must demonstrate a sufficient 
understanding of the differences between each element of the grid, and 
how they will respond to the EMP insult both in their own unique way 
and synergistically together, if one is to have confidence in estimates 
of how an EMP attack might affect the grid. EMP effects researchers use 
analysis, modeling, and experimental testing to conduct detailed 
characterizations of the design and key operational functioning aspects 
of all the elements making up a network and of how the element (and 
ultimately the grid) will react to the deposited electrical energy from 
the EMP attack. Even within a population of similar grid elements, for 
example 300 HV transformers, there are enough differences in the design 
and constituent materials that go into the element and how the element 
was manufactured that the element's response to the EMP insult can vary 
by more than an order of magnitude, and sometimes the failure 
distribution follows well-established statistical distributions; at 
other times, it does not. The result is that for the same EMP attack, 
anywhere from a small fraction (or none) to a large percentage of the 
element's population can be adversely affected. The predicted damage 
depends very heavily on when and how the transformer (or element) might 
fail, and more than one data point and significant analysis and 
modeling are required to get a level of confidence in the expected 
damage prediction. It is this analytical and experimental modeling and 
simulation phase of characterizing the grid element and interconnected 
network that takes a while and a certain amount of resources to 
establish a level of understanding and confidence in the result. In the 
absence of data and understanding, and given limited time and 
resources, researchers typically employ a worst-case approach that 
unfortunately can lead to a higher cost impact and dire predictions 
that are not technically defensible, and should not be the basis for 
important national decisions of this type.
    Question 3. You mentioned that the U.S. electric power grid 
contains some level of inherent hardness against an EMP impact, and 
that the grid is already somewhat hardened against the E2 and E3 
components (similar to lightning strikes (E2) and solarinduced 
geomagnetic storms (E3)). However, since the E1 frequency strikes 
first, how vulnerable is the grid to the E2 and E3 impacts if it has 
been disabled by the E1 component? Should our focus be on the E1 
frequency? Or should it be on the E3 component since you believe a 
solar-induced geomagnetic storm is more likely than a nuclear-induced 
EMP attack?
    Answer. Yes, for nuclear-detonation-generated EMP, the early-time 
E1 component, if strong enough, could do damage first to some grid 
elements or control systems, potentially resulting in the later-in-time 
E2 and E3 components doing additional damage to the grid. In other 
cases, the E1 component may not be strong enough to do any damage, but 
the E2 and E3 components will insult the grid, potentially doing 
damage. Again, details of the nuclear detonation will affect the extent 
and strength of the EMP effects and are relevant to whether damage 
might occur. In some nuclear scenarios, none of the E1, E2, and E3 
components would be expected to do damage on the power grid. In 
general, the E3-like component that results from geomagnetic storms 
occurs naturally and with an established periodicity. It is just a 
question of when the storm will occur, how strong it may be, and how 
long the created electromagnetic field strengths would last, and then 
whether the power grid is susceptible to them and what might be the 
possible damage effects. The nuclear E1, E2, and E3 components are 
human-made, and are assessed to be of low likelihood of occurrence, as 
compared with geomagnetic storms and some of the electromagnetic 
interference threats. We should also consider human-made malevolent 
EMP-generating devices, which can be used to exacerbate a particular 
frequency range, or multiple ranges. You are exactly right: The 
combination of imposed reduction of capability from one frequency range 
and imposition of a different frequency range is another topical area 
that should be included in studies of system response.
    Question 4. What different types of protection are needed and 
available for the various types of potential EMP attacks or geomagnetic 
disturbances?
    Answer. As noted above in the answer to Senator Bingaman's first 
question, there are many hardening approaches, both passive and active 
that could be considered and applied to the power grid that would add 
an elevated level of resilience against EMP threats. Once the EMP 
threats have been sufficiently characterized and an assessment made 
with at least a moderate level of confidence of the grid's 
susceptibility and resultant damage to such threats, then costeffective 
risk-based decisions can be made regarding a national hardening 
strategy and specific hardening measures to employ. Our recommended 
approach is to characterize the full spectrum of EMP threats, both 
intentional (nuclear and nonnuclear) and unintentional (electromagnetic 
interference) human-made and naturally occurring (geomagnetic). Next, 
we should more fully characterize the grid's susceptibility to 
potential damage by those classes of EMP threats (through analytical 
and experimental modeling and simulation), and identify possible 
techniques to harden against the identified threats. At a minimum, we 
should ensure that we are hard against unintentional human-made 
interference (which is a threat now) and have an acceptable level of 
resilience against geomagnetic EMP threats (which is a work in 
progress). Next, we should establish how resilient or susceptible/
vulnerable the grid is to the human-made EMP threats, and then finally 
make risk-based national and/or industry-level decisions on whether and 
to what extent to harden certain elements of the power grid against the 
broader set of EMP threats. That said, risk-based analysis and 
assessment approaches should continue to be applied looking for key 
grid elements and nodes that might be vulnerable to specific EMP 
threats and which might need to be hardened sooner rather than later.
    Question 5. Are smart grid technologies that are currently being 
distributed across the country and placed into service required to have 
hardened features to protect against EMP attacks?
    Answer. Our understanding is that smart grid technologies that are 
currently being considered and possibly distributed across the country 
and placed into service are not required to have hardening features to 
protect against EMP attacks. The smart grid technologies at a minimum 
should have a level of hardening against lightning and unintentional 
electromagnetic interference (EMI) based on some combination of 
national and international EMI and electromagnetic compatibility (EMC) 
standards. If EMI and EMC standards are being considered and included 
in new smart-grid technologies, then they will have some level of 
resilience against E1-type EMP effects. How much resilience there is or 
might be can be determined through a combination of analytical and 
experimental modeling and simulation. Because possible smart-grid 
technologies are still under development, are generally small and 
likely will be mass-produced and therefore lower in per unit cost than, 
for example, HV transformers, there is an excellent opportunity here to 
consider and possibly include some form of costeffective, EMP hardening 
features to protect against E1-and E2-like EMP threats.
                                 ______
                                 
    Responses of Patricia Hoffman to Questions From Senator Bingaman
    Question 1. Last year, Secretary Chu announced funding for the 
National Electric Sector Cyber Security Organization. What is the role 
of this organization vis-a-vis North American Electric Reliability 
Corporation (NERC), NERC's standards development process, and the 
Federal Energy Regulatory Commission?
    Answer. The Energy and Water Development Appropriations and Related 
Agencies Appropriations Act, 2010 (P.L. 11-85) directed that ``...the 
Secretary shall establish an independent national energy sector cyber 
security organization...'' In response, the Department of Energy issued 
a Funding Opportunity Announcement on March 31, 2010. Two organizations 
received awards: EnergySec was selected to form the National Electric 
Sector Cybersecurity Organization (NESCO). The Electric Power Research 
Institute (EPRI) was selected as a research and analysis resource to 
this organization, and is referred to as the National Electric Sector 
Cybersecurity Organization Resource (NESCOR).
    The purpose of the award was to ``establish a National Electric 
Sector Cyber Security Organization that has the knowledge, 
capabilities, and experience to protect the electric grid and enhance 
integration of smart grid technologies that are adequately protected 
against cyber attacks.'' In addition, the organization ``will serve as 
a focal point to bring together domestic and international experts, 
developers, and users who will assess and test the security of novel 
technology, architectures, and applications.'' When fully operational, 
NESCO/NESCOR will provide early warnings to and share best practices 
with, all parts of the sector (generation, transmission, distribution), 
not just the bulk power system. NESCO/NESCOR will provide comments to 
the North American Electric Reliability Organization (NERC) standards 
development process as appropriate and share compliance information in 
the sector, but does not enforce or regulate the standards.
    NERC's mission is to ensure the reliability of the North American 
bulk power system. NERC is the electric reliability organization (ERO) 
certified by the Federal Energy Regulatory Commission (FERC) to 
establish and enforce reliability standards for the bulk-power system. 
NERC develops and enforces (following approval by FERC) reliability 
standards, including cyber security standards; monitors the bulk power 
system; and educates, trains and certifies industry personnel. NERC is 
an authoritative body and can mandate actions by the registered 
entities. NESCO/NESCOR is a voluntary body that can provide guidance.
    Question 2. In February, the Department of Energy launched an open 
collaboration with the National Institute of Standards and Technology 
and the North American Electric Reliability Corporation to ``develop a 
cyber security risk management process guideline for the electric 
sector.'' Could you describe the objectives of this collaboration and 
how its work will filter into the NERC standards development and 
approval processes?
    Answer. DOE, in coordination with the National Institute for 
Standards and Technology (NIST) and NERC, is leading a public and 
private sector collaboration to develop a risk management process 
guideline to provide a consistent, repeatable, and adaptable process 
for the electric sector, and enable organizations to proactively manage 
cyber security risk. The objective of this collaboration is to build 
upon existing guidance and requirements to develop a flexible risk 
management process tuned to the diverse missions, equipment, and 
business needs of the electric sector for application throughout the 
sector, and to bridge the divide between security for industrial 
control systems and information technology. The risk management process 
guideline is currently in the drafting stage. Representatives from the 
NERC standards development team are participating in drafting of the 
risk management guideline. As this effort gets further along we will 
better be able to assess how it may factor into the NERC standards 
development and approval processes.
    Question 3. Your testimony states that the Department of Energy and 
the Department of Defense have signed a memorandum of understanding 
that is intended to enhance national energy security. The Discussion 
Draft directs the Secretary of Defense to prepare a plan to protect 
power supplies to national defense facilities. How will this memorandum 
help the Secretary of Defense in creating this plan?
    Answer. The Department of Energy and the Department of Defense 
(DOD) energy security Memorandum of Understanding (MOU) provides for 
collaboration between the two agencies on energy security research and 
development, and energy assurance. This may include projects on power 
electronics, microgrids, cyber security, electromagnetic pulse, smart 
grid, and storage which will benefit from DOE's energy related 
expertise. An Executive Committee has been formed to oversee all 
activities, including energy security. The Executive Committee is 
chaired by me, as the Assistant Secretary for Electricity Delivery and 
Energy Reliability, DOD's Assistant Secretary of Defense for 
Operational Energy Plans and Programs, and DOD's Deputy Under Secretary 
of Defense for Installations and Environment. The remainder of the 
Executive Committee is comprised of key energy decision makers from 
both departments.
    While this MOU is not focused on cyber security for the grid, it 
provides a structure to collaborate on a comprehensive proactive 
approach that reduces the impact of power loss to defense critical 
assets, considering both mitigation and response measures to ensure 
vital defense capabilities are not disrupted.
    Question 4. Do you think each state has adequate cyber expertise to 
protect distribution-level systems and assets that are so vital that 
their loss would have a debilitating impact on national security, 
national economic security, or national public health or safety?
    Answer. Local distribution companies, and the Public Utility 
Commissions (PUCs) that regulate them, are the entities at the State 
level that are responsible for reliable electric service within states, 
including protection from service disruptions caused by cyber attacks. 
It is DOE's understanding that the utilities and PUCs understand, and 
are addressing cyber security concerns. States, similar to the Federal 
government and the private sector, are challenged by the increasing 
sophistication of the threat to maintain a level of cyber security 
expertise adequate to manage cyber security risks.
    State and local governments are very concerned about the impacts of 
cyber attacks and are taking steps to address such risks. The 
Department also recognizes the need to mature and increase the level of 
cyber security expertise within the states and the electric sector. The 
Department's Office of Electric Delivery and Energy Reliability (OE) 
works closely with organizations, such as the National Association of 
Regulatory Utility Commissioners (NARUC), the National Association of 
State Energy Officials, the National Conference of State Legislatures, 
the National Governor's Association, and Public Technology Institute 
that are helping State and local agencies to address cyber security 
issues. These organizations have worked with OE to develop technical 
briefs, education forums, workshops, and exercises on cyber security 
and other concerns related to grid modernization. OE has been working 
with these organizations to support and sponsor activities such as the 
NARUC security boot camp provided for PUCs and their staff at the 2011 
NARUC winter meeting, and providing technical assistance to PUCs 
related to cyber security for the smart grid.
    Through the American Recovery and Reinvestment Act, OE provided 
funds to forty-eight states and territories plus forty-three cities to 
prepare energy assurance plans to better respond to energy emergencies, 
including addressing cyber security. States have recently completed 
draft emergency assurance plans all of which address cyber security. 
Recovery Act funds are also assisting state public utility commissions 
directly, providing funds to hire new staff and retrain existing 
employees to ensure they have the capacity to quickly and effectively 
review proposed electricity projects, including the cyber security 
aspects of those projects.
   Responses of Patricia Hoffman to Questions From Senator Murkowski
    Question 1. Currently, how do DOE and FERC work together to assess 
threats and vulnerabilities? Have there been any problems with this 
working relationship? How do the two agencies coordinate with the 
government's intelligence agencies?
    Answer. DOE and the Federal Energy Regulatory Commission (FERC) 
coordinate on an ongoing basis depending upon the specific nature of 
the critical infrastructure protection activity. Most recently, DOE, 
FERC, and the Department of Homeland Security (DHS) sponsored a set of 
reports\1\ which provided a technical threat assessment of geomagnetic 
disturbances and electromagnetic pulse, providing a more comprehensive 
understanding of the issues. FERC is also participating in the effort 
led by DOE, along with the National Institute of Standards and 
Technology (KIST), DHS, and North American Reliability Corporation 
(NERC), to develop a risk management process for the electricity sector 
specifically aimed at providing the sector with a common and repeatable 
cyber security risk management process.
---------------------------------------------------------------------------
    \1\ Prepared by Metatech Corporation under the direction of Oak 
Ridge National Laboratory. Available at http://www.orni.govisci/ees/
etsd/pes/ferc_ernp_gic.shtml
---------------------------------------------------------------------------
    Threats to the electricity sector are an operational issue and thus 
should principally be handled by DOE as the Sector Specific Agency 
(SSA) under Homeland Security Presidential Directive 7 and the National 
Infrastructure Protection Plan (NIPP). Effectively responding to 
potential threats to the sector requires an operationally-oriented 
organization with established coordination mechanisms with DHS and the 
intelligence community to properly assess and respond to a threat. DOE 
is able to draw from a variety of resources, including its Office of 
Intelligence and the resources of the National Laboratories to 
effectively assess and respond to emerging threats to the sector. This 
is all done in close coordination and collaboration with DHS, FERC, and 
other Federal partners under the National Cyber Incident Response Plan 
and most importantly, in coordination with the electricity sector.
    To be effective in its roles as the SSA, DOE depends upon and 
constantly works to build and strengthen its relationships with 
utilities and the broader electricity sector stakeholder community. DOE 
fosters collaboration and voluntary initiatives to further its goal of 
a reliable and resilient power grid. Given FERC's role as an 
independent regulator, DOE has found that discussions with industry can 
sometimes be more open and frank if FERC is not present. This is 
consistent with the philosophy of the NIPP which sought to facilitate 
open and candid conversations on infrastructure security issues under 
the public-private partnership.
    Question 2. The Energy Committee's discussion draft is an 
electricity-sector only cyber piece. Does the Department prefer a 
comprehensive, government-wide approach to cyber security issues?
    Answer. Yes, recognizing the interdependencies between different 
sectors it is important to have a comprehensive, government-wide 
approach to cyber security. The Administration has proposed 
comprehensive cyber security legislation (http://www.whitehouse.gov/
ombilegislative_letters).
    Question 3. Recently, Howard Schmidt, the White House cyber 
security coordinator, made headlines when he said that the risks of 
cyber attacks is often overblown and that cyber attacks are the ``risk 
of doing business.'' In light of these statements, does the 
Administration believe additional Federal authority is needed in the 
cyber security arena?
    Answer. We often associate high profile events with the term 
``cyber attack,'' but the reality is our networks face a spectrum of 
risks, many of which are less spectacular yet more pervasive. Our 
federal networks, as well as many of those that support our critical 
infrastructure are probed thousands of times per day. Managing and 
responding to these risks has become a core element of how we as a 
nation do business, and an important aspect of ensuring the reliability 
of the grid. Cyber security standards can provide an effective baseline 
to address known vulnerabilities.
    Managing the risk from unknown vulnerabilities and dynamic threats 
are best addressed by timely sharing of relevant and actionable threat 
information, the use of risk management, and effective incident 
management and response. The electricity sector must have the ability 
to assess, respond, and mitigate the impacts of an event in a timely 
manner.
    Question 4. I understand that DOE is working on the need for 
domestic manufacturing of transformers. Please elaborate on the problem 
and what is being done on this issue.
    Answer. The U.S. is heavily dependent on imports for large 
transformers above 345kV. In addition, limited manufacturing capacity 
results in long lead times for delivery of high voltage transformers, 
often over 12 months. This situation is of concern to the Department.
    Import dependency is of concern to the utility industry, as well as 
DHS/FEMA and DOD. DOE has held discussions with several transformer 
manufacturers, including ABB, Efacec, Waukesha and Areva, and 
additional discussions are planned. The DOE-North American Electric 
Reliability Corporation (NERC) workshop report on High-Impact, Low-
Frequency Event Risk to the North American Bulk Power System (June 
2009) identified this as an important concern. Large transformer 
concerns were also identified in both the 2007 and 2010 Energy Sector 
Specific Plans. Even with the successful start up of new manufacturing 
facilities, only a small portion of U.S. utility annual demand is 
likely to be rnet. Additionally, a significant national level disaster 
impacting a large number of transformers would certainly exceed 
domestic manufacturing capability and would likely require the global 
market to significantly ramp up production to meet the demand.
    In 2009 a new plant was opened in Georgia by Efacec and two other 
companies (Mitsubishi and Hyundai) have announced new plants to be 
built in the U.S. A domestic manufacturer Waukesha Electric Systems has 
begun to expand their production capacity to 500kV and 765kV units in 
their Waukesha Wisconsin facility. DOE has also partnered with the 
Department of Homeland Security to develop and test a lighter weight 
and more transportable, temporary transformer that could be used in 
emergencies.
    Question 5. What is the Administration's position on the 
bifurcation of federal authority set forth in the discussion draft? Do 
you believe FERC needs additional authority to address vulnerabilities 
or is the existing Section 215 stakeholder process adequate?
    Answer. The Administration does not have a position on this 
particular discussion draft, but has proposed comprehensive cyber 
security legislation (http://vvww.whitehouse.gov/
ombilegislative_letters).
    With respect to emergency authority, when the Department of Energy 
and FERC were established by the Department of Energy Organization Act, 
the Secretary was given the authority to issue orders during an 
emergency for the interconnection of facilities, generation, delivery, 
interchange, or transmission of electric energy. FERC was given Federal 
Power Act (FPA) authority to establish, review and enforce rates and 
charges for the transmission and sale of electricity. DOE believes that 
these divisions of FPA authority properly place the regulatory rate 
making responsibilities of the FPA with FERC, and the authority to make 
national emergency determinations with DOE.
    We believe that emergency authority is appropriately placed with 
the head of a cabinet department who is fully accountable to the 
President. DOE and DHS have the capability to develop or obtain 
knowledge with respect to threats or vulnerabilities that might give 
rise to the need for an emergency order.
    Question 6. Do you agree with Mr. Tedeschi from Sandia National 
Laboratory that the susceptibility of the power grid to EMP attacks is 
not well characterized and should be further addressed with computer-
based simulations and experimental testing?
    Answer. Yes, we absolutely agree with the concerns raised in Dr. 
Tedeschi's testimony. As he noted ``Assumptions about age, design, and 
failure thresholds of transformers introduce additional uncertainty and 
are based on limited samplings of transformers of a particular type and 
from a clear source. All assumptions point to large uncertainties in 
the output results and interpretations from the model; therefore, 
statements on the number of 'at-risk' transformers and the severity of 
the regional damage should be viewed as illustrative only.''
    Computer-based simulations are needed to support electric utility 
adoption of technological approaches to reduce the threat of electro-
magnetic pulse (EMP) attacks and solar storms. These will assist 
utilities to develop an understanding of the potential impact of EMP on 
the power grid and its components. Utilities run computer simulations 
to help optimize power production and transmission and to avoid 
failures. Ultimately, technological solutions will require research and 
development and careful testing and evaluation to ensure their 
effectiveness.
     Responses of Patricia Hoffman to Questions From Senator Udall
    Question 1. Has the Aurora vulnerability been effectively 
mitigated, and how is this verified? What is the factual basis for your 
answer?
    Answer. The Aurora vulnerability has been effectively studied and 
analyzed. The fundamental principles behind the Aurora vulnerability 
are well understood by experienced and practicing utility engineers and 
operators. Assessment of the effectiveness of the mitigations is 
currently underway.
    In early 2011, the ES-ISAC issued an Essential Action Advisory to 
all NERC registered entities to provide the additional technical 
details that described the nature of the vulnerability and assess the 
current status of mitigating actions implemented by registered entities 
through this action. NERC will also use the information to determine 
what additional actions may need to be taken. The Department 
anticipates the Aurora vulnerability will be addressed by NERC entities 
and verified.
    In 2007, DHS, DOE, other Federal agencies, and NERC' s Electric 
Sector Information Sharing and Analysis Center (ES-ISAC) became aware 
the Aurora vulnerability which, if exploited by an attack, could cause 
significant physical damage. The ES-ISAC issued an advisory to describe 
the mitigation measures that electric sector owners and operators 
needed to implement to reduce the risks associated with the Aurora 
vulnerability. Unfortunately at that time, the supporting technical 
documents could not be released to the owners and operators due to the 
documents' classification level.
    The Department has supported NERC and the sector through the 
development of the 2011 Essential Action Advisory and its accompanying 
documents. The Department continues to support Department of Defense 
efforts to mitigate the Aurora vulnerability and protect its military 
installations.
    Question 2. Are the current spare transformer resources, including 
the EEI STEP program, sufficient to mitigate the transformer loss 
scenario presented in the Oak Ridge National Laboratory report from a 
1921-level solar storm (over 300 transformers)? What is the factual 
basis for your answer?
    Answer. The EEI STEP program is focused on sharing of spare 
transformers to assist recovery from a terrorist attack. EEI reports 
that some 50 utilities representing approximately 70 percent of the 
electricity customers are participating in this program. The vast 
majority of smaller utilities including municipals and coops are not 
participating.
    The adequacy of existing spares to address major transformer 
outages will depend on many factors including the geographic impact, 
the type of transformers, the age and health of the transformers. But, 
it is clear that major transformer losses from a solar storm of 
historic magnitude would present an enormous challenge to the sector's 
ability to respond to and recover from such an event. The North 
American Electric Reliability Corporation (NERC) is addressing the 
spare transformer issue and has created a Spare Equipment Database Task 
Force, as well as, a Task Force on Geomagnetic Disturbances. NERC will 
seek information from all of its member companies. Several transformer 
manufacturers including ABB and Siemens are participating on the NERC 
task forces as well.
    There are limited modeling studies to provide a factual basis to 
estimate possible electricity grid impacts to a 1921 magnitude solar 
storm. Utilities in Canada, the United States and Europe have begun to 
take steps to reduce the potential impact of such large solar storms. 
The North American Electric Reliability Cooperation has recently issued 
an alert to its members on steps that they may take to reduce potential 
impacts on their equipment and the grid. [See: http://www.nerc.com/
fileUploads/File/Events%20Analysis/A-2011-05-10- 01_GMD_F1NAL.pdf]. The 
alert was the result of a 2-day NERC workshop in April 2011 to discuss 
utility approaches to address the issue. DOE is working with 
electricity industry partners to increase attention and to encourage 
the use of best practices.
    Question 3. How effective has the current standards development 
process been in protecting against cyber and other non-cyber threats 
and vulnerabilities to the grid? Is it possible to use this process 
supplemented with NERC's emergency standards process and the Alerts 
process to get the job done?
    Answer. What is most important is that a structure exists to 
support an ``electric sector incident response plan'' to respond to 
events. A combination of the NERC standards and Alerts process, timely 
and actionable information sharing, and emergency authority will 
provide a comprehensive approach to managing cyber security threats and 
vulnerabilities. Standards ensure a level of quality, compatibility, 
safety, and connectivity with other equipment and processes.
    Standards must be widely accepted and commonly trusted to be 
effective. They also provide the foundation for further innovation, or 
as in the case of security or safety, a minimum level of requirements. 
As a result, standards development is often a time-consuming process. 
Development of security standards relies on awareness and consensus of 
the threat environment. This is a challenge to the electric sector due 
to the dynamic nature and speed of cyber threats that necessitates 
access to timely and actionable threat information. This challenge 
makes it difficult to adequately assess impact to inform risk decisions 
on investment in cyber security improvements beyond what is needed for 
compliance.
    Responses of Patricia Hoffman to Questions From Senator Portman
    Question 1. It is my understanding that the discussion draft grants 
the Secretary of Energy the authority to require others to take actions 
if 'the Secretary determines that immediate action is necessary to 
protect critical electric infrastructure from a cyber security 
threat.'' The Secretary may then follow a procedure to make these 
requirements permanent. In your opinion, what sort of event would 
trigger such an action by the Secretary?
    Answer. The discussion draft grants the Secretary of Energy the 
authority to require others to take actions if the Secretary determines 
that immediate action is necessary to protect critical electric 
infrastructure from a cyber security threat.'' The type of event that 
would trigger such action by the Secretary would be an event that poses 
a significant risk to the operation of critical electric 
infrastructure, such as high altitude electromagnetic pulse, or a cyber 
attack. The determination of whether to use emergency authority would 
be based on analysis of the threat, evaluation of risk and 
consequences, and the potential for impact to electric sector and 
potential other sectors of the economy. Additionally, use emergency 
authority would be determined in consultation with other sector 
specific agencies that could be potentially impacted.
    Question 2. Why would the Secretary make a requirement permanent?
    Answer. It is DOE's understanding of the discussion draft that 
cyber security mitigation actions required by an emergency order would 
not be permanent, but limited to 90 days unless renewed. However, where 
appropriate these actions could be incorporated through the accelerated 
standards or NERC Alerts process.
    Question 3. Multiple levels of protection on the electric system 
have significant, additional costs, and may not be the most cost-
effective means of mitigating known vulnerabilities or combating known 
threats. How would you recommend that determinations be made about 
additional security requirements that are ordered to be put in to 
place? Should there be a risk assessment required to determine cost-
effectiveness?
    Answer. Risk assessments should be used to determine cost 
effectiveness of security requirements. The NERC-CIP security 
requirements were developed through an industry-led collaborative 
effort that considered risk assessments and the cost-effectiveness of 
these requirements. Additionally, the NIST ``Cyber Security Guidelines 
for the Smart Grid'' NISTIR 7628 provides guidance on defense-indepth 
strategies and risk assessments. Federal (FERC) and State regulators 
should consider cost and assessment of risk, including impact, when 
determining additional security requirements.
    Responses of Patricia Hoffman to Questions From Senator Shaheen
    Question 1. As the witnesses have noted, the electrical grid is a 
very tempting target for cyber attacks in the United States. According 
to the U.S. Computer Emergency Readiness Team, cyber security incidents 
involving government computers have gone up by a factor of 10 in the 
past five years. Are electrical utilities and the grid seeing the same 
sort of rapid growth in the cyber security threat to their facilities?
    Answer. In general, the utilities like government agencies face 
thousands of scans and probes every week. For example, during periods 
of heightened awareness, a large utility may have to analyze millions 
of log entries in a day to ensure that their defenses have not been 
breached. The spectrum of cyber security incidents ranges from 
reconnaissance-type scans and probes of corporate networks to an attack 
such as Stuxnet that reaches into more isolated control systems 
networks.
    The number of cyber security incidents is not necessarily an 
indication of intent or likelihood of a significant attack. The 
Department, DHS, NERC, and FERC all receive different levels of 
specificity in reporting on cyber incidents based upon their different 
responsibilities. In addition, larger utilities have security 
operations center that monitor and track cyber incidents. For example, 
DOE funded an effort to develop a cyber security operations center for 
a major utility. This effort has been successful in bringing together 
trusted entities outside of the utility's region to share information 
about cyber incidents. The lesson learned is the large investment in 
time, resources, and relationship-building is necessary to develop 
enough trust to share the information.
    In addition to building trust, consistently defining cyber security 
incidents and sharing threat information between utilities is a 
challenge. Currently, there is no collective, consensus-based cyber 
threat assessment. DOE works with several entities to determine and 
assess the cyber security threats to the sector. Internal DOE resources 
provide expertise and information including the Office of the Chief 
Information Officer which provides cyber security expertise and threat 
information; the Office of Intelligence which provides early warnings 
and indicators, and intelligence reports directly related to the energy 
sector; and the National Laboratories which provide both cyber security 
expertise and threat information. DOE also partners with NESCO/NESCOR, 
DHS, NERC, the intelligence community, law enforcement, electric 
utilities, and cyber security consultants to determine and assess the 
threats, and share that information with the sector.
    Question 2. Given that we haven't had a major disruption of 
electrical service due to a cyber attack, does this mean the current 
standards process is working?
    Answer. Standards are effective in providing baseline levels of 
performance, but standards alone are not effective in facilitating or 
encouraging an adaptable and agile cyber security organization. They 
can also lock organizations into making cyber security decisions that 
may not be optimal for their system in order to comply with the 
prescriptive nature of a standard. The standards development process 
under section 215, because of its need to reflect multiple stakeholders 
with different cyber security issues and concerns, is an inherently 
slow process and thus will never be able to fully counter the threats 
posed to the sector. In this dynamic threat environment, new threats 
emerge without warning utilizing new attack vectors. Thus, 
organizations must be vigilant and adaptable in monitoring their 
systems and implementing proper controls in response to current 
threats. A standard cannot achieve this outcome. A combination of NERC 
standards and Alerts process, timely and actionable information 
sharing, and DOE emergency authority would provide a more comprehensive 
approach to managing cyber security threats and vulnerabilities.
    As we have seen from the Stuxnet malicious code, the capability and 
intent to launch targeted cyber attacks on critical infrastructure and 
other information technology exists. Public facing information systems 
are constantly under attack across all critical infrastructures. The 
absence of a successful attack on our Nation's electricity 
infrastructure may mean that electric power providers have been 
vigilant in protecting their systems, or it may be that adversaries 
have chosen not to attack at this time. Because of the dynamic nature 
of the threat environment and the variety of threat actors, it is 
challenging to know if and when an attack may occur on the grid. Thus, 
the electricity sector must be equipped to constantly adapt and defend 
their systems from this evolving threat.
    DOE, in coordination with the National Institute for Standards and 
Technology (KIST), Department of Homeland Security (DHS), and NERC, is 
leading a public and private sector collaboration to develop a risk 
management process guideline to provide a consistent, repeatable, and 
adaptable process for the electric sector, and enable organizations to 
proactively manage cyber security risk. This guideline is an important 
step towards moving all organizations within the electricity sector 
towards a common risk management process. It incorporates risk 
assessments with ongoing monitoring, enabling organizations to quickly 
and effectively respond to cyber security threats and vulnerabilities.
    Question 3. In previous hearings on cyber security in this 
Committee, we've heard about the efforts being made to work with our 
neighbors in Canada to ensure consistency in practices and procedure 
across the bulk power system. This cross-border collaboration is 
important to me since my state, New Hampshire, shares a border with 
Canada. Do the effects of cyber attacks cross boundaries? Would a 
successful attack on the Canadian power system have an effect in New 
Hampshire?
    Answer. Yes, the effects of a cyber attack can cross boundaries. 
Eastern Canada and the eastern United States are electrically 
interconnected and thus the operations of power companies north of the 
border directly impact the operations of US power companies. Even 
though the control systems of the power companies run independently 
using different hardware architectures and different software, what 
happens to the grid on one side of the border can potentially impact 
the other side of the border. Power systems are designed and have 
safeguards to limit the impacts of any disruption. As an example of how 
these grids are operationally interconnected, in February of 2008, 
portions of the power grid in southeastern Florida shut down due to a 
fault at a single substation. This event in Florida was ``felt'' in 
Canada by way of frequency deviations in Canada.
    Question 4. Could you elaborate about existing cooperation with 
Canada on protecting against vulnerabilities in the electric system?
    Answer. The Department of Energy is partnering on a Department of 
Homeland Security led initiative with private, State and other Federal 
agencies to conduct a Cross Border Regional Resiliency Assessment 
Program (RRAP) focused on energy and transportation for Maine and New 
Brunswick, Canada. The RRAP is a cooperative, DHS-led assessment of 
specific critical infrastructure and regional analysis of the 
surrounding infrastructure to examine vulnerabilities, threats, and 
potential consequences from an all-hazards perspective to identify 
dependencies, interdependencies, cascading effects, resiliency 
characteristics, and gaps. The focus of this RRAP is on the critical 
regional and cross-border energy systems and assets, and their 
interdependencies, specifically with the Transportation Sector. 
International energy dependencies and impacts are being examined as 
well. The RRAP began in May 2011, with vulnerability assessments on 
Energy and Transportation assets scheduled to begin in July 2011. The 
final report is projected to be delivered in April 2012.
    Power companies in the United States and in Canada are very active 
members of NERC and serve on the Critical Infrastructure Protection 
Committee. This committee is involved with many efforts to improve the 
reliability and security of the interconnected power grid through 
standards development, compliance enforcement, assessments of risk and 
preparedness. Canadian companies are active on several NERC task forces 
following up on the 2009 High Impact Low Frequency Event Risk to the 
North American Bulk Power System Workshop cosponsored by NERC and DOE.
    Question 5. Are there procedures currently in place to share 
information about imminent threats across the border?
    Answer. NERC currently disseminates critical information including 
threat information to power companies on both sides of the border. DHS 
and Public Safety Canada constantly monitor the threat landscape and 
provide NERC with threat information related to the electricity sector.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
